No.

In the Supreme Court of the United States
LISA M. PHOENIX, PETITIONER
v.
REGIONS BANK
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

DANIEL R. ORTIZ
UNIVERSITY OF VIRGINIA
SCHOOL OF LAW SUPREME
COURT LITIGATION CLINIC
580 Massie Road
Charlottesville, VA 22903

MARK T. STANCIL
Counsel of Record
MATTHEW M. MADDEN
DONALD BURKE
ROBBINS, RUSSELL, ENGLERT,
ORSECK, UNTEREINER &
SAUBER LLP
2000 K Street, NW
Washington, DC 20006
(202) 775-4500
mstancil@robbinsrussell.com

QUESTION PRESENTED

The Equal Credit Opportunity Act (ECOA) makes
it unlawful for “any creditor to discriminate against
any applicant, with respect to any aspect of a credit
transaction,” on the basis of sex, marital status, and
other
designated
characteristics.
15
U.S.C.
§ 1691(a)(1). For more than three decades, regulations
promulgated first by the Board of Governors of the
Federal Reserve System, and then by the Consumer
Financial Protection Bureau, pursuant to express
delegations of broad rulemaking authority, have
provided that, for certain purposes, the “applicants”
protected from discrimination by ECOA include
guarantors. See 12 C.F.R. §§ 202.2(e), 1002.2(e). The
question presented, which recently divided this Court,
4-4, in Hawkins v. Community Bank of Raymore, 136
S. Ct. 1072 (2016), is:
Whether the regulations issued by the Board and
the CFPB permissibly construe the “applicants”
protected from discrimination by ECOA to encompass
guarantors.

(I)

II
PARTIES TO THE PROCEEDING

Petitioner Lisa M. Phoenix was an appellant in the
court of appeals.*
Respondent Regions Bank was the appellee in the
court of appeals.
RELATED PROCEEDINGS

United States District Court (M.D. Fla.):
Regions Bank v. Legal Outsource PA, No. 2:14-CV00476 (Jan. 31, 2017, opinion amended Feb. 6,
2017) (granting summary judgment to
respondent)
United States Court of Appeals (11th Cir.):
Regions Bank v. Legal Outsource PA, et al., No. 1711736 (Aug. 28, 2019) (affirming summary
judgment in part and reversing in part)
Regions Bank v. Legal Outsource PA, et al., No. 1810244 (Sept. 18, 2019) (affirming denial of
motion to vacate judgment and award of
attorney’s fees to respondent)
Regions Bank v. Legal Outsource PA, et al., No. 1912269 (pending appeal from order denying
motion to recuse)
* The remaining appellants in the court of appeals were Legal
Outsource PA, Periwinkle Partners, LLC, and Charles PaulThomas Phoenix. These parties, along with petitioner, were
among the applicants named in the application for an extension
of time within which to file a petition for a writ of certiorari filed
by undersigned counsel on November 14, 2019. See No. 19A559.
They have determined, however, not to seek further review of the
judgment of the court of appeals. Accordingly, petitioner
respectfully submits that they do not have any interest in the
outcome of this petition.

III
TABLE OF CONTENTS

Page
Opinions Below ....................................................................1
Jurisdiction ..........................................................................1
Statutory and regulatory provisions involved ...................2
Statement.............................................................................2
A.
Statutory and regulatory background ...............2
B.
The parties’ dispute ............................................5
Reasons for granting the petition .......................................7
A.
The decision below deepens the circuit
conflict that this court was unable to
resolve in Hawkins v. Community Bank of
Raymore .............................................................. 8
B.
The decision below is incorrect ........................ 10
C.
The question presented continues to
warrant review, and this case provides a
sound vehicle for resolving it ............................21
Conclusion ..........................................................................23
Appendix A — Court of appeals opinion (Aug. 28,
2019 .........................................................1a
Appendix B — District court opinion and order
(Feb. 6, 2017) .........................................78a
Appendix C — District court opinion and order
(July 27, 2016) .......................................87a
Appendix D — Statutory and regulatory provisions .......................................................103a
TABLE OF AUTHORITIES

Cases:
Anderson Bros. Ford v. Valencia, 452 U.S.
205 (1981) .................................................... 11, 15
Barnhart v. Walton, 535 U.S. 212 (2002) ............ 20
CFTC v. Schor, 478 U.S. 833 (1986) ................... 20
Chevron, U.S.A., Inc. v. Natural Resources
Defense Council, Inc., 467 U.S. 837 (1984) ..... 7, 8

IV

Cases—Continued:
Page
Comerica Bank v. Pars Ice Cream Co., No.
338955, 2018 WL 6625171 (Mich. Ct.
App. Dec. 18, 2018)............................................ 22
Costanzo v. Tillinghast,
287 U.S. 341 (1932) ........................................... 20
Environmental Def. v. Duke Energy Corp.,
549 U.S. 561 (2007) ........................................... 17
Estate of Davis v. Wells Fargo Bank, 633
F.3d 529 (2011) .................................................... 9
Ford Motor Credit Co. v. Milhollin, 444
U.S. 555 (1980) .................................................. 11
General Dynamics Land Sys., Inc. v. Cline,
540 U.S. 581 (2004). .......................................... 21
Hawkins v. Community Bank of Raymore,
136 S. Ct. 1072 (2016) ................................. 2, 7, 8
Hawkins v. Community Bank of Raymore,
761 F.3d 937 (2014) ............................. 7, 9, 15, 16
Household Credit Servs., Inc. v. Pfennig,
541 U.S. 232 (2004) ............................... 11, 13, 15
Kaminsky v. Equity Bank, No. 17-CV-573TCK-FHM, 2018 WL 6011658 (N.D. Okla.
Nov. 16, 2018) .................................................... 21
Manufacturers & Traders Tr. Co. v.
Justofin, No. 2045 MDA 2016, 2017 WL
2684632 (Pa. Super. Ct. June 21, 2017) ........... 22
Mares v. Outsource Receivables Mgmt.,
Inc., No. 1:19-CV-0004, 2019 WL 2248106
(D. Utah May 24, 2019) ..................................... 21
Moran Foods, Inc. v. Mid-Atlantic Mkt.
Dev. Co., 476 F.3d 436 (2007) ....................... 9, 21

V

Cases—Continued:
Page
National R.R. Passenger Corp. v. Boston &
Me. Corp., 503 U.S. 407 (1992) ......................... 15
Paul Revere Protective Life Ins. Co. v. Weis,
535 F. Supp. 379 (E.D. Pa. 1981) ...................... 12
RL BB Acquisition, LLC v. Bridgemill
Commons Dev. Grp., LLC, 754 F.3d 380
(6th Cir. 2014) ............................................. 7, 8, 9
Robinson v. Shell Oil Co., 519 U.S. 337
(1997) ................................................................. 17
Sebelius v. Auburn Reg’l Med. Ctr., 568
U.S. 145 (2013) .................................................. 20
Smith v. United States, 508 U.S. 223 (1993) ...... 14
Union Bank of La. v. Coster’s Ex’rs, 3 N.Y.
203 (1850) .......................................................... 12
United States v. Clintwood Elkhorn Mining
Co., 553 U.S. 1 (2008) ........................................ 13
Valley Nat’l Bank of Ariz. v. Foreign Car
Rental, Inc., 404 P.2d 272 (Colo. 1965)............. 12
Statutes and regulations:
Dictionary Act, 1 U.S.C. § 1 ................................. 16
Dodd-Frank Wall Street Reform and
Consumer Protection Act, Pub. L. No.
111-203, §§ 1071, 1474, 124 Stat. 20562059, 2199-2200................................................. 20
Equal Credit Opportunity Act, Pub. L. No.
93-495, 88 Stat. 1521 (15 U.S.C. § 1691 et
seq.)
§ 502, 88 Stat. 1521 .......................................... 3
15 U.S.C. § 1691(a) ................................... 10, 13
15 U.S.C. § 1691(a)(1) ....................................... 3

VI

Statutes and regulations—Continued:
Page
15 U.S.C. § 1691(d) ......................................... 16
15 U.S.C. § 1691(d)(1) ..................................... 16
15 U.S.C. § 1691(d)(2) ..................................... 16
15 U.S.C. § 1691(d)(6) ..................................... 16
15 U.S.C. § 1691a(b) ............................. 3, 12, 13
15 U.S.C. § 1691a(g) ......................................... 3
15 U.S.C. § 1691b(a) (2006) .................. 3, 10, 18
15 U.S.C. § 1691e(a) ......................................... 3
15 U.S.C. § 1691e(b) ......................................... 3
15 U.S.C. § 1691e(c) .......................................... 3
Equal Credit Opportunity Act
Amendments of 1976, Pub. L. No. 94-239,
§ 2, 90 Stat. 251-252 ............................................ 3
Federal Deposit Insurance Corporation
Improvement Act of 1991, Pub. L. No.
102-242, §§ 212(d), 223, 105 Stat. 23002301, 2306-2307................................................. 20
Omnibus Consolidated Appropriations Act,
1997, Pub. L. No. 104-208, § 2302, 110
Stat. 3009–420-3009–423.................................. 20
Truth in Lending Act, 15 U.S.C. § 1601 et
seq. ..................................................................... 11
12 C.F.R. Pt. 202 (2010) ......................................... 3
12 C.F.R. Pt. 202, App. B ............................... 13, 16
12 C.F.R. § 202.2(e) ................................................ 4
12 C.F.R. § 202.7(d)(1) ........................................... 4
12 C.F.R. Pt. 1002 ................................................. 3
12 C.F.R. Pt. 1002, Supp. I .................................... 3
12 C.F.R. § 1002.2(e) .............................................. 4

VII

Statutes and regulations—Continued:
Page
12 C.F.R. § 1002.7(d)(1) ......................................... 4
12 C.F.R. § 1002.7(d)(6) ......................................... 4
50 Fed. Reg. 48,027 (Nov. 20, 1985) ...................... 4
76 Fed. Reg. 79,442 (Dec. 21, 2011) ...................... 3
Miscellaneous:
Black’s Law Dictionary (10th ed. 2014) .............. 12
38A C.J.S. Guaranty (2008) ................................. 12
Federal Reserve Bulletin, Changes in U.S.
Family Finances from 2013 to 2016:
Evidence from the Survey of Consumer
Finances (Sept. 2017) ........................................ 22
Timothy Murray, Corbin on Contracts (rev.
ed. 2019)............................................................. 12
Oxford English Dictionary,
http://www.oed.com/view/Entry/9724 ............... 12
The Random House Dictionary of the
English Language (2d ed. 1987) ....................... 12
S. Rep. No. 278, 93d Cong., 1st Sess. (1973) ... 2, 18
Webster’s Third New International
Dictionary of the English Language
(1971) ........................................................... 12, 14

In the Supreme Court of the United States
NO.
LISA M. PHOENIX, PETITIONER
v.
REGIONS BANK
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Petitioner Lisa M. Phoenix respectfully petitions
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Eleventh
Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a77a) is reported at 936 F.3d 1184. The opinion of the
district court (App., infra, 78a-86a) is not published
but is available at 2017 WL 443371. A prior opinion of
the district court (App., infra, 87a-102a) is not
published but is available at 2016 WL 4014875.
JURISDICTION

The judgment of the court of appeals was entered
on August 28, 2019. On November 20, 2019, Justice
Thomas extended the time within which to file a
petition for a writ of certiorari to and including
December 26, 2019. This Court’s jurisdiction is
invoked under 28 U.S.C. § 1254(1).
(1)

2
STATUTORY AND REGULATORY
PROVISIONS INVOLVED

Pertinent statutory and regulatory provisions are
reproduced in the appendix to this petition. App.,
infra, 103a-113a.
STATEMENT

This case presents the question that recently
divided this Court, 4-4, in Hawkins v. Community
Bank of Raymore, 136 S. Ct. 1072 (2016): Whether
regulations promulgated under the Equal Credit
Opportunity Act (ECOA) by the Board of Governors of
the Federal Reserve System (Board) and the
Consumer Financial Protection Bureau (CFPB)
permissibly interpret the “applicants” protected from
marital-status discrimination by ECOA to encompass
guarantors. Acknowledging that this issue has
“divided [its] sister circuits,” a divided panel of the
court of appeals held below that ECOA’s definition of
“applicant” unambiguously excludes guarantors.
App., infra, 2a-3a. The panel majority therefore
refused to defer to the definition promulgated by the
Board and the CFPB through notice-and-comment
rulemaking. Id. at 15a. In doing so, the decision below
deepens the split of authority that led this Court to
grant certiorari in Hawkins but which the Court was
ultimately prevented from resolving.
A. Statutory And Regulatory Background

1. Congress enacted ECOA in 1974 to address
“widespread discrimination on the basis of sex and
marital status in the granting of credit to women.”
S. Rep. No. 278, 93d Cong., 1st Sess. 16 (1973) (Senate
Report). Congress sought to eradicate this form of
discrimination by making credit “equally available to
all creditworthy customers without regard to sex or

3

marital status.” ECOA, Pub. L. No. 93-495, § 502, 88
Stat. 1521 (1974).
As amended in 1976, ECOA makes it “unlawful for
any creditor to discriminate against any applicant,
with respect to any aspect of a credit transaction * * *
on the basis of race, color, religion, national origin, sex
or marital status, or age.” 15 U.S.C. § 1691(a)(1); see
ECOA Amendments of 1976, Pub. L. No. 94-239, § 2,
90 Stat. 251-252. ECOA defines an “applicant” as “any
person who applies to a creditor directly for an
extension, renewal, or continuation of credit, or
applies to a creditor indirectly by use of an existing
credit plan for an amount exceeding a previously
established credit limit.” 15 U.S.C. § 1691a(b).
As originally enacted, ECOA authorized the Board
to “prescribe regulations to carry out the purposes of
[ECOA].” 15 U.S.C. § 1691b(a) (2006). Acting pursuant to that broad delegation of rulemaking authority,
the Board promulgated rules known as “Regulation
B.” 12 C.F.R. Pt. 202 (2010). In 2010, Congress
transferred the Board’s rulemaking authority to the
CFPB, 15 U.S.C. § 1691b(a), and the CFPB
subsequently repromulgated Regulation B without
material change. 12 C.F.R. Pt. 1002 & Supp. I; see 76
Fed. Reg. 79,442 (Dec. 21, 2011).1
If a creditor violates ECOA or regulations adopted
under ECOA, such as Regulation B, an “aggrieved
applicant” may bring a suit seeking actual damages,
punitive damages, and equitable or declaratory relief.
15 U.S.C. § 1691e(a)-(c); see id. § 1691a(g).

1 Because the guarantee at issue in this case was executed
before the CFPB repromulgated Regulation B, this petition cites
the Board’s regulations, 12 C.F.R. Pt. 202.

4

2. One component of Regulation B, referred to as
the Additional Parties Rule, governs the circumstances under which a creditor may require a
borrower to provide a signature from another person,
including a guarantor, surety, cosigner, or similar
party. To further ECOA’s prohibition of maritalstatus discrimination, the Additional Parties Rule
provides that “a creditor shall not require the
signature of an applicant’s spouse or other person
* * * if the applicant qualifies under the creditor’s
standards of creditworthiness for the amount and
terms of the credit requested.” 12 C.F.R. § 202.7(d)(1);
see also 12 C.F.R. § 1002.7(d)(1) (current CFPB
regulation). Thus, the Additional Parties Rule
precludes a creditor from requiring married persons
to provide a personal guarantee from a secondary
obligor if the creditor would not require the same of
similarly situated unmarried persons.
The Additional Parties Rule further prohibits a
creditor from “impos[ing] requirements upon an
additional party that the creditor is prohibited from
imposing upon an applicant under” that rule. Id.
§ 1002.7(d)(6). In this manner, the Additional Parties
Rule ensures that, when a creditor requires a personal
guarantee from an officer or owner of a small business
seeking credit, it may not automatically require that
the spouse of a married officer or owner also sign the
guarantee.
Since 1985, Regulation B has defined the term
“applicant” to include, “[f]or purposes of ” the
Additional Parties Rule, “guarantors, sureties,
endorsers, and similar parties.” 12 C.F.R. § 202.2(e);
50 Fed. Reg. 48,027 (Nov. 20, 1985); see 12 C.F.R.
§ 1002.2(e) (current CFPB regulation). The regulatory
definition thus clarifies that violations of the

5

Additional Parties Rule constitute discrimination not
only against the primary borrower, but also against a
guarantor spouse.
B. The Parties’ Dispute

1. Petitioner was the indirect owner of Periwinkle
Partners, LLC, when, in 2011, Periwinkle obtained a
loan from respondent to finance the purchase of
commercial real estate. App., infra, 3a-4a.2 The
Periwinkle loan was guaranteed by petitioner, by
petitioner’s husband, and by Legal Outsource PA, a
law firm owned by petitioner’s husband. Ibid. The
loan documents contained a cross-default provision,
under which a default by any of the guarantors on any
other loan with respondent would also constitute a
default under the Periwinkle loan. Ibid.
In 2014, Legal Outsource failed to make a required
payment on a loan with respondent. App., infra, 4a.
Respondent thereafter declared the Periwinkle loan to
be in default and demanded full and immediate
payment. Ibid. Respondent filed suit against
petitioner, petitioner’s husband, Periwinkle, and
Legal Outsource, alleging breach of contract with
respect to the Legal Outsource and Periwinkle loans
and seeking foreclosure of the mortgage securing the
Periwinkle loan. Id. at 4a.
Petitioner and her codefendants asserted affirmative defenses and counterclaims in response to
respondent’s suit. Among them, petitioner asserted a
counterclaim under ECOA, alleging that respondent
had violated ECOA’s prohibition of marital-status
discrimination by requiring her husband and his
2 At the time the loan at issue here was obtained, Periwinkle’s
sole member was a company wholly owned by petitioner. App.,
infra, 3a.

6

business, Legal Outsource, to guarantee the
Periwinkle loan solely because petitioner and her
husband were married to one another. App., infra, 4a;
2 Appellants’ C.A. App. 399.
2. The district court granted summary judgment
against petitioner on her ECOA counterclaim. Relying
on a prior opinion dismissing an ECOA counterclaim
asserted by petitioner’s husband (App., infra, 95a96a), the district court concluded that, because
petitioner was a guarantor rather than a borrower,
she could not pursue a claim under ECOA. Id. at 85a.3
3. A divided panel of the Eleventh Circuit affirmed
in relevant part. App., infra, 1a-31a.4
a. The panel majority held “that a guarantor is not
an ‘applicant’” entitled to assert a marital-status
discrimination claim under ECOA, an issue that it
acknowledged “has divided [its] sister circuits.” App.,
infra, 2a-3a. The majority reasoned that “the ordinary
meaning of the term ‘applicant’ is one who requests
credit to benefit himself ” and that “[a] guarantor does
not fit within this definition.” Id. at 10a. The majority
further reasoned that other provisions of ECOA
referring to “applicants” confirm that the term
includes only borrowers. Id. at 12a-15a.
Having concluded that ECOA “unambiguously
excludes guarantors” from qualifying as “applicants,”
the panel majority further concluded that Regulation
B’s definition of the term was not entitled to deference
3 The district court granted judgment for respondent on all
other claims as well. App., infra, 86a; 4 Appellants’ C.A. App.
740.
4 The court of appeals remanded with instructions to correct an
error in the judgment awarded to respondent on its breach of
contract claim in connection with the Legal Outsource loan. App.,
infra, 30a-31a.

7

under Chevron, U.S.A., Inc. v. Natural Resources
Defense Council, Inc., 467 U.S. 837 (1984). See App.,
infra, 15a. The majority acknowledged that the Sixth
Circuit had deferred to Regulation B’s definition after
concluding that the term “applicant” is ambiguous.
Ibid. (citing RL BB Acquisition, LLC v. Bridgemill
Commons Dev. Grp., LLC, 754 F.3d 380, 385 (6th Cir.
2014)). But it rejected that conclusion and instead
sided with the Eighth Circuit’s decision in Hawkins v.
Community Bank of Raymore, 761 F.3d 937 (2014),
aff’d by an equally divided Court, 136 S. Ct. 1072
(2016). See App., infra, 15a.
b. Judge Rosenbaum dissented from the majority’s
resolution of petitioner’s ECOA counterclaim. App.,
infra, 31a-77a. She reasoned that defining “applicant”
to encompass guarantors was consistent with ECOA’s
text and furthered ECOA’s purpose of eradicating
marital-status discrimination. Id. at 70a-73a. She also
emphasized that Congress has repeatedly amended
ECOA since 1985 without disturbing the longstanding
administrative definition of “applicant.” Id. at 73a76a. Accordingly, Judge Rosenbaum would have
deferred to Regulation B’s definition. Id. at 76a.
REASONS FOR GRANTING THE PETITION

A divided panel of the court of appeals invalidated
Regulation B’s longstanding definition of “applicant,”
on the theory that the term unambiguously excludes
guarantors. The decision below thus deepens the
circuit conflict that led this Court to grant certiorari
in Hawkins v. Community Bank of Raymore, 136 S.
Ct. 1072 (2016), but which the Court was unable to
resolve in that case. Moreover, the decision below is
incorrect. ECOA’s definition of “applicant” can
comfortably encompass guarantors. The majority’s

8

contrary decision is therefore out of step with wellsettled principles of judicial deference to
administrative rulemaking.
Because this case provides a sound vehicle for
addressing a recurring and important issue of federal
law, the petition for a writ of certiorari should be
granted.
A. The Decision Below Deepens The Circuit
Conflict That This Court Was Unable To Resolve
in Hawkins v. Community Bank of Raymore

By deepening the circuit conflict that this Court
sought to resolve in Hawkins, the decision below
confirms that the need for this Court’s intervention
has only increased with the passage of time.
Certiorari should accordingly be granted so that this
Court can resolve the conflict in the courts of appeals.
1. When this Court granted certiorari in Hawkins,
there was a clear split of authority in the courts of
appeals on the question presented. The Sixth Circuit
had held that ECOA’s definition of “applicant” was
sufficiently broad to “encompass all those who offer
promises in support of an application—including
guarantors, who make formal requests for aid in the
form of credit for a third party.” RL BB Acquisition,
LLC v. Bridgemill Commons Dev. Grp., LLC, 754 F.3d
380, 385 (2014). At step two of the framework
articulated by this Court in Chevron, U.S.A., Inc. v.
Natural Resources Defense Council, Inc., 467 U.S. 837
(1984), the Sixth Circuit held that Regulation B’s
definition of “applicant” is a “permissible construction
of the statute” that is entitled to deference. RL BB
Acquisition, 754 F.3d at 385.
In Hawkins, by contrast, the Eighth Circuit
concluded that “ECOA clearly provides that a person
does not qualify as an applicant under the statute

9

solely by virtue of executing a guaranty to secure the
debt of another.” Hawkins v. Community Bank of
Raymore, 761 F.3d 937, 941 (2014), aff’d by an equally
divided Court, 136 S. Ct. 1072 (2016). Concluding that
ECOA’s text is “unambiguous,” the Eighth Circuit
refused to defer to Regulation B’s definition of
“applicant” and held “that a guarantor is not protected
from marital-status discrimination by the ECOA.” Id.
at 942.5
2. The decision below squarely—and openly—
deepens the circuit conflict that led this Court to grant
certiorari in Hawkins. The panel majority held that
ECOA’s definition of “applicant” unambiguously
excludes guarantors. App., infra, 15a. Thus, the
majority refused to defer to Regulation B’s definition
of the term. Ibid. As the majority correctly
acknowledged, ibid., that conclusion is irreconcilable
with the Sixth Circuit’s decision upholding the
regulatory definition in RL BB Acquisition.
Thus, the circuit conflict on the question presented
has persisted—and, indeed, become further entrenched—after this Court was unable to resolve it in
Hawkins. Further review is therefore warranted.

5 In the decision below, the panel majority sought to draw
support from the Seventh Circuit’s statement that “[t]here is
nothing ambiguous about ‘applicant’ and no way to confuse an
applicant with a guarantor.” App., infra, 15a (quoting Moran
Foods, Inc. v. Mid-Atlantic Mkt. Dev. Co., 476 F.3d 436, 441
(2007)). The Seventh Circuit itself has clarified, however, that
this statement in Moran was dicta. See Estate of Davis v. Wells
Fargo Bank, 633 F.3d 529, 538 (2011). The Seventh Circuit has
not yet resolved whether Regulation B’s definition of “applicant”
is entitled to deference.

10
B. The Decision Below Is Incorrect

This Court’s review is also warranted because the
court of appeals erred by invalidating Regulation B’s
longstanding definition of “applicant.” For more than
30 years, the Board and the CFPB have understood
the “applicants” protected from discrimination by
ECOA to include not only borrowers, but also
secondary obligors, such as guarantors, sureties, and
cosigners. That interpretation, adopted through
notice-and-comment rulemaking and pursuant to
ECOA’s express delegation of broad interpretive
authority to the agencies, is a permissible
construction of ECOA. It is therefore entitled to
deference under Chevron.
1. In ECOA, Congress provided that “[i]t shall be
unlawful for any creditor to discriminate against any
applicant, with respect to any aspect of a credit
transaction.” 15 U.S.C. § 1691(a). Congress did not,
however, attempt to set out a list of the practices that
constitute forbidden discrimination in comprehensive
detail. Instead, Congress delegated broad authority—
first to the Board, and then to the CFPB—to
“prescribe regulations to carry out the purposes of
[ECOA].” Id. § 1691b(a). Congress further provided:
These regulations may contain but are not limited
to such classifications, differentiation, or other
provision, and may provide for such adjustments
and exceptions for any class of transactions, as in
the judgment of the [agency] are necessary or
proper to effectuate the purposes of [ECOA], to
prevent circumvention or evasion thereof, or to
facilitate or substantiate compliance therewith.
Ibid.

11

ECOA’s delegation of interpretative authority is
notably expansive. In construing an identically
worded delegation of authority in the Truth in
Lending Act (TILA), 15 U.S.C. § 1601 et seq., this
Court has emphasized that Congress “specifically
designated the [Board] * * * as the primary source for
interpretation and application of [the] law.” Household Credit Servs., Inc. v. Pfennig, 541 U.S. 232, 238
(2004) (first set of brackets in original). For that
reason, this Court has cautioned, courts must “refrain
from substituting their own interstitial lawmaking for
that of the [Board].” Id. at 244 (alteration in original)
(quoting Ford Motor Credit Co. v. Milhollin, 444 U.S.
555, 568 (1980)). Likewise, a court should not override
a considered regulatory judgment by privileging its
own “particular characterization” of regulated
transactions when that “characterization * * * is not
clearly compelled by the terms and definitions” of the
statute and is “one with which others could
reasonably disagree.” Id. at 240. To the contrary, as
with the TILA, “the Board’s regulation implementing
this legislation should be accepted by the courts”
absent “some obvious repugnance to the statute.”
Anderson Bros. Ford v. Valencia, 452 U.S. 205, 219
(1981).
2. In this case, the panel majority did not question
these broad principles of judicial deference to
administrative rulemaking. Instead, the majority
refused to defer to Regulation B because, in its view,
ECOA’s text unambiguously excludes guarantors
from qualifying as “applicants.” App., infra, 7a-15a.
That is incorrect.
a. ECOA defines “applicant” as “any person who
applies to a creditor directly for an extension, renewal,
or continuation of credit or applies to a creditor

12

indirectly by use of an existing credit plan for an
amount exceeding a previously established credit
limit.” 15 U.S.C. § 1691a(b). To “apply” for something
ordinarily means “to make a (formal) request.” Oxford
English Dictionary, http://www.oed.com/view/Entry/
9724.6 Thus, under ECOA, a person qualifies as an
“applicant” if she requests the extension of credit.
Guarantors
fall
comfortably
within
this
understanding of “applicant.” Indeed, it has long been
understood that a guarantor “impliedly request[s]”
the extension of credit to the primary borrower. 38A
C.J.S. Guaranty § 26 (2008); see 1 Timothy Murray,
Corbin on Contracts § 3.14 (rev. ed. 2019) (Corbin) (“In
most cases of guaranty contracts, the offer comes from
the guarantor requesting the giving of credit to a
principal debtor * * * .”).7 The purpose of the
guarantor’s offer of personal liability is to induce the
creditor to make a loan to the primary borrower, and
a guarantee is typically enforceable precisely because
the creditor’s extension of credit is bargained-for
consideration for the guarantor’s promise. 3 Corbin
§ 9.4.
In practice, moreover, prospective guarantors are
often as involved in the application process as the
6 See also Black’s Law Dictionary 120 (10th ed. 2014) (“[t]o
make a formal request or motion”); The Random House
Dictionary of the English Language 102 (2d ed. 1987) (“to make
an application or request”); Webster’s Third New International
Dictionary of the English Language 105 (1971) (“to make an
appeal or a request, esp. formally and often in writing and usu.
for something of benefit to oneself”).
7 See also, e.g., Paul Revere Protective Life Ins. Co. v. Weis, 535
F. Supp. 379, 386 (E.D. Pa. 1981) (“implied[] request[ ]”); Valley
Nat’l Bank of Ariz. v. Foreign Car Rental, Inc., 404 P.2d 272, 274
(Colo. 1965) (“request for credit”); Union Bank of La. v. Coster’s
Ex’rs, 3 N.Y. 203, 211 (1850) (“implies a request”).

13

primary borrower, including by providing extensive
financial information and subjecting themselves to a
similar creditworthiness analysis. See, e.g., 12 C.F.R.
Pt. 202, App. B (model consumer credit applications).
That was the case here, with petitioner’s financial
information playing an important role in respondent’s
underwriting decision. See 3 Appellants’ C.A. App.
565.
The panel majority was therefore incorrect in
asserting that, “[a]lthough a guarantor makes a
promise related to an applicant’s request for credit,
the guaranty is not itself a request for credit.” App.,
infra, 11a. In light of the role a guarantor plays in a
credit transaction, a guarantor is reasonably viewed
as requesting an extension of credit to the primary
borrower and is thus reasonably understood to be an
“applicant” under ECOA.
In concluding otherwise, the majority treated its
own “particular characterization” of a guarantor’s role
as authoritative even though that understanding “is
not clearly compelled by [ECOA’s] terms and
definitions” and is “one with which others could
reasonably disagree.” Pfennig, 541 U.S. at 240. That
would be error under any circumstances, and it was
particularly mistaken here given Congress’s
deliberately broad phrasing of ECOA’s prohibition
against discrimination, which makes it unlawful for
“any creditor to discriminate against any applicant,
with respect to any aspect of a credit transaction” and
defines “applicant” to include “any person who
applies” for credit. 15 U.S.C. §§ 1691(a), 1691a(b)
(emphases added); cf. United States v. Clintwood
Elkhorn Mining Co., 553 U.S. 1, 7 (2008) (“Five ‘any’s’
in one sentence and it begins to seem that Congress
meant the statute to have expansive reach.”).

14

b. The panel majority also erred by engrafting an
idiosyncratic and unsupported additional requirement onto its understanding of “applicant.” In the
majority’s view, to qualify as an “applicant” one must
not only request credit but must also “request[] credit
to benefit himself.” App., infra, 10a (emphasis added).
That proposition is incorrect, and even if accepted it
would not justify the majority’s bottom-line conclusion.
The only support the majority offered for its
understanding was a single dictionary that defines
“apply” as “to make an appeal or a request esp[ecially]
formally and often in writing and usu[ally] for
something of benefit to oneself.” App., infra, 10a.
(emphasis added) (quoting Webster’s Third New
International Dictionary of the English Language 105
(1971) (Webster’s Third)). But most dictionaries do not
include that limitation in their definition of the term
“apply.” See p. 12 & note 6, supra. And even the
definition invoked by the majority states only that the
word “usu[ally]” refers to a request for something that
is of benefit to the requestor. Webster’s Third 105. On
its own terms, therefore, the definition does not even
suggest that “apply” categorically excludes requests
made by one person for the benefit of someone else. Cf.
Smith v. United States, 508 U.S. 223, 230 (1993)
(holding that a statutory phrase’s meaning is not
delimited by “the example” that is the “first to come to
mind” when the phrase is used).
Nor could one dictionary’s idiosyncratically narrow
approach establish that ECOA unambiguously
excludes a broader meaning of “applicant.” Where
there are “alternative dictionary definitions” that
“each mak[e] some sense under the statute,” that is
simply evidence that “the statute is open to

15

interpretation.” National R.R. Passenger Corp. v.
Boston & Me. Corp., 503 U.S. 407, 418 (1992). In that
situation, a reviewing court must defer to the
regulators’ reasonable choice among the permissible
interpretations. See, e.g., Pfennig, 541 U.S. at 244;
Anderson Bros. Ford, 452 U.S. at 219.
In any event, Regulation B’s definition of
“applicant” would be a permissible interpretation
even if the term were understood to reach only an
individual who requests something to benefit himself.
As the panel majority recognized, a guarantor’s offer
to take on personal liability “ordinarily stems from the
guarantor’s desire that the application be granted.”
App., infra, 11a. Thus, a guarantor does derive a
benefit when a creditor extends a loan to the primary
borrower—that is precisely the reason the guarantor’s
promise to repay is enforceable. See p. 12, supra.
For that reason, when the panel majority turned to
applying its definition of “applicant,” it could justify
its conclusion that the term does not encompass
guarantors only by imposing a still further limitation
on the term’s meaning. In the majority’s view, an
individual must not only request an extension of
credit that will benefit her; she must also personally
stand to receive credit from the lender. App., infra, 11a
(stressing that a guarantee is “certainly not a request
for credit for the guarantor”) (emphasis added). But
the majority cited no authority or logic to support that
limitation, which has no basis in ECOA.
c. Invoking Judge Colloton’s concurring opinion in
Hawkins, 761 F.3d at 943-944, the panel majority
asserted that other provisions of ECOA demonstrate
that the term “applicant” necessarily includes only
borrowers who request credit for their own use. App.,
infra, 12a-15a. But the majority’s effort to derive

16

support for its narrow understanding from the
statutory context is unavailing.
For starters, as the United States has previously
explained in addressing Judge Colloton’s Hawkins
concurrence, none of the provisions invoked by the
panel majority are incompatible with Regulation B’s
understanding that the statutory term “applicant” can
encompass guarantors. See U.S. Amicus Br. at 30-32,
Hawkins, supra (No. 14-520). Indeed, several of the
textual inferences proffered by the majority below
cannot withstand even casual scrutiny.8
The panel majority observed, for instance, that ECOA
requires a creditor to “notify the applicant of its action on the
application.” 15 U.S.C. § 1691(d)(1) (emphasis added). The
majority reasoned that this “use of the definite article”
establishes that an “applicant is the single person to whom credit
would be extended.” App., infra, 13a (quoting Hawkins, 761 F.3d
at 943 (Colloton, J., concurring)). But the Dictionary Act
forecloses that inference by providing that “words importing the
singular include and apply to several persons, parties, or things.”
1 U.S.C. § 1. Moreover, the majority’s insistence that statutory
references to an “applicant” must necessarily refer to a single
person cannot account for the common situation in which two
parties apply jointly for shared credit—a situation in which both
parties are “applicants” under any conceivable understanding of
that term.
8

The majority also erred in invoking a separate provision of
ECOA that requires creditors to provide notice to “[e]ach
applicant against whom adverse action is taken” and specifies
that “a refusal to extend additional credit under an existing
credit arrangement” is not an “adverse action” if “the applicant
is delinquent or otherwise in default.” 15 U.S.C. § 1691(d)(2), (6).
The majority suggested that Section 1691(d)’s references to
“applicants” could not encompass guarantors and other
secondary obligors because these parties “do[ ] not in ordinary
usage become ‘delinquent’ or ‘in default.’” App., infra, 14a. In
fact, however, it is perfectly common to apply those terms to a
guarantor who has failed to satisfy his obligations. See, e.g., 12
C.F.R. Pt. 202, App. B (2010) (Uniform Residential Loan

17

More broadly, and even if the panel majority had
successfully identified one or more references to
“applicant” that would exclude guarantors from the
term’s reach, the majority’s reliance on a handful of
scattered statutory provisions would not demonstrate
that guarantors are unambiguously excluded whenever “applicant” appears in ECOA. This Court does not
apply an “effectively irrebuttable” presumption “that
the same term has the same meaning when it occurs
here and there in a single statute.” Environmental
Def. v. Duke Energy Corp., 549 U.S. 561, 574 (2007).
To the contrary, while a statutory term “may have a
plain meaning in the context of a particular section,”
it does not follow that “the term has the same meaning
in all other sections and in all other contexts.”
Robinson v. Shell Oil Co., 519 U.S. 337, 343 (1997)
Thus, an agency charged by Congress with implementing a statute may appropriately conclude that
“[a] given term in the same statute * * * take[s] on
distinct characters from association with distinct
statutory objects calling for different implementation
strategies.” Environmental Def., 549 U.S. at 574. That
principle applies with added force here in light of
ECOA’s broad delegation of rulemaking authority to
the Board and the CFPB, which includes express
authorization to set forth “such classifications,

Application asking whether mortgage applicant is “delinquent or
in default on any Federal debt or any other loan, mortgage,
financial obligation, bond, or loan guarantee”) (emphasis added).
Indeed, respondent’s complaint in this litigation alleged that the
“Obligors,” a term defined to include petitioner and the other
guarantors of the Periwinkle loan, were “in default” on their
obligation to repay the funds that Periwinkle had borrowed from
respondent. 1 Appellants’ C.A. App. 39, 45.

18

differentiation, * * * [and] adjustments and exceptions” as are determined to be necessary to effectuate
ECOA’s purposes. 15 U.S.C. § 1691b(a).
3. Regulation B’s definition of “applicant” also
furthers ECOA’s central purposes of eradicating
martial-status discrimination and ensuring “equal
access to the benefits of full participation in the credit
economy.” Senate Report 18. By contrast, the panel
majority’s approach would frustrate those purposes by
denying relief to parties that are victims of the core
discriminatory harms targeted by the statute and by
drawing unwarranted distinctions between parties
who are equivalently situated for all relevant
purposes.
Most obviously, excluding guarantors from the
definition of “applicant” ignores the fact that a spouse
who is improperly required to guarantee a loan suffers
the sort of discrimination that ECOA was enacted to
prevent. Such a requirement constitutes maritalstatus discrimination not only against the primary
borrower, who is improperly denied the opportunity to
obtain individual credit, but also against the
guarantor spouse, who is required to assume an
unwanted debt obligation because of her marriage to
the primary borrower. In this scenario, the guarantor
spouse is also denied the ability to maintain an
independent credit profile, thereby suffering one of
the core discriminatory harms ECOA was enacted to
prevent. See Senate Report 16-17.
The same is true when a lender improperly
requires the owner of a small business to provide not
only a personal guarantee in order to obtain a loan,
but also a guarantee from her spouse. When a lender
violates the Additional Parties Rule in this manner,
the spouse who is required to take on the unwanted

19

guarantee suffers the same discriminatory harms
discussed above. Moreover, the owner of the small
business is denied the opportunity to obtain credit for
her business on non-discriminatory terms, and the
requirement that she obtain her spouse’s guarantee
leads to further entanglement of the two spouses’
credit profiles. Excluding guarantors from the
definition of “applicant,” as the panel majority’s
decision requires, would leave both spouses outside
ECOA’s protections even though they both suffer
discrimination of precisely the sort ECOA was
enacted to prevent.
The majority’s reading of “applicant” would also
create arbitrary distinctions between similarly
situated parties. That reading focuses exclusively on
a party’s formal role in the proposed credit transaction. Thus, a spouse who is improperly required to
co-sign or guarantee a loan is excluded from ECOA’s
protections, whereas a spouse who is improperly
required to become a joint borrower would qualify as
an “applicant” entitled to protection and relief under
ECOA. But the two scenarios are entirely equivalent
from the creditor’s standpoint, because the creditor
secures the right to pursue both spouses for the full
amount of the loan. And both scenarios involve the
same sort of discriminatory harms: The primary
borrower is denied the opportunity to obtain
individual credit, his spouse is required to take on an
unwanted liability, and both spouses are denied the
ability to maintain independent credit profiles. By
treating guarantors as “applicants” for purposes of the
Additional Parties Rule, Regulation B’s definition
ensures that ECOA’s protections extend to both
scenarios. Accordingly, the regulatory definition

20

avoids drawing illogical distinctions that lack any
basis in ECOA’s overriding objectives.
4. Finally, the reasonableness of Regulation B’s
definition of “applicant” is underscored by the
administrative interpretation’s “longstanding duration.” Barnhart v. Walton, 535 U.S. 212, 220 (2002)
(internal quotation marks omitted). Regulation B
defined “applicant” to encompass guarantors and
other secondary obligors more than three decades ago,
and the Board and the CFPB have not departed from
that definition since that time. Under these circumstances, Regulation B’s definition is entitled to
“particular deference.” Ibid.
Moreover, Congress has revisited ECOA repeatedly since the Board adopted Regulation B’s current
definition of “applicant” in 1985, leaving the statutory
definition of “applicant” unchanged each time.9 As
this Court has held, “congressional failure to revise or
repeal [an] agency’s interpretation is persuasive
evidence that the interpretation is the one intended
by Congress.” CFTC v. Schor, 478 U.S. 833, 846
(1986); accord Sebelius v. Auburn Reg’l Med. Ctr., 568
U.S. 145, 159 (2013); Costanzo v. Tillinghast, 287 U.S.
341, 345 (1932).
That inference is particularly sound here because
the last of these revisions occurred after the Seventh
Circuit had expressed doubts, in dicta, regarding
Regulation B’s inclusion of guarantors in its definition
9 See, e.g., Dodd-Frank Wall Street Reform and Consumer
Protection Act, Pub. L. No. 111-203, §§ 1071, 1474, 124 Stat.
2056-2059, 2199-2200; Omnibus Consolidated Appropriations
Act, 1997, Pub. L. No. 104-208, § 2302, 110 Stat. 3009–420-3009–
423; Federal Deposit Insurance Corporation Improvement Act of
1991, Pub. L. No. 102-242, §§ 212(d), 223, 105 Stat. 2300-2301,
2306-2307.

21

of “applicant.” See Moran Foods, Inc. v. Mid-Atlantic
Mkt. Dev. Co., 476 F.3d 436, 441 (2007). The Seventh
Circuit’s dicta clearly flagged the issue presented
here, undercutting any suggestion that it simply
escaped Congress’s attention. Accordingly, as the
dissent below correctly observed, “[c]ongressional
inaction on this point in the face of thirty years of
uniformity ‘supports adherence to the traditional
view’ that the [Board’s] inclusion of guarantors within
the term ‘applicants’ is valid.” App., infra, 76a
(citation omitted) (quoting General Dynamics Land
Sys., Inc. v. Cline, 540 U.S. 581, 594 (2004)).
C. The Question Presented Continues To Warrant
Review, And This Case Provides A Sound
Vehicle For Resolving It

The question presented is an important one, as
evidenced both by this Court’s prior grant of certiorari
in Hawkins and by the broad effects of the court of
appeals’ erroneous decision. This case also presents a
sound vehicle for resolving the question presented.
1. To state the obvious, this Court’s grant of
certiorari in Hawkins provides powerful confirmation
that the question presented warrants review. The
circuit split this Court sought to address in that case
remains unresolved and, with the addition of the
decision below, has become further entrenched. See
pp. 8-9, supra. Moreover, several other federal and
state courts have confronted the question presented in
the few years since this Court’s equally divided
decision in Hawkins, thereby confirming that the
issue arises frequently.10 No development since
See Mares v. Outsource Receivables Mgmt., Inc., No. 1:19CV-0004, 2019 WL 2248106, at *3 (D. Utah May 24, 2019);
Kaminsky v. Equity Bank, No. 17-CV-573-TCK-FHM, 2018 WL
10

22

Hawkins diminishes the need for this Court’s intervention.
2. By erroneously invalidating Regulation B’s
definition of “applicant,” the decision below frustrates
the effective implementation and enforcement of
ECOA’s prohibition of discrimination in lending. That
critical safeguard has taken on increasing importance
given the prominent role of credit in the modern
economy. According to a recent estimate, more than
three quarters of American families hold some type of
debt. See Federal Reserve Bulletin, Changes in U.S.
Family Finances from 2013 to 2016: Evidence from the
Survey of Consumer Finances 22 (Sept. 2017).11 The
scope of ECOA’s protections therefore affects a vast
swath of the American populace.
3. This case provides a sound vehicle for
addressing the question presented. It arises on
summary judgment, and the sole basis for the panel
majority’s decision was its conclusion that petitioner
could not pursue a claim under ECOA because she
was a guarantor, rather than a borrower. App., infra,
7a. This case therefore cleanly presents the issue that
has divided the lower courts and provides this Court
with an opportunity to resolve that division of
authority.

6011658, at *3 n.1 (N.D. Okla. Nov. 16, 2018); Comerica Bank v.
Pars Ice Cream Co., No. 338955, 2018 WL 6625171, at *9 (Mich.
Ct. App. Dec. 18, 2018), appeal denied, 929 N.W.2d 350 (Mich.
2019); Manufacturers & Traders Tr. Co. v. Justofin, No. 2045
MDA 2016, 2017 WL 2684632, at *4 (Pa. Super. Ct. June 21,
2017).
11 https://www.federalreserve.gov/publications/files/scf17.pdf.

23
CONCLUSION

The petition for a writ of certiorari should be
granted.
Respectfully submitted.
DANIEL R. ORTIZ
UNIVERSITY OF VIRGINIA
SCHOOL OF LAW SUPREME
COURT LITIGATION CLINIC
580 Massie Road
Charlottesville, VA 22903

DECEMBER 2019

MARK T. STANCIL
Counsel of Record
MATTHEW M. MADDEN
DONALD BURKE
ROBBINS, RUSSELL, ENGLERT,
ORSECK, UNTEREINER &
SAUBER LLP
2000 K Street, NW
Washington, DC 20006
(202) 775-4500
mstancil@robbinsrussell.com

APPENDIX

APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 17-11736
REGIONS BANK, PLAINTIFF-COUNTER DEFENDANTAPPELLEE

v.
LEGAL OUTSOURCE, PA; PERIWINKLE PARTNERS, LLC;
CHARLES PAUL-THOMAS PHOENIX; LISA M. PHOENIX,
DEFENDANTS-COUNTER CLAIMANTS-APPELLANTS
Argued: Jan. 29, 2019
Decided: Aug. 28, 2019
Appeal from the United States District Court
for the Middle District of Florida
(2:14-cv-000476-PAM-MRM)
Paul A. Magnuson, District Judge, Presiding

(1a)

2a
Before: WILLIAM PRYOR and ROSENBAUM, Circuit
Judges, and MOORE,* District Judge.
WILLIAM PRYOR, Circuit Judge:
The main issue presented by this appeal has
divided our sister circuits: whether a guarantor
constitutes an “applicant” under the Equal Credit
Opportunity Act. See 15 U.S.C. §§ 1691(a), 1691a(b).
Compare Hawkins v. Cmty. Bank of Raymore, 761
F.3d 937 (8th Cir. 2014), aff’d by an equally divided
Court, 136 S. Ct. 1072 (2016) (holding that a
guarantor unambiguously is not an “applicant” under
the Act), and Moran Foods, Inc. v. Mid-Atl. Mkt. Dev.
Co., 476 F.3d 436 (7th Cir. 2007) (opining the same),
with RL BB Acquisition, LLC v. Bridgemill Commons
Dev. Grp., 754 F.3d 380 (6th Cir. 2014) (holding that
the term “applicant” is ambiguous and applying
Chevron deference to an agency interpretation that a
guarantor is an “applicant”). Legal Outsource PA, a
law firm wholly owned by Charles Phoenix, defaulted
on a loan from Regions Bank, which triggered the
default of a loan and mortgage that Regions issued to
Periwinkle Partners, LLC, an entity wholly owned by
Charles’s wife, Lisa Phoenix. After the obligors
refused to cure the defaults, Regions sued to enforce
its rights under the loans and mortgage. The obligors
filed several counterclaims asserting that Regions
violated the Equal Credit Opportunity Act by
discriminating against Lisa and Charles based on
their marital status when it demanded that they and
Legal Outsource guarantee the Periwinkle loan. The
district court granted summary judgment in favor of
Honorable K. Michael Moore, United States District Chief
Judge for the Southern District of Florida, sitting by designation.
*

3a
Regions. The district court ruled that Lisa Phoenix’s
counterclaims failed because she lacked standing as
an “applicant” when she was instead a guarantor.
Because we conclude that a guarantor is not an
“applicant” under the Equal Credit Opportunity Act,
we affirm the summary judgment in favor of Regions.
But the parties agree that we must remand to correct
an error in the judgment.
I. BACKGROUND

Beginning in 2005, Regions Bank extended a
$450,000 line of credit to Legal Outsource PA, a law
firm owned by Charles Phoenix. Legal Outsource
renewed the loan on a yearly or semi-yearly basis, and
it was last renewed in May 2013 with a maturity date
in February 2014. Charles Phoenix also guaranteed
the 2013 Outsource loan.
In 2011, Regions lent nearly $1.7 million to
Periwinkle Partners, LLC, for the purchase of a
shopping center on Sanibel Island, Florida. At that
time, the sole member of Periwinkle Partners was a
company owned by Charles Phoenix’s wife, Lisa
Phoenix. Charles Phoenix, Lisa Phoenix, and Legal
Outsource all guaranteed the Periwinkle loan. Under
the Periwinkle loan, a default by any of the parties,
including the guarantors, on any other loans that they
had with Regions constitutes a default under the
Periwinkle loan.
In August 2013, Regions concluded that the
Outsource and Periwinkle loans were in default based
on the obligors’ failure to provide requested financial
information and based on Periwinkle’s failure to pay
its property taxes. Regions then warned the obligors
several times that it would accelerate the loans if the
obligors failed to cure the default. In February 2014,

4a
the Outsource loan matured and Legal Outsource,
which was no longer in operation, failed to pay it. Two
months later, Regions declared the Outsource loan in
default and demanded its full and immediate
payment. According to the obligors, this declaration
was a bad-faith attempt by Regions to coerce Lisa
Phoenix into securing the Outsource loan with
Periwinkle as collateral, but she refused to do so. After
the Outsource loan default, Regions also declared the
Periwinkle loan in default and demanded its full and
immediate payment. The obligors never cured any of
the defaults.
In August 2014, Regions filed a complaint against
Charles and Lisa Phoenix, Legal Outsource, and
Periwinkle Partners for breach of the Legal Outsource
promissory note and guaranty, breach of the
Periwinkle promissory note and guaranties,
foreclosure of the Periwinkle mortgage, and
receivership. The obligors answered the complaint
and interposed 73 affirmative defenses and eight
counterclaims.
The obligors twice amended the answer and
added four new counterclaims that each asserted a
violation of the Equal Credit Opportunity Act. The
counterclaims—three of which were individually
brought by Charles Phoenix, Lisa Phoenix, and Legal
Outsource respectively, and one of which was brought
by Lisa Phoenix and Periwinkle Partners—alleged
that Regions discriminated on the basis of marital
status when it required the Phoenixes and Legal
Outsource to guarantee the Periwinkle loan. Regions
then moved to dismiss the newly added
counterclaims, and the district count granted that
motion in part. The district court ruled that the

5a
guarantors of the Periwinkle loan all lacked statutory
standing because they were not “applicant[s]” under
the Equal Credit Opportunity Act. But the court also
ruled that one of the counterclaims, which was
brought on behalf of Lisa Phoenix and Periwinkle
Partners, had sufficiently alleged that Lisa Phoenix
and Periwinkle Partners were “applicants” under the
Act, so it denied the motion as to that count.
After Regions moved for summary judgment, the
district court granted summary judgment in favor of
Regions both for its claims for breach of the
promissory notes and guaranties and against the
obligors’ counterclaims. The district court ruled that
the obligors “do not dispute that they were in default
under the relevant notes and guaranties,” and it ruled
that the counterclaims had “no merit.” With respect to
the remaining counterclaim under the Equal Credit
Opportunity Act—the joint claim by Lisa Phoenix and
Periwinkle—the district court ruled that Periwinkle’s
claim of discrimination was “frivolous” because, as an
entity, it had no marital status. And the district court
ruled that “[t]he claim fails as to Lisa Phoenix as well
because, aside from the lack of any evidence to
establish any alleged discrimination on the basis of
marital status, she was not an ‘applicant’ for the
Periwinkle loan[;] she was a guarantor.” The district
court referred to its earlier order ruling that
guarantors were not “applicants.”
The district court later issued a second summary
judgment order granting foreclosure on the
Periwinkle mortgage. The court then dismissed the
matter with prejudice and directed the clerk to enter
the judgment. The clerk entered the judgment, and
the obligors filed their notice of appeal.

6a
Regions moved to amend the judgment to state,
among other things, the amounts due to Regions from
the obligors. The district court granted Regions’
motion in part, instructing the clerk to enter an
amended judgment providing for the following relief:
[T]he Court will order the Clerk to amend the
Judgment to provide that Regions Bank prevails
on its claims against Defendants. The Judgment
will further provide that Regions Bank is entitled
to recover $540,054.24 from Defendants for the
Legal Outsource loan . . . .
The clerk then entered the amended judgment, and
the obligors amended their notice of appeal to include
the order granting Regions’ motion to clarify and the
amended judgment among the items subject to their
appeal.
II. STANDARD OF REVIEW

We review a grant of summary judgment de novo.
Moore ex rel. Moore v. Reese, 637 F.3d 1220, 1231 (11th
Cir. 2011).
III. DISCUSSION

This appeal presents several issues about
whether the obligors are liable for the default of the
Legal Outsource loan and the Periwinkle loan and
mortgage. Although the obligors raise a host of issues
that seek to obscure the nature of their defaults, all
but one of them lack any merit, and some border on
being frivolous. We decline to address them any
further.
We divide our discussion of the remaining issues
in two parts. First, we explain that Lisa Phoenix’s
counterclaims under the Equal Credit Opportunity
Act fail because a guarantor does not qualify as an

7a
“applicant” under the Act. Second, we explain that a
limited remand to correct erroneous language from
the amended judgment is warranted.
A. The District Court Correctly Granted Summary
Judgment
Against
the
Equal
Credit
Opportunity Act Counterclaims by Lisa
Phoenix.
The district court did not err when it granted
summary judgment against the counterclaims by Lisa
Phoenix under the Equal Credit Opportunity Act. As
an initial matter, although the obligors briefly
mention Periwinkle’s counterclaim in their argument
about the Equal Credit Opportunity Act, they have
failed to argue or cite caselaw in either the district
court or on appeal to rebut the conclusion that its
status as an entity defeats its claim, as the district
court ruled, so we consider that issue abandoned. See
Sapuppo v. Allstate Floridian Ins. Co., 739 F.3d 678,
680 (11th Cir. 2014) (“[A]n appellant must convince us
that every stated ground for the judgment against him
is incorrect.”). We discuss only our reasons for
concluding that the district court correctly granted
summary
judgment
against
Lisa
Phoenix’s
counterclaims on the ground that a guarantor is not
an “applicant” for credit within the meaning of the
Act, see 15 U.S.C. § 1691a(b).
The Equal Credit Opportunity Act makes it
unlawful for “any creditor to discriminate against any
applicant, with respect to any aspect of a credit
transaction . . . on the basis of . . . marital status.” Id.
§ 1691(a)–(a)(1). The Act defines an “applicant” as
“any person who applies to a creditor directly for . . .
credit, or applies to a creditor indirectly by use of an
existing credit plan for an amount exceeding a

8a
previously established credit limit.” Id. § 1691a(b)
(emphases added). The Act initially required the
Federal Reserve Board to promulgate regulations to
enforce the Act. See 15 U.S.C. § 1691b (1974). And the
Federal Reserve Board promulgated Regulation B,
which defines an applicant as “any person who
requests or who has received an extension of credit
from a creditor,” which includes “any person who is or
may become contractually liable regarding an
extension of credit.” 12 C.F.R. § 202.2(e). That
regulation further provides that the term “applicant”
includes “guarantors, sureties, endorsers, and similar
parties.” Id. (emphasis added). Regulation B also
prohibits a creditor from requiring the signature of an
applicant’s spouse, other than a joint applicant, on
any credit instrument if the applicant independently
qualifies as creditworthy. Id. § 202.7(d)(1).
The obligors rely on the definition of “applicant”
in Regulation B to argue that Lisa Phoenix has
statutory standing under the Act, so we must
determine whether we should defer to this regulation
under the two-step framework announced in Chevron,
U.S.A., Inc. v. Nat’l Res. Def. Council, Inc., 467 U.S.
837 (1984). See Arevalo v. U.S. Att’y Gen., 872 F.3d
1184, 1187–88 (11th Cir. 2017). First, we ask whether,
after applying the “traditional tools of statutory
construction,” we can determine whether Congress
has spoken clearly on the issue. Barton v. U.S. Att’y
Gen., 904 F.3d 1294, 1298 (11th Cir. 2018) (quoting
Fajardo v. U.S. Att’y Gen., 659 F.3d 1303, 1307 (11th
Cir. 2011)). If the statute is unambiguous, we apply it
according to its terms and give no deference to the
administrative interpretation. Arevalo, 872 F.3d at
1188. Second, “if the statute is silent or ambiguous
with respect to the specific issue presented, we must

9a
then determine whether the agency’s interpretation is
reasonable or based on a permissible construction of
the statute.” Id. An interpretation is reasonable if it is
“rational and consistent with the statute.” Id. (quoting
Sullivan v. Everhart, 494 U.S. 83, 89 (1990)).
In applying the “traditional tools of statutory
construction,” we begin “with the statutory text, and
proceed from the understanding that unless otherwise
defined, statutory terms are generally interpreted in
accordance with their ordinary meaning.” Barton, 904
F.3d at 1298 (quoting Sebelius v. Cloer, 569 U.S. 369,
376 (2013)); see also Antonin Scalia & Bryan A.
Garner, Reading Law: The Interpretation of Legal
Texts § 6, at 69 (2012) (“Words are to be understood in
their ordinary, everyday meaning—unless the context
indicates that they bear a technical sense.”). And we
interpret the words of a statute based on their
meaning at the time of enactment. See New Prime Inc.
v. Oliveira, 139 S. Ct. 532, 539 (2019); Scalia &
Garner, Reading Law § 7, at 78 (“Words must be given
the meaning they had when the text was adopted.”).
The Act, which was adopted in 1974, defines an
applicant as “any person who applies to a creditor
directly for . . . credit, or applies to a creditor indirectly
by use of an existing credit plan for an amount
exceeding a previously established credit limit.” 15
U.S.C. § 1691a(b) (emphases added). Englishlanguage dictionaries both before and after the
enactment define the term “apply” to refer to a request
for something. See Apply, 1 The Oxford English
Dictionary 407 (corr. reprint 1961) (1933) (“To address
oneself for information or aid, to have recourse, to
make application to”); Apply, 1 The Oxford English
Dictionary 577 (2d ed. 1989) (same); Apply, Webster’s

10a
New International Dictionary of the English Language
(Webster’s Second) 132 (2d ed. 1961) (“To make
request; to have recourse with a view to gain
something; to solicit”); Apply, Webster’s New
Collegiate Dictionary 55 (1977) (“[T]o make an appeal
or request esp[ecially] in the form of a written
application”). So too do legal dictionaries. See Apply,
Black’s Law Dictionary 128 (rev. 4th ed. 1968) (“To
make a formal request or petition, usually in writing,
to a court, officer, board, or company, for the granting
of some favor, or of some rule or order, which is within
his or their power or discretion”); Application, id. at
127 (“The act of making a request for something”). The
Sixth and Eighth Circuits have also both cited a
definition of the term “apply” as meaning “a request
. . . usually for something of benefit to oneself.” See
Hawkins, 761 F.3d at 941 (alteration adopted)
(emphasis added) (quoting Webster’s Third New Int’l
Dictionary 105 (2002)); RL BB, 754 F.3d at 385
(quoting Webster’s Third New Int’l Dictionary 105
(1993)); see also Apply, Webster’s Third New Int’l
Dictionary 105 (1971) (defining “apply” as “to make an
appeal or a request esp[ecially] formally and often in
writing and usu[ally] for something of benefit to
oneself”). So, taken together, these definitions suggest
that the ordinary meaning of the term “applicant” is
one who requests credit to benefit himself.
A guarantor does not fit within this definition. At
the time of enactment, English-language dictionaries
defined “guaranty” to mean a promise by a guarantor
to answer for the payment of some debt if the person
liable in the first instance is unable to pay. See
Guaranty, 4 The Oxford English Dictionary 477 (corr.
reprint 1961) (1933) (“a written undertaking made by
a person (called the guarantor) to be answerable for

11a
the payment of a debt or the performance of an
obligation by another person, who is in the first
instance liable to such payment or obligation”);
Guaranty, 6 The Oxford English Dictionary 912 (2d
ed. 1989) (same); Guaranty, Webster’s Second 1110
(“An undertaking to answer for the payment of some
debt, or the performance of some duty, of another, in
case of the failure of such other to pay or perform”);
Guaranty, Webster’s New Collegiate Dictionary 509
(“[A]n undertaking to answer for the payment of a
debt or the performance of a duty of another in case of
the other’s default or miscarriage”). Legal dictionaries
defined “guaranty” the same way. See Guaranty,
Black’s Law Dictionary 833 (rev. 4th ed.) (“A promise
to answer for payment of debt or the performance of
obligation if person liable in the first instance fails to
make payment or perform obligation”); Guarantor,
Black’s Law Dictionary 634 (5th ed. 1979) (“One who
becomes secondarily liable for another’s debt or
performance”). Although a guarantor makes a
promise related to an applicant’s request for credit,
the guaranty is not itself a request for credit, and
certainly not a request for credit for the guarantor. See
Hawkins, 761 F.3d at 942 (“We find it to be
unambiguous that assuming a secondary, contingent
liability does not amount to a request for credit.”).
To be sure, as the dissent points out, a
guarantor’s promise supports a would-be debtor’s loan
application and ordinarily stems from the guarantor’s
desire that the application be granted. See Dissenting
Op. at 62-63. But to say that a guarantor requests
credit by supporting another’s request for credit is to
push the bounds of ordinary usage—at the very least,
it is to use one word in two obviously different senses.
And to say that the guarantor applies for credit by

12a
supporting another’s application is to leave ordinary
usage behind entirely.
An example should make this point clear.
Suppose a high-school senior is applying to her
parents’ alma mater, and her parents—who happen to
be wealthy donors—promise the school that they will
make a large gift if their daughter is admitted. The
parents’ promise supports the daughter’s application
for admission, just as a guarantor’s promise supports
a loan applicant’s application for credit. The parents
will be grateful if their daughter is admitted, as a
guarantor ordinarily is grateful when the debtor’s
application for credit is granted. But it would be
unnatural to say that the parents have “applied” for
their daughter’s admission or to call them
“applicants” for admission. Under any ordinary use of
the word, the student is the only “applicant” in this
scenario.
Applying the whole-text and consistent-usage
canons to the Act further confirms that the term
“applicant” excludes guarantors. The whole-text
canon refers to the principle that a “judicial
interpreter [should] consider the entire text, in view
of its structure and of the physical and logical relation
of its many parts,” when interpreting any particular
part of the text. Scalia & Garner, Reading Law § 24,
at 167. “Properly applied, it typically establishes that
only one of the possible meanings that a word or
phrase can bear is compatible with use of the same
word or phrase elsewhere in the statute . . . .” Id. at
168. Closely related to the whole-text canon is the
principle that “[a] word or phrase is presumed to bear
the same meaning throughout a text” unless context
requires otherwise. Id. § 25, at 170; accord Atl.

13a
Cleaners & Dyers v. United States, 286 U.S. 427, 433
(1932) (“Undoubtedly, there is a natural presumption
that identical words used in different parts of the
same act are intended to have the same meaning.”).
As Judge Colloton explained in his concurring
opinion in Hawkins, three aspects of the statutory text
strongly suggest that the term “applicant” is only
compatible with “a first-party applicant who requests
credit to benefit herself.” Hawkins, 761 F.3d at 943
(Colloton, J., concurring). First, the Act uses the term
“applicant” in several provisions that can only refer to
a first-party applicant. For example, section 1691
speaks of a “completed application for credit,” 15
U.S.C. § 1691(d)(1), and of a creditor taking action in
connection with the “applicant’s application for a
loan,” id. § 1691(e)(1). We agree that “it would be
unnatural to conclude that a third party who offers a
promise in support of an applicant thereby submits
what the statute describes as an ‘application for a
loan,’ and a ‘completed application for credit.’”
Hawkins, 761 F.3d at 943–44 (Colloton, J.,
concurring) (citations omitted). Similarly, the Act
provides that within thirty days “after receipt of a
completed application for credit, a creditor shall notify
the applicant of its actions on the application.” 15
U.S.C. § 1691(d)(1) (emphasis added). “The statute’s
use of the definite article shows that applicant is the
single person to whom credit would be extended, not
a third party asking on behalf of the putative debtor.”
Hawkins, 761 F.3d at 943 (Colloton, J., concurring). In
contrast with these provisions, we are aware of no
instance in which the Act refers to an “applicant” in a
context that would naturally suggest that a thirdparty guarantor could qualify.

14a
Second, the statutory definition of “adverse
action” on a credit application excludes from that
phrase “a refusal to extend additional credit under an
existing credit arrangement where the applicant is
delinquent or otherwise in default.” 15 U.S.C.
§ 1691(d)(6) (emphasis added). This provision
suggests that “the applicant” has received credit and
is responsible for making payments on an existing
loan. “A guarantor or other third-party requestor does
not in ordinary usage become ‘delinquent’ or ‘in
default’ on a loan or other existing credit
arrangement.” Hawkins, 761 F.3d at 944 (Colloton, J.,
concurring). And “if a guarantor could be an
‘applicant,’ then the creditor’s refusal to extend
additional credit to a delinquent borrower would be an
‘adverse action’ on the guarantor’s ‘application,’ thus
entitling the third-party guarantor to a statement of
reasons that the creditor need not furnish to the firstparty applicant. [15 U.S.C.] § 1691(d)(2).” Id. As
Judge Colloton concluded, “This is not a natural
reading of the text.” Id.
Third, the Act recognizes that third parties can
be involved in requesting an extension of credit to a
first-party applicant, but it “distinguishes between
the third-party requestor and the ‘applicant.’” Id. The
Act provides that “[w]here a creditor has been
requested by a third party to make a specific extension
of credit directly or indirectly to an applicant, the
notification and statement of reasons required by this
subsection may be made directly by such creditor, or
indirectly through the third party, provided in either
case that the identity of the creditor is disclosed.” Id.
(alterations adopted) (quoting 15 U.S.C. § 1691(d)(4)).
That Congress chose to use the term “applicant” to
refer to the party receiving the credit and “third party”

15a
to refer to a separate party who requests an extension
of credit for the “applicant” is telling. In short, after
examining the term “applicant” in the context of the
statute as a whole, we conclude that there is ample
evidence that the term bears the ordinary meaning of
a person who requests a benefit for himself.
Two of the three of our sister circuits that have
considered whether the administrative interpretation
of the term “applicant” deserves Chevron deference
have also concluded that the Act unambiguously
excludes guarantors. See Hawkins, 761 F.3d at 942
(rejecting Chevron deference and explaining “[w]e find
it to be unambiguous that assuming a secondary,
contingent liability does not amount to a request for
credit”); Moran, 476 F.3d at 441 (“[T]here is nothing
ambiguous about ‘applicant’ and no way to confuse an
applicant with a guarantor.”). But see RL BB, 754 F.3d
at 385 (applying Chevron deference to section 202.2(e)
on the theory that the term “applies” is ambiguous
and that guarantors qualify as requesting credit
because they “make formal requests for aid in the
form of credit for a third party”). Because we agree
with the Seventh and Eighth Circuits that the
ordinary meaning of “applicant” does not encompass a
guarantor, we hold that no deference is due section
202.2(e). So the district court correctly granted
summary judgment against the counterclaim by Lisa
Phoenix because she was not an “applicant” under the
Act.
The dissenting opinion disagrees with our
analysis of the meaning of the term “applicant” under
the Act on three grounds. First, the dissent argues
that the ordinary meaning of the word “applicant”
reasonably includes guarantors. Dissenting Op. at

16a
60–63. Second, the dissent contends that our analysis
fails to reflect the “overriding national policy against
discrimination that underlies the [ECOA].” Id. at 76
(alteration in original) (internal quotation marks
omitted). Along the way to that conclusion, the dissent
relies on two favorites of purposivists: the notion that
the Act, as a remedial statute, must be construed
broadly, id. at 49–51, 61, 65–71, 76, and the notion
that the words of the Act must be construed in the
light of the Act’s overall purpose, id. at 76. Finally, the
dissent contends that Congress acquiesced to the
Board’s definition of “applicant” by failing to amend
the Act to expressly preclude the Board’s definition.
Id. at 79–82. None of these reasons is persuasive.
The dissent’s analysis begins by focusing on how
the word “any” appears four times in two relevant
sentences of the Act. Id. at 60–61 (quoting 15 U.S.C.
§ 1691(a)(1) (making it “unlawful for any creditor to
discriminate against any application, with respect to
any aspect of a credit transaction . . . .” (emphases
added)); id. § 1691a(b) (defining “applicant” to mean
“any person who applies to a creditor directly for . . .
credit” (emphasis added))). The dissent argues that
the repeated use of the word “any” suggests that
Congress intended for the statute to have expansive
reach and that we should not “engraft artificial
limitations” to curb the “expansive remedial
purposes” of the Act. Id. at 61 (quoting Blue Shield of
Va. v. McCready, 457 U.S. 465, 472 (1982)). If all the
dissent is arguing is that we should not go beyond the
ordinary meaning of the term “applicant” to narrow it
artificially, we agree entirely.
But the use of the word “any” does not change the
meaning of the term “applicant.” We have repeatedly

17a
explained that when Congress uses the word “any”
without “language limiting the breadth of that word,
‘any’ means all.” CBS Inc. v. PrimeTime 24 Joint
Venture, 245 F.3d 1217, 1223 (11th Cir. 2001)
(alteration adopted) (quoting Merritt v. Dillard Paper
Co., 120 F.3d 1181, 1186 (11th Cir. 1997)). So when
the Act speaks of an applicant as “any person who
applies to a creditor directly for . . . credit,” the word
“any” signifies only that all persons who apply to a
creditor directly for credit qualify. The word or term
that is modified by “any” is still defined by its ordinary
meaning. See, e.g., id. (using dictionary definitions to
interpret the word “termination” from “any
termination”). So the relevant question remains what
the ordinary meaning of the term “person who applies
to a creditor directly for . . . . credit” includes.
The dissent’s attempt to answer this question
leans heavily on the definition of “apply” as “to make
an appeal or request . . . usually for something of
benefit to oneself.” Dissenting Op. at 62 (emphasis
altered) (quoting Hawkins, 761 F.3d at 941 (quoting
Webster’s Third New Int’l Dictionary at 105 (1993))).
The dissent reasons, “[o]bviously, if something is
‘usually for something of benefit to oneself,’ it must
sometimes be for something of benefit to another.” Id.
(emphasis altered). So, the dissent concludes, the
word “applicant” can fairly be interpreted to include a
guarantor.
Yet the definition the dissent relies on proves the
opposite. As Judge Colloton pointed out in his
concurrence in Hawkins, “under th[e] usual meaning,
an ‘applicant’ who ‘applies for credit’ is one who
requests credit to benefit herself, not credit to benefit
a third party. That there are unusual meanings of

18a
‘apply’ that encompass making a request on behalf of
another is not sufficient to make a term ambiguous for
purposes of Chevron.” 761 F.3d at 943 (Colloton, J.,
concurring). The only circumstance in which it is
reasonable to construe a term according to an unusual
meaning is when the context makes the unusual
meaning a natural one. But, as we have explained,
there is nothing natural about calling a guarantor an
applicant for credit, and the whole text of the Act
makes that usage even less plausible.
The dissent charges that our reading of the Act
fails to apply the whole-text canon, Dissenting Op. at
65–66, 66 n.20, but the dissent’s assertion is notably
lacking in references to the text. According to the
dissent, if we viewed the Act as a whole, we would see
that “‘[t]he overriding national policy against
discrimination that underlies the [Act]’ means that
‘we cannot give’ words in that statute a ‘narrow
interpretation.’” Id. at 76 (quoting Bros. v. First
Leasing, 724 F.2d 789, 793 (9th Cir. 1984)). But apart
from its logically irrelevant reliance on the word
“any,” the dissent fails to point to any other provisions
of the Act that suggest that the term “applicant”
includes a third party who requests a benefit for the
first-party applicant. And it is hornbook abuse of the
whole-text canon to argue “that since the overall
purpose of the statute is to achieve x, any
interpretation of the text that limits the achieving of
x must be disfavored.” Scalia & Garner, Reading Law
§ 24, at 168.
The dissent also contends that we fail to reconcile
our reading of the text with the “familiar canon of
statutory construction that remedial legislation
should be construed broadly to effectuate its

19a
purposes.” Dissenting Op. at 65 (internal quotation
marks omitted) (quoting Tcherepnin v. Knight, 389
U.S. 332, 336 (1967)). Indeed, we do not apply this socalled canon because it is of dubious value. An eightmember majority of the Supreme Court has ridiculed
it as “th[e] last redoubt of losing causes,” Dir., Office
of Workers’ Comp. Programs, Dep’t of Labor v.
Newport News Shipbuilding & Dry Dock Co., 514 U.S.
122, 135 (1995), and the Court has rejected applying
it in a number of other decisions since 1995. See, e.g.,
CTS Corp. v. Waldburger, 573 U.S. 1, 12 (2014) (“The
Court of Appeals supported its interpretation of
[section] 9658 by invoking the proposition that
remedial statutes should be interpreted in a liberal
manner. The Court of Appeals was in error when it
treated this as a substitute for a conclusion grounded
in the statute’s text and structure.”); Norfolk S. Ry.
Co. v. Sorrell, 549 U.S. 158, 171 (2007) (rejecting
argument based on remedial-purpose canon and
explaining that although a statute’s remedial purpose
was to benefit employees, “this remedial purpose [does
not] require[] us to interpret every uncertainty in the
Act in favor of employees”); Household Credit Servs.,
Inc. v. Pfennig, 541 U.S. 232, 237, 244 (2004)
(reversing court of appeals that relied on remedialpurpose canon to broadly interpret the term “finance
charge” from the Truth in Lending Act); Inyo Cty. v.
Paiute-Shoshone Indians of the Bishop Cmty. of the
Bishop Colony, 538 U.S. 701, 710–12 (2003) (rejecting
argument based on the remedial-purpose canon that
the term “person” should be construed broadly under
a statute to include Native American tribes). As the
Supreme Court has recently explained, the
fundamental problem with this so-called canon is its
indeterminate coverage, as “almost every statute

20a
might be described as remedial in the sense that all
statutes are designed to remedy some problem.” CTS
Corp., 573 U.S. at 12. And the “canon” too is of
indeterminate effect because, “even if the Court [has]
identified some subset of statutes as especially
remedial, [it] has emphasized that no legislation
pursues its purposes at all costs.” Id. (citation and
internal quotation marks omitted).
Indeed, it is hard to imagine a more widely
criticized “canon” of interpretation. A leading treatise
has labeled it a “false” canon and has explained that
it is “an open invitation to engage in ‘purposive’ rather
than textual interpretation, and generally to engage
in judicial improvisation.” Scalia & Garner, Reading
Law § 64, at 364–66. And jurists as varied as Antonin
Scalia and Richard Posner share the same view. See
Antonin Scalia, Assorted Canards of Contemporary
Legal Analysis, 40 Case W. Res. L. Rev. 581, 581
(1990) (calling the canon one of “the prime examples
of lego-babble”); Richard A. Posner, Statutory
Interpretation—in the Classroom and in the
Courtroom, 50 U. Chi. L. Rev. 800, 809 (1983)
(explaining that the canon is “unrealistic about
legislative objectives” because it assumes that
legislatures pursue a single remedial purpose, when
in reality a “statute [often] is a compromise between
one group of legislators that holds a simple remedial
objective but lacks a majority and another group that
has reservations about the objective”). We agree with
these authorities that we should not employ this false
canon to contravene the text of the Act.
The dissent also insists that we must “construe
the literal language of the [Act]” in the light of the
“overriding national policy against discrimination

21a
that underlies the [Act].” Dissenting Op. at 76
(quoting First Leasing, 724 F.2d at 793). We take no
issue with the dissent’s explanation of the vital role
that women have played in our nation’s history, of the
discrimination they have faced in obtaining credit,
and that one of the purposes of the Act was to remedy
this discrimination. See Dissenting Op. at 51–60. But
the dissent ignores that “[n]o legislation pursues its
purposes at all costs,” and that “it frustrates rather
than effectuates legislative intent simplistically to
assume that whatever furthers the statute’s primary
objective must be the law.” Pension Benefit Guar.
Corp. v. LTV Corp., 496 U.S. 633, 646–47 (1990)
(quoting Rodriguez v. United States, 480 U.S. 522,
525–26 (1987)). When a statute includes limiting
provisions, those provisions “are no less a reflection of
the genuine ‘purpose’ of the statute than the operative
provisions, and it is not the court’s function to alter
the legislative compromise.” Scalia & Garner,
Reading Law at 21. Here, Congress created a right
that runs only to “applicants.” And as the Seventh
Circuit explained in Moran, because the term
“applicant” unambiguously does not encompass
“guarantors,” reading the statute in the way the
dissent does would frustrate the limitations that
Congress imposed on statutory standing and “opens
vistas of liability” that Congress did not envision. 476
F.3d at 441.
The dissent’s final substantive argument is that
Congress has impliedly adopted the Board’s definition
of “applicant” by amending the Act without changing
the statutory definition during the 30 years since
Regulation B was first promulgated. Dissenting Op.
at 79–82. Although the Supreme Court has recognized
that congressional inaction can, in limited

22a
circumstances, support an inference that Congress
has acquiesced to an agency or judicial interpretation,
it has explained that “[l]egislative silence is a poor
beacon to follow” in construing a statute. Zuber v.
Allen, 396 U.S. 168, 185 (1969). And it has repeatedly
warned that congressional silence alone is ordinarily
not enough to infer acquiescence. See Solid Waste
Agency of N. Cook Cty. v. U.S. Army Corps of Eng’rs,
531 U.S. 159, 169 (2001) (“Although we have
recognized
congressional
acquiescence
to
administrative interpretations of a statute in some
situations, we have done so with extreme care.”);
United States v. Riverside Bayview Homes, Inc., 474
U.S. 121, 137 (1985) (“[W]e are chary of attributing
significance to Congress’ failure to act . . . .”); Bob
Jones Univ. v. United States, 461 U.S. 574, 600 (1983)
(“Nonaction by Congress is not often a useful guide
. . . .”).
The dissent cites Texas Department of Housing &
Community Affairs v. Inclusive Communities Project,
Inc., 135 S. Ct. 2507 (2015), in arguing that we should
infer congressional acquiescence, Dissenting Op. at
79–80, but this reliance is misplaced. There, the
Supreme Court held that when Congress amended the
Fair Housing Act in 1988, it was aware of and adopted
the unanimous view of nine circuits that had
considered the matter and concluded that the statute
authorized disparate-impact claims. See Texas Dep’t
of Hous., 135 S. Ct. at 2519.
The dissenting opinion contends that until 2014,
the “vast majority of courts” that had “examined” the
issue held that guarantors had standing under the
Equal Credit Opportunity Act, Dissenting Op. at 80
(quoting RL BB, 754 F.3d at 386), but this argument

23a
is misleading. Before 2007, several federal and state
courts applied Regulation B, but they did so without
discussing whether it was entitled to deference. See,
e.g., Silverman v. Eastrich Multiple Inv’r Fund, L.P.,
51 F.3d 28, 30–31 (3d Cir. 1995) (assuming without
discussion that the Board’s interpretation was valid);
Fed. Deposit Ins. Corp. v. Medmark, Inc., 897 F. Supp.
511, 514 (D. Kan. 1995) (same); see also United States
v. L.A. Tucker Truck Lines, Inc., 344 U.S. 33, 38 (1952)
(explaining that a decision is not precedential with
respect to an issue “not there raised in briefs or
argument nor discussed in the opinion of the Court”).
To our knowledge, the first court to “examine[ ]”
whether the Board’s definition deserved deference
was the Seventh Circuit in Moran, in 2007, and it
concluded that it did not. See 476 F.3d. at 441. By the
time Congress next amended the Act in July 2010, the
only other courts to opine on the issue were a federal
district court, which agreed with Moran and ruled
that guarantors lack statutory standing, see
Champion Bank v. Reg’l Dev., LLC, No. 4:08-cv-1807CDP, 2009 WL 1351122, at *3 (E.D. Mo. May 13, 2009)
(reasoning that “a guarantor does not, by definition,
apply for anything”), and the Supreme Court of Iowa,
which applied Regulation B without considering
Moran or whether it was entitled to deference, see
Bank of the West v. Kline, 782 N.W.2d 453, 458 (Iowa
2010). So when Congress amended the Act in 2010,
the weight of reasoned authority was against the
Board’s definition of applicant. And Congress’s prior
amendments to the Act took place before any court
had considered the validity of Regulation B. This
situation obviously is nothing like the unanimous,
reasoned precedent of nine circuits in favor of an
agency interpretation featured in Texas Department

24a
of Housing. We can hardly infer congressional
acquiescence in this circumstance.
The dissent advances one other objection to our
analysis: that it “opine[s] on an issue that . . . Lisa
Phoenix and Periwinkle . . . never raised on appeal.”
Dissenting Op. at 35. As the dissent sees it, Lisa
Phoenix has abandoned both of her counterclaims by
failing to raise them “plainly and prominently”
enough in the obligors’ initial brief. Id. at 38 (quoting
Sapuppo, 739 F.3d at 681). We disagree.
To be sure, the obligors’ briefing could most
charitably be described as clumsy. We emphatically
“do not condone the unartful way in which [the
obligors] ha[ve] stated and argued the issues on this
appeal.” Fed. Sav. & Loan Ins. Corp. v. Haralson, 813
F.2d 370, 373 n.3 (11th Cir. 1987). Even so, reading
their initial brief in the light of the record, the other
briefs in this appeal, and the principle that “briefs
should be read liberally to ascertain the issues raised
on appeal,” Allstate Ins. Co. v. Swann, 27 F.3d 1539,
1542 (11th Cir. 1994), we have no doubt that Lisa
Phoenix has fairly presented the argument that the
district court erred when it dismissed at least one of
her counterclaims relating to the Periwinkle loan
based on her status as a guarantor.
Consider what happened in the district court.
The obligors pleaded four counterclaims under the
Equal Credit Opportunity Act based on the
Periwinkle loan: one by Charles Phoenix, one by Legal
Outsource, one by Lisa Phoenix and Periwinkle
Partners jointly, and one by Lisa Phoenix
individually. Citing Hawkins for the proposition that
guarantors are not applicants, the district court
dismissed the claims by Charles Phoenix, Legal

25a
Outsource, and Lisa Phoenix individually on the
ground that those claims rested solely on guarantor
standing. But the district court withheld judgment on
the joint claim by Lisa Phoenix and Periwinkle
because that claim—counterclaim 11—appeared to
allege that both Lisa Phoenix and Periwinkle were
applicants. After further considering the matter, the
district court granted summary judgment against
counterclaim 11 on the grounds that Lisa Phoenix
lacked standing and that Periwinkle had no marital
status. The district court also mentioned “the lack of
any evidence to establish any alleged discrimination
on the basis of marital status,” which was a sufficient
alternative basis for the summary judgment, although
the district court did not clearly designate it as such.
Now consider the briefs. In a discrete section of
their initial brief, the obligors protest the district
court’s “reli[ance] . . . on the Eighth Circuit’s ruling in
Hawkins” “to substantiate dismissing Lisa Phoenix’s
and Periwinkle’s claims” under the Equal Credit
Opportunity Act. Initial Br. of Appellants at 30. And
they argue that the regulation defining the term
“applicant” to include guarantors, see 12 C.F.R.
§ 202.2(e), is a valid exercise of regulatory power to
implement the Act. Initial Br. of Appellants at 31–32.
They conclude that the claims by “Lisa Phoenix and
Periwinkle”
“fall
squarely
within
ECOA’s
protections.” Id. at 32.
Logically, this argument can relate only to
counterclaim 11—the joint claim by Lisa Phoenix and
Periwinkle—or counterclaim 12—Lisa Phoenix’s
individual claim as a guarantor of the Periwinkle
loan. That the brief refers to both Lisa Phoenix and
Periwinkle suggests that the obligors might have

26a
counterclaim 11 in mind, but the district court did not
rely on Hawkins to dismiss any claim by Periwinkle.
But, with respect to Lisa Phoenix, the argument
responds squarely to the primary basis on which the
district court dismissed her share of counterclaim 11
and the sole basis on which it dismissed her
counterclaim 12. In this circumstance, we cannot
agree with the dissent that “no claim is properly
before us on appeal.” Dissenting Op. at 35.
Consider the consequences if we accepted the
obligors’ argument—that is, if the obligors convinced
us that the district court erred when it “relied . . . on
the Eighth Circuit’s ruling in Hawkins to substantiate
dismissing Lisa Phoenix’s and Periwinkle’s claims”
because, contrary to Hawkins, guarantors are
applicants under the Act. Initial Br. of Appellants at
30. In that case, they necessarily would have
convinced us that “every stated ground for the
judgment against [counterclaim 12] is incorrect,”
which is exactly what we have said an appellant must
do “[t]o obtain reversal of a district court judgment.”
Sapuppo, 739 F.3d at 680. They also would have
convinced us that the primary and arguably the only
“stated
ground
for
the
judgment
against
[counterclaim 11] is incorrect.” Id. So, unless some
alternative ground for affirmance appeared from
Regions’ brief or from the record, accepting the
obligors’ argument would require us to reverse the
dismissal of counterclaim 12 at least and perhaps
counterclaim 11 as well.
We consider it telling that Regions agrees with
us, at least in part, that the obligors have raised the
issue of guarantor standing. In its brief, Regions
contends that the obligors “have waived or abandoned

27a
any issue or argument with respect to the dismissal of
[counterclaims] IX, X, and XII.” Br. of Appellee
Regions Bank at 34. But Regions does not contend
that the obligors have abandoned counterclaim 11 or
the general issue of guarantor standing. On the
contrary, it reads the obligors’ brief to “contend . . .
that summary judgment for Regions on Counterclaim
count XI was in error because, under the definition of
‘applicant’ supplied in Regulation B [the governing
regulation], Mrs. Phoenix possessed standing to sue in
her capacity as a guarantor of the Periwinkle loan.”
Id. Regions proceeds to argue on the merits that the
district court correctly granted summary judgment
against counterclaim 11 because the obligors have
produced no evidence of discrimination and because
guarantors are not applicants. See id. at 35–42.
That Regions does not share the dissent’s view
that Lisa Phoenix “indisputably abandoned”
counterclaim 11 is relevant in two respects.
Dissenting Op. at 41. First, even if Lisa Phoenix
waived or forfeited counterclaim 11 in her initial brief,
Regions has waived or forfeited the waiver or
forfeiture by conceding in its own brief that she raised
it. And nothing Regions said at oral argument can
undo that concession. See APA Excelsior III L.P. v.
Premiere Techs., Inc., 476 F.3d 1261, 1269 (11th Cir.
2007) (“[W]e do not consider claims not raised in a
party’s initial brief and made for the first time at oral
argument.”).
The second way in which Regions’ concession
matters is that the main principle that animates the
abandonment rule is fair notice. As we have
explained, “an appellee is entitled to rely on the
content of an appellant’s brief for the scope of the

28a
issues appealed.” Access Now, Inc. v. Sw. Airlines Co.,
385 F.3d 1324, 1330 (11th Cir. 2004) (quoting Pignons
S.A. de Mecanique v. Polaroid Corp., 701 F.2d 1, 3 (1st
Cir. 1983)); accord Haralson, 813 F.2d at 373 n.3. That
Regions thought the obligors raised counterclaim 11
in their brief—even as it concluded that they had
abandoned other claims—suggests that the obligors’
brief gave Regions fair notice that counterclaim 11
was an issue.
To be sure, an appellee’s assertions about what is
or is not abandoned do not bind us. Claims of
abandonment may often be overstated; in this appeal,
we are not sure we agree with Regions that Lisa
Phoenix has abandoned counterclaim 12. And there
are many reasons why appellees may fail to raise
meritorious abandonment arguments. But the point
remains: that Regions understood the obligors’ brief to
present a live argument about counterclaim 11 and
the general issue of guarantor standing is surely
evidence that it is reasonably understood to do so.
Consider also that both amicus briefs—one by the
Consumer Financial Protection Bureau and one by
five bankers associations—fully briefed the issue of
Lisa Phoenix’s guarantor standing under the Act.
Neither brief ever hinted at the possibility that Lisa
Phoenix abandoned her counterclaims. That all of the
amici, like Regions, consider Lisa Phoenix to have
adequately raised the issue of her statutory standing
reinforces our conclusion that Lisa Phoenix did not
abandon her argument about counterclaims 11 and
12.
Our dissenting colleague’s contention that Lisa
Phoenix has abandoned her counterclaims turns on
her reading—which we respectfully submit is an

29a
overreading—of three sentences in the obligors’ brief,
each of which seems to suggest that the Equal Credit
Opportunity Act claim on appeal is that Regions
violated the Act when it allegedly demanded that Lisa
Phoenix guarantee the Outsource loan. See
Dissenting Op. at 38–39. The obligors’ statement of
the issues presents the question, “Does a wife who
refuses to collateralize loans or guaranty her
husband’s unsecured business debt have Equal Credit
Opportunity Act (ECOA) standing as an ‘applicant’
. . . ?” Initial Br. of Appellants at 1 (emphasis added).
Then, in their argument section, the obligors protest
that excluding guarantors from the definition of
“applicant” “gives lenders an untethered license to
require spouses to collateralize and sign for their
husbands’ loans with impunity,” and they contend
that Lisa Phoenix was required “to sign for and
collateralize her husband’s business debts.” Id. at 30,
32 (emphases added). As the dissent sees it, these
phrases can mean only that Lisa Phoenix has replaced
her counterclaims based on the Periwinkle claim with
a wholly novel claim based on Regions’ alleged
demand that she guarantee the Outsource loan, even
though the obligors never pleaded such a claim in the
district court and no such claim is concerned in the
judgment on appeal, and even though it would be
nonsensical for Lisa Phoenix to assert guarantor
standing with respect to a loan she never guaranteed.
Although we certainly agree that the obligors’
brief is no model of clarity, we do not think that its
references to the Outsource loan nullify Lisa
Phoenix’s challenge to the ground on which her
counterclaims were dismissed. In the obligors’ telling
of the facts, Regions demanded that Lisa Phoenix
collateralize the Outsource loan, she refused, and

30a
Regions punished her refusal by declaring falsely that
the Periwinkle loan was in default. We read the
phrases on which the dissent leans as highlighting the
crucial narrative role of Regions’ demand and Lisa
Phoenix’s refusal in the obligors’ version of the facts,
not as obliterating her legal theory. And we do not see
how we can read them any other way without
violating the rule that “briefs should be read liberally
to ascertain the issues raised on appeal.” Swann, 27
F.3d at 1542. The abandonment rule would swell to a
scope previously unimagined if we were to hold that
an appellant abandons her legal theory whenever she
places undue emphasis on one part of her factual
narrative over another. We conclude that Lisa
Phoenix has preserved at least one of her
counterclaims under the Equal Credit Opportunity
Act and that the issue of guarantor standing is before
us. And, for the reasons we have explained, we hold
that the district court correctly granted summary
judgment against those counterclaims because a
guarantor is not an “applicant” for credit under the
Act.
B. The Amended Judgment Must Be Corrected on
Remand.
The amended judgment states “that Regions
Bank is entitled to recover $540,054.24 from
Defendants for the Legal Outsource loan.” As both
parties agreed at oral argument, the counts regarding
the Legal Outsource loan name only Charles Phoenix
and Legal Outsource as defendants, so the judgment
erroneously states that Lisa Phoenix and Periwinkle
Partners are also liable for the Outsource loan. We
remand with instructions to correct the judgment to
state that only Charles Phoenix and Legal Outsource

31a
are liable for the damages owed for the default of the
Outsource loan.
IV. CONCLUSION

We AFFIRM the summary judgment in favor of
Regions, and we REMAND with instructions to correct
the judgment.
ROSENBAUM, Circuit Judge, concurring in part
and dissenting in part:
Today we opine on an issue that Appellants Lisa
Phoenix and Periwinkle Partners LLC (“Periwinkle”)
never raised on appeal. Courts have noted that
deciding an issue no appellant raised is generally
unwise. But the Majority Opinion nevertheless insists
that we do so. And in following this course, it purports
to constrict the Equal Credit Opportunity Act
(“ECOA”) to preclude it from accomplishing one of its
primary remedial goals: disentangling spouses’
financial intertwinement when such intertwinement
is not necessary. I therefore feel it necessary to
explain the problems with the Majority Opinion’s
analysis.
Section I of this dissent demonstrates that no
claim is properly before us on appeal. And Section II
responds to the Majority Opinion’s incorrect
conclusion that guarantors lack standing as
“applicants” under the ECOA.
I.

At different points in this litigation, DefendantsCounterclaimants-Appellants Lisa Phoenix and
Periwinkle have arguably raised two ECOA claims

32a
possibly relevant to this appeal.1 Each claim involves
a separate Regions Bank loan.
The Majority Opinion construes the claim on
appeal to concern a loan Regions made to Periwinkle,
a company Lisa Phoenix indirectly owns. As the
Majority Opinion interprets this claim, Lisa Phoenix
invokes the ECOA to contest Regions’s demand that
her husband, Charles Phoenix, and his law firm,
Legal Outsource PA, guaranty the Periwinkle loan
(“Periwinkle Loan Claim”).
The second potential ECOA claim possibly
relevant on this appeal involves a loan Regions made
to Legal Outsource. Under this potential claim, Lisa2
asserts that Regions violated the ECOA when it
required her (through her company Periwinkle) to
guaranty a loan it had made to her husband Charles’s
business, Legal Outsource (“Legal Outsource Loan
Claim”).
But neither the Periwinkle Loan Claim nor the
Legal Outsource Loan Claim is properly presented on
appeal.
To understand why, it makes sense to start by
looking at the sole ECOA claim Lisa identified in the
issues she presented on appeal: “Does a wife who
refuses to collateralize loans or guaranty her
husband’s unsecured business debt have [ECOA]
standing as an ‘applicant’ to sue if the lender then
forces over a dozen technical defaults as pretense to
The other Defendants-Counterclaimants-Appellants’ claims are
not relevant to the ECOA analysis the Majority Opinion has
chosen to conduct, so I do not address them here.
2 To avoid confusion, I refer to Charles and Lisa Phoenix by their
first names.
1

33a
falsely accelerate and foreclose on her separate
secured loan?” Appellants’ Br. at 1 (emphasis added).
This language unambiguously seeks to assert Lisa’s
status as an “applicant” on the Legal Outsource Loan
Claim, as a result of Periwinkle’s legal status as a
guarantor for that loan, since only the Legal
Outsource Loan Claim involved an alleged demand by
Regions to guaranty Lisa’s husband’s business debt.
The language of the issue as Lisa has phrased it on
appeal does not implicate the Periwinkle Loan Claim,
since that was a loan involving Lisa’s own business,
not her husband’s business.
Lisa’s actual argument in support of her ECOA
claim also leaves no doubt that she challenges only
Regions’s demand that she (through her company
Periwinkle) guaranty her husband’s Legal Outsource
Loan. Her argument is short; it’s less than three
pages. But in that space she repeatedly argues that
Regions violated the ECOA by trying to make her
guaranty her husband’s loans. Appellants’ Br. at 30,
32. Unfortunately for Lisa, though, she did not raise
the Legal Outsource Loan Claim in the district court.
As for the Periwinkle Loan Claim, Lisa never
once argues it in this appeal. True, the loan to
Periwinkle comes up in her briefs, but only in the
context of arguments that the Majority Opinion
(correctly) decides are meritless, if not “frivolous.”
Maj. Op. at 7. Significantly, she never argues that the
district court was wrong in finding she lacked
standing as a guarantor to contest the Periwinkle
Loan Claim.
So what exactly is properly on appeal?
Nothing.

34a
We have repeatedly explained that “[a]ny issue
that an appellant wants the Court to address should
be specifically and clearly identified in the brief.”
Access Now, Inc. v. Sw. Airlines Co., 385 F.3d 1324,
1330 (11th Cir. 2004).3 Not only that, but “[a] party
fails to adequately brief a claim when he does not
plainly and prominently raise it, for instance by
devoting a discrete section of his argument to those
claims.” Sapuppo v. Allstate Floridian Ins. Co., 739
F.3d 678, 681 (11th Cir. 2014) (citation and internal
quotation marks omitted). When that happens, “the
issue—even if properly preserved at trial—will be
considered abandoned.” Access Now, 385 F.3d at 1330
(citation and internal quotation marks omitted).
Here, Lisa’s briefs certainly do not “plainly and
prominently raise” her Periwinkle Loan Claim. For
starters, her opening brief does not “devot[e] a
discrete section of [the] argument” to it. In fact, as I
have noted, it does not even identify the claim in an
issue on appeal or ever expressly mention the
Periwinkle Loan Claim in its ECOA arguments. And
her reply brief does not address the issue at all.
Nor, contrary to the Majority Opinion’s
suggestion, does Lisa’s mention of the district court’s
reliance on Hawkins v. Community Bank of Raymore,
761 F.3d 937 (8th Cir. 2014), aff’d by an equally
divided Court, 136 S. Ct. 1072 (2016), justify the
Majority Opinion’s determination of an issue that Lisa
did not raise on appeal. To be sure, the district court
did invoke Hawkins to dismiss counterclaims relating
The Federal Rules of Appellate Procedure similarly require an
appellant’s brief to “contain, under appropriate headings and in
the order indicated . . . a statement of the issues presented for
review.” Fed. R. App. P. 28(a)(5).
3

35a
to the Periwinkle Loan Claim. Maj. Op. at 27. But
Lisa’s brief leaves no doubt that she raised the district
court’s reliance on Hawkins for only an altogether
different and unrelated point: she cited the district
court’s mention of Hawkins solely to support her
argument concerning the Legal Outsource Claim.4
In fact, in the very next paragraph following the
general reference to Hawkins the Majority Opinion
cites, see Maj. Op. at 27, Lisa characterized Hawkins
as “grant[ing] lenders an untethered license to require
spouses to collateralize and sign for their husbands’
loans with impunity.” Appellants’ Br. at 30 (emphasis
added). And while Lisa argued that she and
Periwinkle “fall squarely within ECOA’s protections,”
Maj. Op. at 28 (quoting Appellants’ Br. at 32), she
made clear that she meant that the ECOA protected
her (through her ownership of Periwinkle) and
Periwinkle as guarantors of the Legal Outsource Loan:
she said that “Regions required [her through
Periwinkle] to sign for and collateralize her husband’s
business debts hence violating ECOA prohibitions.”
Appellants’ Br. at 32 (emphasis added).
There’s no doubt that Lisa argued that
guarantors have standing under the ECOA, but her
brief makes clear that she made this argument in the
context of the Legal Outsource Loan Claim—that is,
that under the ECOA, Regions could not require her
individually or through her company to guarantee her
husband’s company Legal Outsource’s loan. But as I

Lest there be any question about what Lisa argued on appeal,
I have included as an appendix to this opinion the statement of
issues from Lisa’s opening brief, as well as the entirety of her
ECOA argument.

4

36a
have noted, the problem with that argument is Lisa
never raised it in the district court.
As for the Periwinkle Loan Claim she did raise in
the district court, the most we can say about that is
that Lisa’s brief on appeal nakedly cites her
Counterclaim 11, which in turn, alleged the
Periwinkle Loan Claim in the district court. But
significantly, Lisa’s brief cites Counterclaim 11 in the
context of arguing the Legal Outsource Loan Claim,
in an apparent effort to suggest that the Legal
Outsource Loan Claim was properly raised in the
district court. (It was not.)
And even if we ignore the context of the citations
to Counterclaim 11, (literally) bare citations alone do
not preserve an argument on appeal. We have found
abandonment when litigants have done more to
preserve their claims, such as “when [at least] passing
references appear in the argument section of an
opening brief,” and when “they are buried within . . .
arguments.” Sapuppo, 739 F.3d at 682. As this Court
has recently “remind[ed] the . . . bar[,] . . . specific
factual and legal argumentation at every stage of . . .
proceedings” is “importan[t]” to preserving issues on
appeal. United States v. Corbett, 921 F.3d 1032, 1043
(11th Cir. 2019) (W. Pryor, Newsom, Vratil, JJ.).5 So
Indeed, this Court has consistently enforced the abandonment
rule. See, e.g., Quality Auto Painting Ctr. of Roselle, Inc. v. State
Farm Indem. Co., 917 F.3d 1249, 1259 n.9 (11th Cir. 2019) (en
banc); Nance v. Warden, Ga. Diagnostic Prison, 922 F.3d 1298,
1302 n.2 (11th Cir. 2019) (Tjoflat, E. Carnes, W. Pryor, JJ.);
Hornsby-Culpepper v. Ware, 906 F.3d 1302, 1306 n.1 (11th Cir.
2018) (W. Pryor, Branch, Anderson, JJ.); United States v. Wenxia
Man, 891 F.3d 1253, 1275 (11th Cir. 2018) (W. Pryor, J. Pryor,
Black, JJ.); Feldman v. Am. Dawn, Inc., 849 F.3d 1333, 1345
(11th Cir. 2017) (W. Pryor, Jordan, Baldock, JJ.); United States
5

37a
under our unequivocal precedent, Lisa’s briefing
indisputably abandoned the Periwinkle Loan Claim.
Lisa’s counsel likewise did not raise the
Periwinkle Loan Claim issue at all during his initial
oral argument. And during his rebuttal, while Lisa’s
counsel briefly addressed the “ECOA issue,” he
argued only that Lisa had raised a triable issue of fact
that Regions had required Lisa “to provide collateral
for her husband’s loan.” Oral Argument at 24:04,
24:25, Regions Bank v. Legal Outsource PA, et al. (No.
17-11736),
http://www.ca11.uscourts.gov/oralargument-recordings?title=17-11736&field_oar_case_
name_value=&field_oral_argument_date_value%5Bv
alue%5D%5Byear%5D=&field_oral_argument_date_
value%5Bvalue%5D%5Bmonth%5D=
(“Oral
Argument”).
v. Stein, 846 F.3d 1135, 1151 n.15 (11th Cir. 2017) (W. Pryor, J.
Pryor, Story, JJ.); Jeune v. U.S. Att’y Gen., 810 F.3d 792, 797 n.2
(11th Cir. 2016) (W. Pryor, J. Carnes, Siler, JJ.); Sorrels v. NCL
(Bah.) Ltd., 796 F.3d 1275, 1283 (11th Cir. 2015) (W. Pryor,
Jordan, Jones, JJ.); In re McFarland, 790 F.3d 1182, 1191 n.10
(11th Cir. 2015) (Tjoflat, W. Pryor, Baldock, JJ.); Perez v. U.S.
Bureau of Citizenship & Immigration Servs., 774 F.3d 960, 964
(11th Cir. 2014) (per curiam) (Marcus, W. Pryor, Fay, JJ.). But
puzzlingly, today, the Majority Opinion selectively applies the
abandonment rule to correctly decline ruling on whether a
corporation can be an “applicant” under the ECOA, since “the
obligors briefly mention Periwinkle’s counterclaim in their
argument about the Equal Credit Opportunity Act, [but] they
have failed to argue or cite caselaw in either the district court or
on appeal to rebut the conclusion that its status as an entity
defeats its claim, as the district court ruled . . .” Maj. Op. at 7–8.
Yet the Majority Opinion incorrectly stretches to “resolve” a
specific claim Lisa does not even raise at all in her briefs on
appeal—whether Lisa may rely on the ECOA to contest Regions’s
demand that her husband, Charles, and his law firm, Legal
Outsource PA, guaranty the loan to Periwinkle.

38a
The only time during this appeal that either
party raised Lisa’s role as a guarantor of the
Periwinkle Loan was in Regions’s opposition brief.
Appellee’s Br. at 39–42. According to the Majority
Opinion, this makes the argument fair game. Maj. Op.
at 30–31. But here’s the problem: Lisa never took the
bait. She didn’t adopt Regions’s characterization of
her argument. She didn’t respond to Regions’s
argument in her reply brief. Her counsel did not agree
with it during oral argument. And by the time
Regions’s counsel got to oral argument, Regions
argued—over no claim to the contrary—that Lisa had
abandoned the Periwinkle Loan Claim.6 So on appeal,
no one ever argued in favor of Lisa and Periwinkle’s
position on the Periwinkle Loan Claim.
To recap, Lisa never argued in her opening brief
that she had standing as a guarantor to challenge the
loan made to Periwinkle. Regions raised that
argument in its opposition brief, but Lisa did not
respond to it in her reply brief. Lisa’s counsel did not
raise the argument during oral argument. Regions’s
counsel then argued that Lisa had abandoned this

6 See Oral Argument at 13:48 (“If you look at the counterclaim
that was brought before the district court and what has been
argued here in the briefs, it’s [a] completely different factual
situation. They haven’t even advanced the right argument in
our position. . . .”) (emphasis added), 18:02 (“[T]hey’re arguing
that there was discrimination because when the Legal
Outsource loan matured and Regions Bank said we can’t
extend the maturity on this because Legal Outsource is defunct,
it’s not credit-worthy, you need to provide an additional source of
repayment collateral—something to that effect—they’re saying
in the brief, which they never raised in front of Judge Magnuson,
that that is the ECOA violation.”) (emphasis added).

39a
argument. And Lisa’s counsel never disputed this. It’s
not on appeal.
Perhaps for this reason, the Majority Opinion
introduces the novel suggestion that amici can decide
what issues are before us. Maj. Op. at 31–32. Amici
frequently provide valuable insight to the court by
“supplementing the efforts of private counsel and by
drawing the court’s attention to law that might
otherwise escape consideration[.]” Shoemaker v. City
of Howell, 795 F.3d 553, 562 (6th Cir. 2015) (quoting
3-28 Moore’s Manual—Federal Practice and
Procedure § 28.84 (2014)). We are grateful for their
contribution. But we don’t let them select the issues.7
And besides, the Majority Opinion is wrong when it suggests
that the amicus briefs support its conclusion that Appellants
raised the ECOA standing issue in the context of the Periwinkle
Loan claim. See Maj. Op. at 31–32. On the contrary, the banking
associations’ amicus brief plainly understood Appellants to have
raised the ECOA standing issue as it relates to only the Legal
Outsource Loan Claim on appeal. Their brief describes the issue
Appellants raise as follows: “Appellants incorrectly argue that
the Equal Credit Opportunity Act affords ‘Lisa Phoenix and
Perwinkle [sic] [Partners, LLC]’ a claim that Regions [Bank]
required them to sign for and collateralize her husband’s
business debts[.]” Bankers’ Br. at 10 (emphasis added)
(alterations in original). Clearly, this pertains to only the Legal
Outsource Loan Claim on appeal. It does not reference the
Periwinkle Loan Claim. To be sure, the Bankers briefed the issue
of whether a guarantor has standing, but according to their own
words, they did so in the context of the Legal Outsource Loan
Claim because that’s what they understood Appellants to argue
in their brief. The Bankers obviously did not understand
Appellants to raise the guarantor-standing issue as it relates to
the Periwinkle Loan Claim. For good reason: on appeal,
Appellants never argued that issue in the context of the
Periwinkle Loan Claim. As for the other amicus brief, submitted
by the Consumer Financial Protection Bureau, it focused on what
it disagreed with in the district court’s opinion, as opposed to
7

40a
See Cellnet Commc’ns, Inc. v. F.C.C., 149 F.3d 429,
443 (6th Cir. 1998) (“To the extent that the amicus
raises issues or make[s] arguments that exceed those
properly raised by the parties, we may not consider
such issues.”).
Other courts have identified only very limited
circumstances warranting a court’s decision to
overlook abandonment of an argument or issue and
decide it, anyway. None applies here.
In Silber v. United States, 370 U.S. 717, 717–18
(1962), for example, the Supreme Court explained
that when a party fails to raise an issue on appeal,
courts “[i]n exceptional circumstances, especially in
criminal cases, . . . in the public interest, may, of their
own motion, notice errors to which no exception has
been taken, if the errors are obvious, or if they
otherwise seriously affect the fairness, integrity, or
public reputation of judicial proceedings.” (emphasis
added) (citation and quotation marks omitted). The
Majority Opinion has offered no reason why this case
presents “exceptional circumstances,” and I am aware
of no such reason. This is also not a criminal case. Nor,
in light of the fact that the Supreme Court recently
split 4-4 on the issue the Majority insists on
addressing today, Hawkins, 136 S. Ct. at 1072, and
other circuits are similarly split two to one, can we say
the answer to the unraised issue is “obvious.” And
finally, since the Majority Opinion’s answer to the
unraised issue results in precisely the same outcome
as declaring the issue abandoned—either way, the
district court is affirmed—I can see no way that the
unraised issue “seriously affect[s]”—or, for that
characterizing Appellants’ argument on appeal.

41a
matter, affects at all—“the fairness, integrity, or
public reputation of judicial proceedings.”
Other Circuits have also identified extremely
limited circumstances in which it might be
appropriate for an appellate court to address an issue
that no party raised. These other Circuits have
reasoned that a court may determine an unraised
issue where doing so would “enhanc[e] the efficiency
of the decisionmaking process and the conservation of
scarce judicial resources,” and “remand ‘would further
postpone the ultimate resolution of’ the petitioner’s
underlying claim for relief.” United States v. Holness,
706 F.3d 579, 592 (4th Cir. 2013) (quoting LaBruna v.
U.S. Marshal, 665 F.2d 439, 442 (2d Cir. 1981)).
Similarly, the Seventh Circuit has concluded it is
appropriate to review an unraised issue only when
these controlling factors decidedly favor review: the
size and complexity of the record, the certainty of the
resolution of the issue, and the need for “protracted,
costly, and ultimately futile proceedings in the district
court,” in the absence of addressing the forfeited issue.
United States v. Giovannetti, 928 F.2d 225, 227 (7th
Cir. 1991).
Of course, not one of these circumstances
describes this case. The record here is not particularly
lengthy or complex; resolution of the issue here, as I
have noted, is not cut and dry; and declining to reach
the issue would not “result in protracted, costly, and
ultimately futile proceedings in the district court.” Id.
Whether we address the unraised issue or not, the
result is the same: affirmance of the district court’s
order granting summary judgment to Regions. In fact,
ironically, deciding the unraised issue here makes
today’s opinion unnecessarily lengthy and complex. So

42a
it should go without saying that this case does not
present an appropriate vehicle to justify a wholly
unnecessary journey into the deeply debated question
of whether “guarantors” can be “applicants,” when the
claim as resolved by the Majority Opinion should be
dismissed, regardless, since it was clearly abandoned.
Apparently recognizing the inadvisability of
determining an issue no Appellant invoked and failing
to convince even itself that Appellants have raised the
Periwinkle Loan Claim on appeal, the Majority
Opinion tries a different tack and insists that
Appellants’ Legal Outsource Loan Claim arguments
“logically . . . can relate only” to Counterclaims 11 or
12 (Lisa’s individual claim as a guarantor of the
Periwinkle loan). Maj. Op. at 28. At the risk of
repetition but for the avoidance of doubt, I offer a
simpler explanation: on appeal, Lisa, for the first time
in this case, has raised a new claim about Regions’s
attempt to make her (through Periwinkle) guaranty
the Legal Outsource Loan. She did not plead the claim
in her Counterclaims—including Counterclaims 11 or
12—and she did not otherwise sufficiently develop it
in the district court.
Perhaps it was “nonsensical” for Lisa to raise the
Legal Outsource Loan Claim at this point, Maj. Op. at
33, but that was her prerogative, not ours. Our task
here is to “decide . . . [the] questions presented by the
parties.” Greenlaw v. United States, 554 U.S. 237, 244
(2008) (citation and quotation marks omitted). Our
responsibility to construe briefs “liberally” does not
grant us permission to recast what was appealed
simply because we want to reach an issue that the
parties left behind. See Nat’l Aeronautics and Space
Admin. v. Nelson, 562 U.S. 134, 147 n.10 (2011) (“The

43a
premise of our adversarial system is that appellate
courts do not sit as self-directed boards of legal inquiry
and research, but essentially as arbiters of legal
questions presented and argued by the parties before
them.”) (quoting Carducci v. Regan, 714 F.2d 171, 177
(D.C. Cir. 1983) (opinion for the court by Scalia, J.));
Greenlaw, 554 U.S. at 243 (“In our adversary system
. . . we rely on the parties to frame the issues for
decision and assign to courts the role of neutral
arbiter of matters the parties present.”).
As for the Legal Outsource Loan Claim, this is
hardly the first time a litigant has tried to raise a
“wholly novel claim” for the first time on appeal. Maj.
Op. at 33. When that happens, it has long been this
Court’s practice to refuse to consider the issue. See In
re Holywell Corp., 874 F.2d 780, 782 (11th Cir. 1989)
(refusing to consider claim that was not presented to
the district court); Troxler v. Owens-Illinois, Inc., 717
F.2d 530, 532 (11th Cir. 1983) (refusing to consider
affirmative defense raised for the first time on
appeal); see also Access Now, 385 F.3d at 1331 (“[W]e
review claims of judicial error in the trial courts. If we
were to regularly address questions—particularly
fact-bound issues—that districts court never had a
chance to examine, we would not only waste our
resources, but also deviate from the essential nature,
purpose, and competence of an appellate court.”).
Because Lisa raises the Legal Outsource Loan
Claim for the first time on appeal, the better course
would be to forgo considering it at this late hour.
Access Now, 385 F.3d at 1330–35. We can, however,
make exceptions to our general prohibition against
considering new claims for the first time on appeal if

44a
one of our limited exceptions to the rule applies.8 See
id. at 1332. The only exception that could even
possibly pertain here allows us to evaluate a new issue
for the first time on appeal “if that issue presents
significant questions of general impact or of great
public concern.” Id. at 1332.
Perhaps we could rely on that exception to
consider whether guarantors are considered
“applicants” under the ECOA in the context of Lisa’s
contentions arising out of the Legal Outsource Loan
Claim. But if we are going to do that, we should say so
and explain why the exception applies.
Unfortunately, though, that’s not what the
Majority Opinion does. Instead, inexplicably, it simply
considers whether guarantors have standing under
the ECOA, in the context of “resolving” the Periwinkle
Loan Claim, ignoring Lisa’s abandonment of that
claim on appeal and Regions’s argument that Lisa has
forsaken that claim for good by not appealing it.
Because Lisa opted not to present the Periwinkle
Loan Claim to us on appeal, it should be clear that
that claim leaves nothing to be “resolved.”
II.

Nevertheless, because the Majority Opinion
purports to improperly narrow the ECOA, I must
We have explained that we may consider an issue raised for the
first time on appeal (1) “if it involves a pure question of law, and
if refusal to consider it would result in a miscarriage of justice”;
(2) if “the appellant raises an objection to an order which he had
no opportunity to raise at the district court level”; (3) if “the
interest of substantial justice is at stake”; (4) if “the proper
resolution is beyond any doubt”; or (5) “if that issue presents
significant questions of general impact or of great public
concern.” Access Now, 385 F.3d at 1332.

8

45a
explain why its reasoning is wrong. I begin by setting
forth the framework we apply to the question the
Majority Opinion has chosen to address: whether
guarantors are included within the meaning of
“applicants” under the ECOA.
Since we are construing the meaning of a statute,
we must start with the text. Robinson v. Shell Oil Co.,
519 U.S. 337, 340 (1997). We consider whether the
text plainly and unambiguously answers the
particular question at issue. Id. In assessing the text,
we keep in mind that “[a] word in a statute may or
may not extend to the outer limits of its definitional
possibilities.” Dolan v. U.S. Postal Serv., 546 U.S. 481,
486 (2006). To determine the proper meaning, we
evaluate “the whole statutory text, considering the
purpose and context of the statute, and consult[ ] any
precedents or authorities that inform the analysis.”
Id.; see also Crandon v. United States, 494 U.S. 152,
158 (1990) (“In determining the meaning of the
statute, we look not only to the particular statutory
language, but to the design of the statute as a whole
and to its object and policy.”). And when a statute is
remedial in nature, we apply the well-established rule
that requires us to construe the text “broadly to
effectuate its purposes.” Tcherepnin v. Knight, 389
U.S. 332, 336 (1967); Stewart v. Kahn, 78 U.S. 493,
504 (1870); SEC v. Levin, 849 F.3d 995, 1001 (11th
Cir. 2017) (observing that remedial legislation “is
entitled to a broad construction”) (citations omitted).
If, after we apply these rules, the text is unambiguous,
yielding but a single possible answer to the question
at issue, our analysis ends. For we “must give effect to
the unambiguously expressed intent of Congress.”
Cadet v. Bulger, 377 F.3d 1173, 1185 (11th Cir. 2004)
(citation and quotation marks omitted).

46a
But if the text does not unambiguously answer
the precise question we are examining, we must
conduct an analysis under Chevron, U.S.A., Inc. v.
Nat. Res. Def. Council, Inc., 467 U.S. 837 (1984).
Under Chevron, we determine whether the agency
charged with filling in the ECOA’s gaps—originally
the Federal Reserve Board but beginning in 2010, the
Consumer Financial Protection Bureau9—has
established a permissible answer to our question. The
agency’s interpretation is permissible if it is
“reasonable.” Id. at 844. And we must defer to an
agency’s reasonable construction of a statute for
which that agency enjoys rulemaking authority. Id. If,
on the other hand, the agency’s interpretation of the
statute as it concerns the precise issue in controversy
is “arbitrary, capricious, or manifestly contrary to the
statute,” the agency’s answer is entitled to no weight.
Id.
With this framework in mind, I consider whether
a guarantor qualifies as an “applicant” under the
ECOA. I divide my discussion into three parts. In
accordance with the Supreme Court’s guidance for
construing statutory text, see Dolan, 546 U.S. at 486,
and because the ECOA has “broad remedial goals,”
Barney v. Holzer Clinic, Ltd., 110 F.3d 1207, 1211 n.6
In 2010, Congress transferred the Federal Reserve’s
rulemaking authority to the Consumer Financial Protection
Bureau. 15 U.S.C. 1691b(a). The Bureau has since
repromulgated Regulation B without making material changes.
12 C.F.R. Pt. 1002 & Supp. I; see Equal Credit Opportunity
(Regulation B), 76 Fed. Reg. 79,442 (Dec. 21, 2011). Because
Regulation B has remained materially the same since its original
promulgation by the Federal Reserve, to avoid confusion, for the
remainder of this opinion, I refer solely to the Federal Reserve as
the administering body.
9

47a
(6th Cir. 1997), Section A reviews the background,
purpose, and broader context of the ECOA as a whole.
Cf. Zuni Pub. Sch. Dist. No.89 v. Dep’t of Educ., 550
U.S. 81, 89–90 (2007) (departing from usual order of
analysis for purposes of exposition). Section B
examines the statutory text. And Section C considers
the Federal Reserve’s approach to answering the
question of whether a guarantor qualifies as an
“applicant” under the ECOA.
A.

Women were integral to the United States’s
World War II triumph through, among other ways,
their efforts in the workforce.10 Buoyed by their
experiences during the War, women helped detonate
America’s historic Post-War economic boom by
flocking to workplaces in unprecedented droves.11
But significant impediments to women’s
economic parity nonetheless persisted. A particularly
important obstacle involved credit availability:
creditors would not lend to women so they could start
their own businesses or buy their own homes because
creditors refused to consider women’s applications on
par with men’s. And the increasing necessity of credit

Jone Johnson Lewis, Women and World War II: Women at
Work, ThoughtCo, Mar. 5, 2019, available at https://
www.thoughtco.com/world-war-ii-women-at-work-3530690 (last
visited Aug. 27, 2019).
11 Howard N. Fullerton, Jr., Labor Force Participation: 75 Years
of Change, 1950-98 and 1998-2025, Monthly Lab. Rev. 3 (Dec.
1999), available at http://www.bls.gov/mlr/1999/12/art1full.pdf
(last visited Aug. 27, 2019).
10

48a
to achieve economic security made this impediment
particularly restrictive.12
That women faced rampant discrimination in
accessing credit was no secret. In fact, in the early
1970s, the then-President of the American Bankers
Association openly admitted that banks “do in fact
discriminate against women when it comes to
granting credit.”13 And in 1972, the National
Commission on Consumer Finance found five
systemic
patterns
of
gender-based
credit
discrimination: (1) single women had more trouble
obtaining credit than single men; (2) creditors
required women to reapply for credit upon marriage,
usually in the husband’s name; (3) creditors declined
to extend credit to a married woman in her own name;
(4) creditors often refused to count the wife’s income
when the couple applied for credit; and (5) women who
divorced or widowed had trouble reestablishing credit
since the accounts were in the husband’s name. Nat’l
Comm. On Consumer Fin., Consumer Credit in the
United States, 152–53 (1972).
So before marriage, regardless of a woman’s
wealth accumulation, creditors viewed women as poor
credits risks because they considered them
“inherently unstable and incapable of handling [their]
Dubravka Ritter, Do We Still Need the Equal Credit
Opportunity Act?, Fed. Res. Bank of Phila. (Sept. 2012), available
at
https://www.philadelphiafed.org/-/media/consumer-finance
institute/payment-cards-center/publications/discussion-papers
/2012/d-2012-equal-credit-opportunity-act.pdf?la=en (last visited
Aug. 27, 2019).
12

Susan Smith Blakely, Credit Opportunity for Women: The
ECOA and Its Effects, 1981 Wis. L. Rev. 655, 657 (1981) (citation
omitted).

13

49a
own affairs . . . and likely to change [their] marital
status.” Gail R. Reizenstein, A Fresh Look at the
Equal Credit Opportunity Act, 14 Akron L. Rev. 215,
226 (1980) (citation omitted) (“Fresh Look”). Many
creditors even demanded that women disclose the
type of birth control they relied upon. Credit Equality
Comes to Women: An Analysis of the Equal Credit
Opportunity Act, 13 San Diego L. Rev. 960, 965 (1976).
Some creditors took it yet a step further by making
women choose between babies and credit by
conditioning a woman’s credit approval on her “swear
. . . that [she] would not endanger [her] ability to
repay [her] debt[] by having children.” Id. (citations
omitted).
Getting married usually didn’t improve women’s
lots in credit markets because lenders often folded
whatever credit women had before marriage into their
husbands’ credit. For instance, after winning multiple
Wimbledon championships and supporting her
household with those earnings, Billie Jean King could
not get a credit card in her own name; rather, she had
to apply in the name of her husband, who at that time,
was an unemployed law student. Gail Collins, When
Everything Changed: The Amazing Journey of
American Women from 1960 to the Present, 182 (Little,
Brown & Co. ed., 2014). And bankers told the mayor
of Davenport, Iowa, that they would give her a credit
card only if her husband would sign for it. Id.
This state of affairs created a paradox for women:
they couldn’t have their own credit during marriage,
and if they divorced or became widowed, lenders
would deny their applications because they lacked
established credit of their own. Economic Problems of
Women: Hearings Before the Joint Economic

50a
Committee, 93d Cong. 152, 1st Sess. (1973) (“The irony
of these credit practices is that when a woman is
divorced, separated, or widowed she often is denied
credit by these same credit companies on the grounds
that she has no established credit record.”)
(Statement of U.S. Rep. Griffiths, Member, Joint
Econ. Comm.) (“Economic Problems”). And many
women started post-marriage life even worse off than
having no credit because lenders insisted on tying
women’s financial fortunes to those of their exhusbands, and their ex-husbands’ delinquent
accounts often detracted from the women’s credit
scores even after the marriage ended. See Fresh Look
at 225.
This atmosphere evolved out of the wrong14 but
“widely-held” presumptions that “probability of
pregnancy,
the
subsequent
termination
of
employment upon childbirth, and the general
instability and inability of women to control their
personal affairs (especially single and divorced
women)” made women bad bets. Fresh Look at 216
(citation omitted).
Eventually, Congress began to recognize the
inequities of tethering women’s economic prospects to
their husbands and the risks this discrimination

Despite higher levels of unemployment than men at the time,
women were, in fact, better credit risks than men, studies
showed. A study commissioned in 1964 examined the possible
correlation between consumer credit risk and sex. It found that
out of 8,795 credit accounts established for single men, 176
defaulted (2%); while among 4,337 accounts established for
single women, only 33 defaulted (0.75%). See Sharon Thornton,
The Not-So-Equal Credit Opportunity Act, 5 Orange Cty. B.J.
363, 366 (1978).

14

51a
posed to the new economy. So in the early 1970s,
Congress addressed the problem.
Testimony before Congress established that at
that time, to obtain credit, women needed a higher
salary and more stable employment than men. See
Senate Comm. On Banking, Housing & Urban Affairs,
S. Rep. No. 93–278, 93rd Cong., 1st Sess. 16–17 (1973)
(“Senate Rpt.”); see also Economic Problems at 197;
Credit Discrimination: Hearings Before the Subcomm.
on Consumer Affairs of the House Comm. on Banking
and Currency on H.R. 14856 and H.R. 14908, 93rd
Cong., 2d Sess. 315, 636 (1974).15 Creditors operated
under the assumption that women were economically
dependent upon their husbands, even if in reality, the
wife’s earnings outpaced her husband’s. See Senate
Rpt. at 17–18. Creditors also usually altered a wife’s
credit rating to match her husband’s and frequently
refused to give married women separate accounts. See
id. at 17.
The congressional hearings culminated in the
Senate Subcommittee’s report that found thirteen
different “widespread” ways creditors discriminated
on the basis of sex and marital status:
(1)

Women were held to different standards than
men in obtaining credit;

(2)

Creditors generally required a woman upon
marriage to reapply for credit;

During the hearings, one person relayed that an employee of a
credit institution had stated that it was “un-American to count a
woman’s income and that the only way a woman’s income could
be counted would be if she were to have a hysterectomy.”
Economic Problems at 192 (quotation marks omitted).

15

52a
(3)

Creditors often refused to extend credit to a
married woman in her own name;

(4)

Creditors were usually unwilling to consider
the wife’s income when a married couple
applied for credit;

(5)

Women who had separated had a particularly
difficult time, since the accounts may still
have been in the husband’s name;

(6)

Creditors arbitrarily refused to consider
alimony and child support as a valid source of
income;

(7)

Creditors applied stricter standards to
married applicants where the wife was the
high earner;

(8)

Creditors used information about women’s
birth-control practices in evaluating credit
applications;

(9)

Creditors used information concerning the
creditworthiness of a spouse where an
otherwise-creditworthy
married
person
applied for credit;

(10) Creditors refused to issue separate accounts
to married persons;
(11) Creditors considered women dependent upon
their husbands even if the women were
employed;
(12) Creditors used credit-scoring systems that
applied different values depending on sex or
marital status; and
(13) Creditors altered women’s credit ratings to
match their husbands’ credit ratings.

53a
Senate Rpt. at 16–17.
Against this background and in light of these
findings, Congress enacted the ECOA in 1974. In
doing so, Congress concluded sex and marital status
“are, and must be, irrelevant to a credit judgment.”
Senate Rep. (Banking Hous. and Urban Affairs
Comm.), S. Rep. No. 94 – 589, 94th Cong., 2d Sess. 3
(1976), reprinted in 1976 U.S.C.C.A.N. 403, 405; see
also 15 U.S.C. § 1691 (articulating the ECOA’s
prohibition of credit discrimination based on gender
or marital status).
So it is not surprising that the ECOA makes it
“unlawful for any creditor to discriminate against any
applicant, with respect to any aspect of a credit
transaction [ ] on the basis of . . . sex or marital status.
. . .” 15 U.S.C. § 1691(a)(1).16 Indeed, the ECOA
represents Congress’s resolve to “eradicate credit
discrimination waged against women, especially
married women whom creditors traditionally refused
to consider for individual credit,” Anderson v. United
Fin. Co., 666 F.2d 1274, 1277 (9th Cir. 1982), and “to
prevent loans from being conditioned automatically
on the securing of the signature of the non-borrowing
spouse,” Mayes v. Chrysler Credit Corp., 167 F.3d 675,
676 (1st Cir. 1999).
Against the crazy quilt of discriminatory
practices creditors were using at that time, Congress
declined to spell out each methodology or action that
amounts to impermissible discrimination. Instead,
Congress rested on the ECOA’s broad language and
In 1976, Congress extended the ECOA to bar creditors from
discriminating on the basis of race, color, religion and national
origin. See 15 U.S.C. § 1691(a); Ritter, supra, at 2–3.

16

54a
“entrust[ed] its construction to an agency with the
necessary experience and resources to monitor its
operation.” Mourning v. Family Publ’ns Serv., Inc.,
411 U.S. 356, 365 (1973). Specifically, Congress
delegated to the Federal Reserve the task of adopting
“classifications, differentiation, or other provision[s],”
that were, in the Federal Reserve’s judgment,
“necessary or proper to effectuate the [ECOA’s]
purposes. . . .” 15 U.S.C. § 1691b(a).
Shortly after Congress enacted the ECOA, the
Federal Reserve took the baton from Congress and
promulgated Regulation B to implement Congress’s
directive to combat sex- and marital-status-based
credit discrimination. 12 C.F.R. § 202.1(b) (stating
that the purpose of Regulation B is “to promote the
availability of credit to all creditworthy applicants
without regard to . . . sex [or] marital status. . . .”).
Included within Regulation B is the Spousal Guaranty
Rule, which generally prohibits creditors from
treating married people differently by requiring
spouses to assume liability for each other’s debt
obligations. 12 C.F.R. 202.7(d); Equal Credit
Opportunity Final Rulemaking, 40 Fed. Reg. 49,308–
09 (Oct. 22, 1975). Therefore, ever since 1977,
Regulation B has prohibited creditors from obligating
an individual to guaranty her spouse’s debts.
Some courts, though, interpreted Regulation B to
mean that when a creditor violated the Spousal
Guaranty Rule, the only “applicant” who suffered
discrimination was the primary borrower, not the
spouse who guaranteed the loan. See, e.g., Morse v.
Mut. Fed. Sav. & Loan Ass’n of Whitman, 536 F. Supp.
1271, 1278 (D. Mass. 1982). The Federal Reserve
recognized that this restrictive reading thwarted one

55a
of the purposes of the ECOA—ensuring access to an
independent credit profile by detangling spouses’
credit—since the guarantor spouse could be saddled
with her husband’s bad debt with no recourse under
the ECOA.
So in 1985, the Federal Reserve expressly
construed the ECOA’s definition of “applicant”—“any
person who applies to a creditor directly for an
extension, renewal, or continuation of credit, or
applies to a creditor indirectly by use of an existing
credit plan for an amount exceeding a previously
established credit limit,” 15 U.S.C. § 1691a(b)—to
include “guarantors, sureties, endorsers, and similar
parties” “[f]or purposes of” the Spousal Guaranty
Rule. 12 C.F.R. 202.2(e). In doing so, the Federal
Reserve emphasized that it was not imposing any new
obligations, since in accordance with the ECOA,
Regulation B had long prohibited creditors from
requiring a guaranty from a borrower’s spouse.
Rather, the Federal Reserve explained, it was just
recognizing that the guarantor spouse also has
standing when the creditor straps the spouses’ credit
fortunes together. Equal Credit Opportunity; Revision
of Regulation B; Official Staff Commentary, 50 Fed.
Reg. 48,018 (Nov. 20, 1985).17
B.

We begin our analysis of whether the ECOA
includes guarantors within the definition of
The Federal Reserve made Regulation B firm but flexible. If a
party is needed to support the loan request because the potential
debtor husband’s credit is insufficient, the wife can guaranty the
loan. Regulation B just bars lenders from “requir[ing] that the
spouse be the additional party.” 12 C.F.R. 202.7(d)(5).

17

56a
“applicants” by evaluating the statutory text. The
ECOA makes it “unlawful for any creditor to
discriminate against any applicant, with respect to
any aspect of a credit transaction [ ] on the basis of . . .
marital status. . . .” 15 U.S.C. § 1691(a)(1) (emphasis
added). In turn, the ECOA defines “applicant” as “any
person who applies to a creditor directly for an
extension, renewal, or continuation of credit, or
applies to a creditor indirectly by use of an existing
credit plan for an amount exceeding a previously
established credit limit.” 15 U.S.C. § 1691a(b)
(emphasis added).
Two aspects of this text immediately stand out.
First, Congress employed the word “any” four
times in these two sentences. The Supreme Court has
explained that “the word ‘any’ has an expansive
meaning.” United States v. Gonzales, 520 U.S. 1, 5
(1997) (citation omitted). The Majority Opinion is
correct that the word “any” does not change the
definition of the word it modifies. Maj. Op. at 18–19.
But when that word appears repeatedly over just a
couple of sentences—here, four times in two
sentences—“it begins to seem that Congress meant
the statute to have expansive reach.” See United
States v. Clintwood Elkhorn Mining Co., 553 U.S. 1, 7
(2008).18

See also Dennis v. Higgins, 498 U.S. 439, 443 (1991) (“A broad
construction of § 1983 is compelled by the statutory language,
which speaks of deprivations of ‘any rights, privileges, or
immunities secured by the Constitution and laws.’ Accordingly,
we have repeatedly held that the coverage of [§ 1983] must be
broadly construed.”) (citations and quotation marks omitted).
18

57a
This would be true for any statutory provision
that abundantly uses the word “any,” but it is
especially so when dealing with remedial legislation.
Where Congress uses the term “any” with a “lack of
[accompanying] restrictive language,” the Supreme
Court has instructed us to “refuse[ ] to engraft
artificial limitations” that curb the “expansive
remedial purpose[s]” connoted by such language. Blue
Shield of Va. v. McCready, 457 U.S. 465, 472 (1982);
see id. (broadly construing “[a]ny person who shall be
injured in his business or property by reason of
anything forbidden in the antitrust laws”). So, for
example, the text’s prohibition against marital-status
discrimination “with respect to any aspect of a credit
transaction,” 15 U.S.C. § 1691(a)(1) (emphasis added),
purports to preclude marital-status discrimination in
all aspects of credit transactions, including against
guarantors.
Nevertheless, and second, the statutory
provisions do not expressly answer the key question
at issue here: must the applicant request credit for
herself or may she request it for somebody else? As the
Sixth Circuit has noted, “the applicant and the debtor
are not always the same person.” RL BB Acquisition,
LLC v. Bridgemill Commons Dev. Grp., LLC, 754 F.3d
380, 385 (6th Cir. 2014). And the Majority Opinion’s
listed common dictionary definitions of “apply” do not
limit applicants to only the proposed debtor, because
they do not foreclose the scenario where an applicant
makes a request for credit on someone else’s behalf.
Similarly, both the Sixth and Eighth Circuits, in
construing the text at issue, have relied on common
dictionary definitions of “apply” as meaning “to make
an appeal or request especially formally and often in

58a
writing and usually for something of benefit to oneself.”
Hawkins, 761 F.3d at 941 (quoting Webster’s Third
New Int’l Dictionary at 105 (2002)) (quotation marks
and alterations omitted) (emphasis added); RL BB
Acquisition, 754 F.3d at 385 (quoting Webster’s Third
New Int’l Dictionary at 105 (1993) (cleaned up)); see
also Webster’s Third New Int’l Dictionary at 105
(1961) (same definition, cleaned up). Obviously, if
something is “usually for something of benefit to
oneself,” it must sometimes be for something of benefit
to another.
So we must consider whether a guarantor may
ever reasonably and naturally be viewed as
requesting “something of benefit” to another—that is,
credit for the benefit of the proposed debtor. As it
turns out, under the plain meaning of “guarantor,” she
may.
As Corbin on Contracts explains, “In most cases
of guaranty contracts, the offer comes from the
guarantor requesting the giving of credit to a principal
debtor. . . .” See Timothy Murray, Corbin on Contracts
§ 3.14, at 467 (rev. ed. 2018).19 In fact, a guaranty is
typically enforceable only because, in exchange for the
creditor’s promise to extend credit to the debtor, the
guarantor promises to repay the loan if the primary
debtor defaults. See Restatement (Second) of
Contracts § 71(2) (1981). Thus, guaranty contracts
would be unenforceable absent the exchange of
consideration by the guarantor—a promise to repay—
and the creditor—the fulfillment of the guarantor’s
“application” that it lends to the debtor. See
Additionally, other banking regulations provide that
guarantors request and receive extensions of credit. See, e.g., 12
C.F.R. 215.3(a)(4).
19

59a
Restatement (Third) of Suretyship and Guaranty § 9,
cmt. a (1996); Joseph M. Perillo, Corbin on Corbin
§ 9.4, at 252–253 (rev. ed. 1996); see also United States
v. Burgreen, 591 F.2d 291, 294 (5th Cir. 1979) (finding
that guaranty was supported by consideration
through the loan to the primary borrower).
The Majority Opinion charges that this definition
of “apply” falls outside the word’s natural meaning.
Maj. Op. at 20. But there are three problems with the
Majority Opinion’s position.
First, in support of its argument, the Majority
Opinion inexplicably invites readers to consider an
incongruous hypothetical, arguing that parents who
seek to bribe their daughter’s way into college by
offering to “make a large gift if their daughter is
admitted” are not “applicants.” Maj. Op. at 13. I agree.
But nor are they analogous to guarantors. Unlike the
parents in the Majority Opinion’s hypothetical, who
can obtain admission for their daughter only by
paying a bribe to the college, a guarantor does not
bribe or otherwise pay the creditor for credit to be
extended to another. And if the eventual debtor pays
back the credit, the guarantor will never pay
anything. So the Majority Opinion’s efforts to explain
in tangible terms why a guarantor cannot fall within
the meaning of “applicant” fail.
Second, none of the many definitions of the word
“apply” that the Majority Opinion cites excludes the
interpretation that the application was for someone
else. Maj. Op. at 10–12. And that is significant to our
analysis. In Smith v. United States, 508 U.S. 223, 225
(1993), for example, the Supreme Court had to
determine whether the exchange of a gun for narcotics
amounted to the “use” of a firearm “during and in

60a
relation to . . . [a] drug trafficking crime,” within the
meaning of 18 U.S.C. § 924(c)(1). The Court rejected
the petitioner’s request to apply only the limited and
most common meaning of the phrase. Id. at 229.
Rather, the Court determined that trading a firearm
for drugs also qualified as “use” of the firearm under
the statute, explaining, “It is one thing to say that the
ordinary meaning of ‘uses a firearm’ includes using a
firearm as a weapon, since that is the intended
purpose of a firearm and the example of ‘use’ that
most immediately comes to mind. But it is quite
another to conclude that, as a result, the phrase also
excludes any other use.” Id.
Applying Smith, we must conclude that the
availability of a frequently used definition of
“applicant”—one who seeks credit for herself—does
not necessarily negate a less-common definition—one
who seeks credit for others. That is so because the
definitions of “applicant” do not exclude use of the
word to refer to guarantors.
And third, the ECOA is a remedial statute that
we must construe “broad[ly]” to effectuate its remedial
goals. Barney, 110 F.3d at 1211 n.6; see also Levin, 849
F.3d at 1001 (observing that remedial legislation “is
entitled to a broad construction”); Morante-Navarro v.
T&Y Pine Straw, Inc., 350 F.3d 1163, 1166 (11th Cir.
2003) (construing the remedial Migrant and Seasonal
Agricultural Workers Protection Act “broadly to effect
its . . . purpose”). Our task cannot begin and end with
a definitional popularity contest. If it did, there would
be no way to construe remedial legislation “broadly”
to effectuate its purpose, because all words in all
statutes would be read as conveying only a single
potential meaning.

61a
Notably, the Majority Opinion makes no attempt
whatsoever to reconcile the “familiar canon of
statutory construction that remedial legislation
should be construed broadly to effectuate its
purposes,” Tcherepnin, 389 U.S. at 336, or the caveat
that “[a] word in a statute may or may not extend to
the outer limits of its definitional possibilities,” Dolan,
546 U.S. at 486, with the Majority Opinion’s thewords-can-have-only-a-single-meaning mantra.20 Of
course, if either or both of these doctrines apply, the
Majority Opinion cannot be right.
So instead of responding substantively, the
Majority Opinion asserts the Supreme Court has
“rejected applying” the remedial-purpose doctrine.
Maj. Op. at 12. And it has no answer at all to the
Supreme Court’s instruction in Dolan.
But while the Majority Opinion pulls colorful
language from context to suggest that the Supreme
Court has determined that the remedial-purpose
doctrine is no longer good law, there’s a problem with
this response: the Supreme Court has not rejected the
20 As Judge William Pryor explained last year, “the text must be
construed as a whole. . . . Strict construction sequesters the
words of a text from their context. That is one of the reasons why
strict construction is foolish.” Pictet Overseas Inc. v. Helvetia
Trust, 905 F.3d 1183, 1190 (11th Cir. 2018) (William Pryor, J.,
concurring) (cleaned up); see also Deal v. United States, 508 U.S.
129, 132 44 (1993) superseded by statute as stated in United
States v. Davis, 139 S. Ct. 2319, 2324 n.1 (2019) (it is a
“fundamental principle of statutory construction (and indeed, of
language itself), that the meaning of a word cannot be
determined in isolation, but must be drawn from the context in
which it is used.”). So we ought not to pluck words out of their
context and define them narrowly just because a dictionary
indicates that the narrower meaning is the more common one.

62a
doctrine. Rather, the Court concluded the doctrine
was simply inapplicable in the cases the Majority
Opinion cites.
For example, there were multiple reasons why
the doctrine would not apply to the Comprehensive
Environmental Response, Compensation, and
Liability Act, the statute at issue in CTS Corp. v.
Waldburger, 573 U.S. 1 (2014): (1) the Court held that
the statute “d[id] not provide a complete remedial
framework,” and so it was not necessarily a remedial
statute, see id. at 18; (2) even if it was a remedial
statute, the statute’s legislative history supported a
construction of the statutory text at odds with the
remedial purpose, see id. at 14–17; and (3) the statute,
which would trump state law if the Court adopted the
respondents’ argument, was subject to a competing
presumption against preemption, see id. at 12.
Likewise, the respondents in Inyo County v.
Paiute-Shoshone Indians of the Bishop Community of
the Bishop Colony, 538 U.S. 701 (2003), argued that
the Bishop Paiute Tribe should be considered a
“person” under 42 U.S.C. § 1983, a construction—
according to respondents—that would be consistent
with the law’s remedial purpose. See Paiute-Shoshone
Indians, 538 U.S. at 710. The Court rejected this bid,
holding that “Section 1983 was designed to secure
private rights against government encroachment, not
to advance a sovereign’s prerogative to withhold
evidence relevant to a criminal investigation.” See id.
at 711–12 (citation omitted). So rather than rejecting
the doctrine, the Court disagreed that the statute was
meant to remedy the harms that the respondents
addressed.

63a
Norfolk Southern Railway Co. v. Sorrell, 549 U.S.
158 (2007), is similarly uninstructive here. Norfolk
involved the Federal Employers’ Liability Act
(“FELA”), which makes railroads liable to their
employees for injuries “resulting in whole or in part
from the negligence” of the railroad, 45 U.S.C. § 51.
549 U.S. at 160. In that case, the Court considered
whether the statute permitted different standards of
causation for railroad and employee contributory
negligence. Id. Although the Court recognized that
FELA was “enacted to benefit railroad employees” and
that a more lenient standard of causation for
employee contributory negligence would favor
employees, it held that FELA required application of
a single negligence standard, stating that FELA’s
“remedial purpose [does not] require[ ] us to interpret
every uncertainty in the Act in favor of employees.” Id
at 171. But what’s important for this case is that the
Court decided that the “system of comparative fault”
would not “work” if “the basis of comparison [meaning
the standard for contributory negligence] [were not]
the same.” Id. at 170, 171 (citations omitted). In other
words, the Court left open the possibility that the
remedial-purpose doctrine would apply in cases where
the object of interpretation makes the difference
between accomplishing the statute’s central purposes
at all and not.
This is just such a case. First, unlike the situation
with FELA in Norfolk, construing “applicant” to
include guarantors under § 1691(a)(1) does not
prevent the ECOA’s mechanisms from working. And
unlike whether the contributory negligence standard
is the same for employees and employers under the
FELA—a question that impacts only the amount of
the recovery but not entitlement to recovery—

64a
whether “applicant” encompasses guarantors under
§ 1691(a)(1) does not involve just some random
“uncertainty in the Act,” Norfolk, 549 U.S. at 171.
Rather, the answer to that question determines
whether the ECOA will effect one of its central
purposes at all—that is, whether the ECOA will allow
spouses to disentangle their credit, or whether it will
permit lenders to require such entanglement.
The Majority Opinion’s reliance on Household
Credit Servs., Inc. v. Pfennig, 541 U.S. 232 (2004),
fares no better. In that case, the Supreme Court
concluded that the statutory language of the Truth in
Lending Act was ambiguous on the question at issue
there, so it noted that the agency’s regulation
answering the question was “binding” unless, among
other things, “manifestly contrary to the statute.” Id.
at 242 (citation omitted). The Court then concluded
that the regulation was “in no way manifestly
contrary” to the statute. Id.
As was the case with the statute in Household
Credit, here, the ECOA is ambiguous on the precise
question at issue. And when we turn to the agency’s
interpretation—Regulation B—as in Household
Credit, that regulation is not “manifestly contrary to
the statute.” Id. Rather, as in Household Credit, it
furthers one of the “primary goals” of the statute, see
id. at 243, as I have explained.
Finally, turning to Director, Office of Workers’
Compensation Programs, Department of Labor v.
Newport News Shipbuilding & Dry Dock Co., 514 U.S.
122 (1995), which the Majority Opinion suggests
“ridiculed” the remedial-purpose doctrine and
rendered it no longer good law, Maj. Op. at 21 (citing
Newport News, 514 U.S. at 135), that’s not an accurate

65a
description of that case. Rather, the Court ridiculed
the petitioner’s attempt to rely on the doctrine in that
case, when the Court was not even analyzing a
remedial statute. In fact, the Court discussed—at
some length—that the statute’s “goal” was not clear.
See id. at 131. Not only did the Court not invalidate
the remedial-purpose doctrine, the Court recognized
that the principle of construing any statute broadly to
achieve its purposes could be invoked “in case of
ambiguity,” id. at 135, which I submit is the case here.
And finally, the Court in Newport News went on to
construe the statute at issue “as liberally as can be.”
Id. at 136.
But you don’t have to take it from me; you can
take it from the Court itself. Seven years after issuing
Newport News, the Supreme Court unanimously
applied the remedial-purpose doctrine in S.E.C. v.
Zandford, 535 U.S. 813, 819 (2002) (“[W]e have
explained that [Section 10(b) of the Securities
Exchange Act] should be construed not technically
and restrictively, but flexibly to effectuate its
remedial purposes.”) (citation and internal quotation
marks omitted).
Instead of addressing the substance of this
argument on the remedial-purpose doctrine and
Dolan’s instruction that “[a] word in a statute may or
may not extend to the outer limits of its definitional
possibilities,” 546 U.S. at 486, the Majority Opinion
accuses this dissent of engaging in “hornbook abuse of
the whole-text canon” and mischaracterizes my
argument as “since the overall purpose of the statute
is to achieve x, any interpretation of the text that
limits the achieving of x must be disfavored.” Maj. Op.
at 20.

66a
But it’s not that the Majority Opinion’s
interpretation of “applicant” “limits the achieving” of
the ECOA’s purpose of disentangling spouses’
financial fortunes, see Senate Rpt. at 16–17;21 it’s that
it is antithetical to that reason for the ECOA.
The guarantor spouse often suffers a unique
economic injury that the primary debtor spouse does
not. Say the creditor refuses to extend the loan unless
the wife guarantees it, so the wife agrees to do so. But
the husband—the direct debtor—may have no
complaints, since he received the loan he was after.
And even if he did, he may well not have economic
damages to assert in a lawsuit. See, e.g., Mayes, 167
F.3d at 678 (“[The husband] has no claim for damages
or injunctive relief under ECOA for harm done to his
wife. If anyone was injured by requiring [the wife] to
sign the guarantee, it was she and not [the husband],
who after all received the loan he had sought.”).
Without the potential for redress, he would lack
standing.
By contrast, the wife who guaranteed the loan
may have a separate injury stemming from the fact
that her credit score is likely lower because she agreed
to be secondarily liable for the loan. See Mechel Glass,
Equifax, Should I Co-Sign On a Loan for a Family
Member?,
available
https://blog.equifax.com/tag/
credit-score/page/4/ (last visited Aug. 27, 2019). So she
may have suffered an injury if she sought credit and
was unable to obtain it, or if any credit she did receive
either was more limited or bore a higher interest rate
See also Mayes, 167 F.3d at 676 (Congress also set out “to
prevent loans from being conditioned automatically on the
securing of the signature of the non-borrowing spouse.”).
21

67a
than it would have had she not been required to
guaranty her husband’s loan. Yet construing
“applicants” to exclude guarantors would mean
nobody in this scenario would have standing to pursue
the creditor’s flagrant violation of the ECOA.
And worse yet, allowing lenders to, with
impunity, require wives to guaranty their husbands’
debts actually creates the same financial
intertwinement problems that arose when lenders
demanded that women like Billie Jean King obtain
their husbands’ guaranties before lenders would
extend credit to them. In both cases, the wives’ credit
is forever tied to the husbands’ credit fortunes.
As a result, guaranteeing the husband’s loan can
“negatively impact [the wife’s] credit report and
creditworthiness,” since guaranteeing a loan shows up
on credit reports immediately. Glass, supra, at 26.
And if the husband “miss[es] payments or default[s]
on the loan, [the wife’s] credit reports will show the
delinquencies,” ruining her credit history and ability
to secure future credit. TransUnion, The Benefits &
Issues of Co-Signing a Loan, available at http://www.
transunion.com/personal-credit/credit-issues-badcredit/cosigning-aloan.page (last visited Aug. 27,
2019).
So far from “‘open[ing] vistas of liability’ that
Congress did not envision,” Maj. Op. at 24 (quoting
Moran Foods, Inc. v. Mid-Atl. Market Dev. Co., LLC,
476 F.3d 436, 441 (7th Cir. 2007)), construing
“applicants”
to
include
guarantors
actually
effectuates Congress’s goal of disentangling spouses’
credit. In contrast, the interpretation the Majority
Opinion and the Eighth Circuit in Hawkins offer
creates the very entanglement of spouses’ credit

68a
Congress sought to eradicate. That Congress would
have prohibited one form of enforced credit
entanglement and unworthiness only to allow another
to fully replace it makes about as much sense as icehockey cleats. See W. Air Lines, Inc. v. Bd. of
Equalization, 480 U.S. 123, 133 (1987) (“[I]llogical
results . . . argue strongly against the conclusion that
Congress
intended”
a
particular
statutory
construction).
The Majority Opinion’s reliance on Judge
Colloton’s Hawkins concurrence—where Judge
Colloton argued that the word “application” should
have only one meaning throughout the ECOA—is
similarly misplaced. Maj. Op. at 14–16. I understand
Judge Colloton’s concern. After all, we “ordinarily
assume[ ] that identical words used in different parts
of the same act are intended to have the same
meaning.” Utility Air Reg. Grp. v. E.P.A., 573 U.S.
302, 319-20 (2014) (citations omitted). But that
assumption is not absolute. It “readily yields
whenever there is such variation in the connection in
which the words are used as reasonably to warrant
the conclusion that they were employed in different
parts of the act with different intent.” Atl. Cleaners &
Dyers v. United States, 286 U.S. 427, 433 (1932); see
also Yates v. United States, 135 S. Ct. 1074, 1082
(2015) (“In law as in life . . . the same words, placed in
different contexts, sometimes mean different
things.”). This is one of those times, or else the ECOA
ensures the existence of the very problem it seeks to
eliminate.
Even assuming some parts of the ECOA
suggest—or even require—a narrow interpretation of
the word “applicant,” that does not mean that the

69a
term as used in 15 U.S.C. § 1691(a)(1) must be
similarly construed, since “a characterization fitting
in certain contexts may be unsuitable in others.” See
NationsBank of N.C., N.A. v. Variable Annuity Life
Ins. Co., 513 U.S. 251, 262 (1995). For instance, to
make his point, Judge Colloton primarily invokes 15
U.S.C. § 1691(d), titled, “Reason for adverse action;
procedure applicable; ‘adverse action’ defined.” That
subsection articulates what happens when a lender
denies or revokes credit to a debtor. It therefore makes
sense that it applies to the person who would have
received or actually received the loan.
Section 1691(a), on the other hand, is the
statute’s vehicle for proscribing discrimination on the
basis of marital status. By both its terms and its
function, it has broader application than the
provisions to which Judge Colloton points. Cf. Atl.
Cleaners, 286 U.S. at 435 (“A consideration of the
history [of the ECOA] . . . sanctions the conclusion
that Congress meant to deal comprehensively and
effectively
with
the
evils
resulting”
from
discrimination). Indeed, it directly effects Congress’s
purposes in enacting the ECOA in the first place—
preventing credit discrimination on the basis of
marital status and allowing spouses to disentangle
their credit from one another. And its text, as I have
noted, makes it applicable to “any aspect” of a credit
transaction.
That Judge Colloton’s citations are exclusively to
other provisions of 15 U.S.C. § 1691 does not change
this fact. See Hawkins, 761 F.3d at 943–44 (Colloton,
J., concurring). “Most words have different shades of
meaning and consequently may be variously
construed, not only when they occur in different

70a
statutes, but when used more than once in the same
statute or even in the same section.” Envtl. Def. v. Duke
Energy Corp., 549 U.S. 561, 574 (2007) (emphasis
added) (citation and alteration omitted); accord Gen.
Dynamics, 540 U.S. at 595-97 (“age” has different
meanings in 29 U.S.C. § 623(a) and § 623(f) of the Age
Discrimination in Employment Act of 1967);
Robinson, 519 U.S. at 342–43 (“employee” has
different meanings in different parts of 42 U.S.C.
§ 2000e–16(b) of Title VII of the Civil Rights Act of
1964); see also Wachovia Bank, N.A. v. Schmidt, 546
U.S. 303, 313–14 (2006) (“located” has different
meanings in different sections of the National Bank
Act).
But even if we were to hold that the term
“applicant” as used throughout the statute includes
guarantors, that is a better answer than the Majority
Opinion’s conclusion. Judge Colloton’s examples
suggest that such an interpretation could create
unexpected benefits for guarantors. That is preferable
to gutting the statute’s reason for being. The Majority
Opinion’s interpretation does not simply “limit[ ] the
achieving” of what Congress sought with the ECOA,
Maj. Op. at 20 (citation omitted); as I have explained,
it “would be destructive of [the law’s] purpose. . . .”
Robinson, 519 U.S. at 346.
So the Majority Opinion’s analysis cannot carry
the day. “[T]he overriding national policy against
discrimination that underlies the [ECOA]” means
that “we cannot give” words in that statute a “narrow
interpretation.” Bros. v. First Leasing, 724 F.2d 789,
793 (9th Cir. 1984). Instead, we must “construe the
literal language of the ECOA in light of the clear,
strong purpose evidenced by the Act and adopt an

71a
interpretation that will serve to effectuate that
purpose.” Id.; see also United States v. Am. Trucking
Ass’ns, 310 U.S. 534, 543 (1940) (“[W]hen the plain
meaning did not produce absurd results but merely an
unreasonable one ‘plainly at variance with the policy
of the legislation as a whole[,]’ this Court has followed
that purpose, rather than the literal words.”) (citation
omitted). Considering Congress’s remedial purposes
in enacting the ECOA, as well as that the many
definitions of “applicant” do not exclude the possibility
that an “applicant” includes a guarantor, we must
conclude that Congress’s employment of the term
“applicant” is ambiguous with respect to whether it
covers guarantors. For this reason, we must conduct a
Chevron analysis of the Federal Reserve’s answer to
our question of whether the ECOA includes
guarantors within the definition of “applicants.”
C.

Under Chevron, “we may not disturb an agency
rule unless it is ‘arbitrary or capricious in substance,
or manifestly contrary to the statute.’” Mayo Found.
for Med. Educ. & Res. v. United States, 562 U.S. 44,
53 (2011) (quoting Pfennig, 541 U.S. at 242). At
bottom, then, we must ask whether the Federal
Reserve’s inclusion of guarantors in the ECOA’s
definition
of
“applicant”
is
a
“reasonable
interpretation” of the ECOA’s text. Chevron, 467 U.S.
at 844. The Federal Reserve’s interpretation is
reasonable for at least three reasons: it accords with
the ECOA’s text; it furthers a primary purpose of the
ECOA; and, Congress has tacitly approved of the
Federal Reserve’s interpretation.

72a
1. The Federal Reserve’s inclusion of guarantors
within the meaning of “applicants” is consistent
with the ECOA’s text.
First, guarantors fit within the plain meaning of
“applicants.” As I have noted, leading authorities
recognize that guarantors apply to the creditor by
asking it to extend credit to the primary debtor. See
supra at 63.
The Majority Opinion’s conclusion to the contrary
rests on its premise that “[a]lthough a guarantor
makes a promise related to an applicant’s request for
credit, the guaranty is not itself a request for credit.”
Maj. Op. at 12. But the Majority Opinion offers no
support (beyond the Eighth Circuit’s erroneous
conclusion in Hawkins) for the notion that the
guarantor is not requesting that the creditor extend
credit to the primary borrower. Not a treatise. Not an
industry source. Not another statute. Not a
dictionary. Not even something from the remote
reaches of the internet. Instead, the Majority Opinion
relies on its own understanding of credit markets.
But the Majority Opinion’s own view—regardless
of how learned and reasonable—of how terms are used
in credit markets, does not control if the agency’s
interpretation is also reasonable. Indeed, “[t]he
reviewing court may not substitute its judgment for
that of the agency but must, instead, defer to the
agency’s technical expertise” if its interpretation is
within the range of reasonableness. Miami-Dade Cty.
v. E.P.A., 529 F.3d 1049, 1065 (11th Cir. 2008)
(citation and quotation marks omitted). And here, as
I have noted, leading treatises and industry sources
recognize that guarantors request credit. See supra at
63. Since the Federal Reserve’s interpretation of the

73a
text is reasonable—not to mention well-supported—
we must defer to it.
2. The Federal Reserve’s inclusion of guarantors
within the meaning of “applicants” is consistent
with primary purposes of the ECOA.
Second, the Federal Reserve’s interpretation is
reasonable because covering “guarantors” fits
squarely within the wheelhouse of the ECOA’s aims.
As I have noted, in enacting the ECOA, Congress
sought to disentangle sex and marital status from
credit. See Senate Rpt. at 16–17. Congress also set out
“to prevent loans from being conditioned
automatically on the securing of the signature of the
non-borrowing spouse.” Mayes, 167 F.3d at 676.
The Federal Reserve’s interpretation accounts for
and respects these primary goals of the ECOA. But
not including guarantors within the definition of
“applicants” yanks the teeth out of the ECOA. See
supra at 71–73.
3. The Federal Reserve’s inclusion of guarantors
within the meaning of “applicants” is consistent
with congressional abstention from amending
the ECOA to preclude that interpretation,
despite Congress’s other amendments to the
ECOA.
Third, the Federal Reserve’s interpretation of
“applicants” to include guarantors is reasonable, in
view of congressional action on the ECOA since its
enactment in 1974. The Supreme Court has
instructed us to tread lightly where Congress has
amended a statute but declined to disturb the agency’s
interpretation.

74a
For instance, in Texas Department of Housing &
Community Affairs v. Inclusive Communities Project,
Inc., 135 S. Ct. 2507 (2015), the Court considered
whether the statutory language authorized disparateimpact claims under the Fair Housing Act. In
conducting its analysis, the Court found it significant
that Congress declined to alter the language at issue
to preclude such claims, even though Congress had
amended the statute after several Circuits had
determined that the statute authorized such claims.
Id. at 2519. Congress’s inaction, the Court explained,
was “convincing support for the conclusion that
Congress accepted and ratified the unanimous
holdings of the Courts of Appeals finding disparateimpact liability.” Id. at 2520; see also Gen. Dynamics,
540 U.S. at 593–94 & n.6 (noting that the two federal
appellate courts and nearly all the district courts to
consider the issue held that the Age Discrimination in
Employment Act of 1967 did not prohibit favoring
older employees over younger ones: “The very
strength of this consensus is enough to rule out any
serious claim of ambiguity, and congressional silence
after years of judicial interpretation supports
adherence to the traditional view.”).
Here, Congress has tinkered with the ECOA no
fewer than three times since 1985, when the Federal
Reserve began construing the ECOA to include
guarantors within the term “applicants.” See, e.g.,
Dodd-Frank Wall Street Reform and Consumer
Protection Act, Pub. L. 111-203, §§ 1071, 1474, 124
Stat. 1376, 2056–57, 2199–2200 (2010); Omnibus
Consolidated Appropriation Act, 1997, Pub. L. 104208, § 2302, 110 Stat. 3009 (1996); Federal Deposit
Insurance Corporation Improvement Act of 1991, Pub.
L. 102-242, §§ 212(d), 223, 105 Stat. 2236 (1991).

75a
And up until 2014, when the Eighth Circuit
issued Hawkins, the “vast majority of courts” that
examined the issue found that guarantors had
standing under the ECOA. See RL BB, 754 F.3d at
386. True, as the Majority Opinion notes, many of the
cases deciding this issue offered little reasoning for
their decisions. Maj. Op. at 25–26. But the Supreme
Court does not require otherwise. While the Court
acknowledged the judicial consensus of the
interpretation of the Fair Housing Act in Texas
Department of Housing, contrary to the Majority
Opinion’s characterization, it did not require the
lower courts’ decisions to be “reasoned.” Maj. Op. at
26. It noted simply that the courts that had
“addressed” the issue had consistently come out the
same way. Tex. Dep’t of Hous., 135 S. Ct. at 2519. And
most of the cases the Court referenced were not
particularly well-reasoned; they just adopted what
other circuits had done. See, e.g., Hanson v. Veterans
Admin., 800 F.2d 1381, 1386 (5th Cir. 1986) (noting
and adopting analysis from other circuits that Fair
Housing Act violations can be proven with a showing
of discriminatory effect); Arthur v. City of Toledo,
Ohio, 782 F.2d 565, 574–75 (6th Cir. 1986) (same);
United States v. Marengo Cty. Comm’n, 731 F.2d 1546,
1559, n.20 (11th Cir. 1984) (same); Smith v. Town of
Clarkton, N.C., 682 F.2d 1055, 1065 (4th Cir. 1982)
(same); Halet v. Wend Inv. Co., 672 F.2d 1305, 1311
(9th Cir. 1982) (same).
The more important point, though, is that
Congress has long been on notice as to how federal
courts have interpreted the ECOA and Regulation B.
And with that knowledge in hand, Congress amended
the law multiple times and never considered tweaking
the ECOA to abrogate these courts’ approval of the

76a
Federal Reserve’s interpretation. Even after the
Seventh Circuit issued Moran, in which a Court of
Appeals—for the first time—voiced doubts in dicta
about the Federal Reserve’s interpretation, Congress
left the ECOA’s definition of “applicant” the same,
even though it substantively amended the ECOA
three years later, in 2010. So Congress declined to
take the Seventh Circuit up on its invitation to cap the
supposed “vistas of liability” that the Seventh Circuit
concluded Congress was “unlikely to accept.” Moran,
476 F.3d at 441. Congressional inaction on this point
in the face of thirty years of uniformity “supports
adherence to the traditional view,” Gen. Dynamics,
540 U.S. at 594, that the Federal Reserve’s inclusion
of guarantors within the term “applicants” is valid.
III.

We should dismiss this case because it is not
properly before us. The Majority Opinion’s insistence
on “resolving” a claim that no Appellant has presented
to us renders its discussion of the ECOA unnecessary.
But because that discussion incorrectly purports to
truncate the ECOA’s broad reach, it leaves me no
choice but to respond. Unfortunately, the Majority
Opinion’s analysis artificially limits the definitions of
“applicant” and “guaranty”; it conflicts with
congressional aims in enacting the ECOA; and it is
rebutted by Congress’s failure to amend the ECOA to
make guarantors fall outside the meaning of
“applicants,” in the 34 years since the Federal Reserve
has construed the term “applicants” to include
guarantors. Ultimately, the Majority Opinion’s
interpretation of the ECOA ironically allows lenders
to get away with discriminating on the basis of sex or

77a
marital status, the very thing the ECOA meant to
eliminate. I therefore respectfully dissent.

78a
APPENDIX B

UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF FLORIDA
FT. MYERS DIVISION
Civ. No. 2:14-476-FtM-PAM-MRM
REGIONS BANK, PLAINTIFF
v.
LEGAL OUTSOURCE, PA, PERIWINKLE PARTNERS, LLC,
CHARLES PAUL-THOMAS PHOENIX, LISA M. PHOENIX,
DEFENDANTS

Filed: Feb. 6, 2017
AMENDED MEMORANDUM AND ORDER

This matter is before the Court on Plaintiff’s
Motion for Summary Judgment. For the following
reasons, the Motion is granted in part and denied in
part.
BACKGROUND

Beginning in 2005, Defendant Legal Outsource,
P.A., had a revolving line of credit of $450,000 with
Plaintiff Regions Bank, renewed on a yearly or semiyearly basis. The loan agreement was signed on May
30, 2013, by Legal Outsource and guaranteed by
Defendant Charles Paul-Thomas Phoenix, who is also
acting as counsel for all Defendants here. (Compl. Exs.
A, B, D.) The 2013 loan matured in February 2014,
and Legal Outsource did not pay it. On April 4, 2014,

79a
Regions demanded full payment under the loan. (Id.
Ex. E.)
In 2011, Regions lent nearly $1.7 million to
Periwinkle Partners LLC, for the purchase of a
shopping center on Sanibel Island. (Id. Exs. F-O.) At
the time of the loan transaction, the sole member of
Periwinkle Partners was a company owned by Charles
Phoenix’s wife, Lisa Phoenix, called the AT Phoenix
Company. Charles Phoenix signed the promissory
note as manager of Periwinkle. (Id. Ex. F.) Charles
Phoenix, Lisa Phoenix, and Legal Outsource all
provided guaranties for the Periwinkle loan. (Id. Ex.
M-O.)
Under the terms of the Periwinkle loan, a default
of any other loan between the parties constituted an
event of default under the Periwinkle loan. (Id. Ex. F.)
After the Legal Outsource loan default, Regions
declared a default of the Periwinkle loan and sought
to accelerate that loan and for full payment of the loan
balance. Several months later, Regions amended its
default claims for the Periwinkle loan to include as
events of default that the AT Phoenix Company
transferred its interest in Periwinkle to a third party
(1st Am. Answer Ex. 11), and that Periwinkle had
failed to pay ad valorem taxes in 2013 (id. Ex. 12).
Defendants claim that Regions decided it wanted
the shopping center as collateral for the Legal
Outsource line of credit, and began demanding
unreasonable documentation from Defendants in
2013. They contend that the Legal Outsource credit
line had been renewed yearly since 2005 with no
issues, and thus that the “default” in 2014 was a
manufactured default to attempt to force Defendants
to collateralize the shopping center. Defendants do

80a
not contend, however, that they are not in default
under the Legal Outsource loan, and cannot dispute
that this default constitutes an event of default under
the Periwinkle loan as well.
The Complaint contains six counts. Count I
claims breach of the Legal Outsource note, Count II
claims a breach of the guaranties for the Legal
Outsource loan, Count III claims breach of the
Periwinkle note, Count IV claims a breach of the
guaranties for the Periwinkle loan, Count V seeks a
foreclosure of the Periwinkle property, and Count VI
seeks a receivership.
Defendants answered the Complaint and
interposed numerous counterclaims. As relevant to
Regions’s Motion, Counterclaims 1, 3, 4, and 5 assert
breach-of-contract, constructive fraud, breach of good
faith and fair dealing, and breach of fiduciary duty on
behalf of Periwinkle. Counterclaim 6 contends that
Charles Phoenix’s signature on the Legal Outsource
loan guaranty is a forgery, and Counterclaim 7 claims
constructive fraud on behalf of Charles Phoenix.
Finally, Counterclaim 11 raises a claim for violation
of the Equal Credit Opportunity Act on behalf of
Periwinkle Partners and Lisa Phoenix.1
On July 27, 2016, the Hon. John E. Steele
bifurcated the forgery counterclaim (Counterclaim
Count 6) from the remaining claims at issue and
determined that a jury trial is available only as to the
forgery counterclaim. (Docket No. 278.)

Counterclaims 2, 8, 9, 10, and 12 were dismissed by prior
Orders. (Docket Nos. 99, 278.)
1

81a
DISCUSSION

Summary judgment is proper only if there are no
disputed issues of material fact and the moving party
is entitled to judgment as a matter of law. Fed. R. Civ.
P. 56(a); Celotex Corp. v. Catrett, 477 U.S. 317, 32223 (1986). The Court must view the evidence and the
inferences that may be reasonably drawn from the
evidence in the light most favorable to the nonmoving
party. Burton v. City of Belle Glade, 178 F.3d 1175,
1187 (11th Cir. 1999).
The moving party bears the burden of showing
that there is no genuine issue of material fact and that
it is entitled to judgment as a matter of law. O’Ferrell
v. United States, 253 F.3d 1257, 1265 (11th Cir. 2001).
When opposing a motion for summary judgment, the
nonmoving party must demonstrate the existence of
specific facts in the record that create a genuine issue
for trial. Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 256 (1986). A party opposing a properly
supported motion for summary judgment may not rest
on mere allegations or denials and must do more than
simply show that there is some metaphysical doubt as
to the material facts. Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 586 (1986).
Defendants appear to be confused about the
proper standard of review for summary judgment
motions. Defendants insist repeatedly that Regions
cannot rely on any fact other than what is pled in the
Complaint. (E.g., Defs.’ Opp’n Mem.) (Docket No. 350)
at 28 (“The Court should disregard ‘supposedly new
factual support and look only to the factual allegations
in the complaint’ subject to the summary judgment
motion.” (quoting Samuels v. Wilder, 871 F.2d 1346
(7th Cir. 1989)).) But the case on which Defendants

82a
rely involved allegations of fraud, which must be pled
with particularity under Rule 9(b). And indeed, in
Samuels, the new factual allegations were unrelated
to the fraud claim as pled, leading the court to
describe the plaintiff’s conduct as an “attempted
bypass of Rule 9(b).” Samuels, 871 F.2d at 1349-50.
The claims here, by contrast, are breach-of-contract
claims that can be pled generally. The failure to
include a fact in the Complaint does not preclude
summary judgment.
A.

Breach of Note/Guaranties

Under Florida law, a claim for breach of a note or
breach of a loan guaranty has the same elements as a
claim for breach of contract. Fifth Third Bank v.
Alaedin & Majdi Invs., Inc., No. 8:11-cv-2206, 2013
WL 623895, at *3 (M.D. Fla. Feb. 20, 2013). To
establish that it is entitled to summary judgment on
its breach-of-contract claims, Regions must show that
there is no genuine issue of material fact as to (1) the
existence of a valid contract; (2) a material breach of
that contract; and (3) damages. Beck v. Lazard Freres
& Co., LLC, 175 F.3d 913, 914 (11th Cir. 1999).
With the exception of their forgery claim,
discussed below, Defendants do not dispute that they
were in default under the relevant notes and
guaranties. Rather, Defendants claim that Regions
had an ulterior motive in pursuing default under the
various notes and guaranties. But Regions’s motives
are irrelevant to establishing the elements of its
claims. At most, the motive goes only to the relief to
which Regions is entitled. Summary judgment is
appropriate on the breach claims (Counts I–IV.)

83a
B.

Foreclosure

Count V seeks to foreclose on the Periwinkle
property. But as Defendants note, foreclosure is an
equitable remedy and equity requires clean hands.
Moreover, the Periwinkle default was a technical
default—there is no allegation that Defendants failed
to make their payments under that loan—and it is an
open question whether foreclosure will lie for a
technical loan default under Florida law. “[E]quity
requires that a defendant in foreclosure be excused
where, as here, the defendant is technically in default
. . . , the default is cured by the defendant . . . , and the
default has not resulted in an impairment of the
security.” Nazzaro v. Moksel, 483 So. 2d 884, 884 (Fla.
Dist. Ct. App. 1986); see also Pezzimenti v. Cirou, 466
So. 2d 274, 276 (Fla. Dist. Ct. App. 1985) (“The general
rule in Florida is that there must be impairment of the
security before foreclosure is granted and foreclosure
must not be unconscionable or inequitable.”).
Regions does not address the equitable nature of
this remedy, merely arguing that because it is the
undisputed holder of the Periwinkle note and
mortgage, and the Perwinkle loan is in default, it is
entitled to foreclose. Florida law requires that Regions
establish that the default impaired the security,
something Regions has not done. Summary judgment
on the foreclosure claim is not warranted.
C.

Counterclaims

Defendants’ only argument in response to
Regions’s Motion for Summary Judgment on the
Counterclaims is that Regions’s Answer to those
Counterclaims was filed several days too late and
should be stricken. But such a drastic remedy for a
slightly late filing is simply not appropriate.

84a
Defendants do not offer any other substantive
argument regarding their Counterclaims, and
Regions has established that those Counterclaims
have no merit. Defendants have no evidence that
Regions breached the loan agreements, and the
breach-Counterclaim thus fails. Nor do Defendants
have any evidence that Regions breached the
covenant of good faith and fair dealing. Even if such
evidence existed, under Florida law a breach of the
covenant of good faith and fair dealing must be
founded on a breach of an express term of the parties’
contract. Ins. Concepts & Design, Inc. v. Healthplan
Servs., Inc., 785 So. 2d 1232, 1234 (Fla. Dist. Ct. App.
2001). Without evidence of any breach of the loan
agreements, Defendants have no claim for breach of
the covenant of good faith and fair dealing.
Defendants fiduciary-duty claim fails because
there was no fiduciary relationship here as a matter
of law. See Jaffe v. Bank of Am., N.A., 667 F. Supp. 2d
1299, 1319 (S.D. Fla. 2009) (“[I]n an arms-length
transaction [ ] there is no duty imposed on either party
to act for the benefit or protection of the other
party . . . .”). And although Defendants do not even
attempt to establish the elements of their claim for
constructive fraud, such a claim fails in any event
because there was no confidential or fiduciary
relationship between Defendants and Regions.
“Under Florida law, constructive fraud occurs ‘when a
duty under a confidential or fiduciary relationship has
been abused or where an unconscionable advantage
has been taken.’” Am. Honda Motor Co. v. Motorcycle
Info. Network, Inc., 390 F. Supp. 2d 1170, 1179 (M.D.
Fla. 2005) (quoting Levy v. Levy, 862 So. 2d 48, 53
(Fla. Dist. Ct. App. 2003)).

85a
Defendants’ ECOA counterclaim as to Periwinkle
Partners is frivolous. The ECOA prohibits a creditor
from discriminating against an “applicant, with
respect to any aspect of a credit transaction . . . on the
basis of . . . marital status.” 15 U.S.C. § 1691.
Periwinkle Partners cannot avail itself of the
protections of this Act because it is a company, not an
individual, and it cannot have a marital status. The
claim fails as to Lisa Phoenix as well because, aside
from the lack of any evidence to establish any alleged
discrimination on the basis of marital status, she was
not an “applicant” for the Periwinkle loan, she was a
guarantor. Defendants contend that a guarantor can
be an applicant under the Federal Reserve’s
interpretation of the ECOA, but Judge Steele
specifically held the opposite in this case: “[T]his
Court holds that to the extent that defendants are
asserting their counterclaims for violation of the
ECOA in their capacities as guarantors, those claims
are due to be dismissed.” (Order (Docket No. 278) at
10.) The remaining ECOA counterclaim is dismissed.
Finally, Defendants do not address the substance
of their forgery counterclaim, and Regions has
established that this claim is without merit. In his
deposition, Charles Phoenix admitted that the
signature he now challenges was his. (C. Phoenix Dep.
(Docket No. 313) at 104-05.) Moreover, Defendants’
handwriting expert did not opine that the relevant
signature was forged. Rather, she opined that a
signature on a different document altogether was not
legitimate. (Hoetzel Decl. (Docket No. 137-2) ¶ 5
(stating that C. Phoenix’s signature on “Agreement to
Waive Garnishment” is a forgery).) In opposing
Regions’s Motion for Summary Judgment, Defendants
must come forward with evidence to establish that

86a
there are questions of fact as to their forgery claim.
They have utterly failed to do so. Summary judgment
is therefore granted as to the forgery counterclaim.
CONCLUSION

Accordingly, IT IS HEREBY ORDERED that:
1.

Plaintiff’s Motion for Summary Judgment
(Docket No. 307) is GRANTED in part and
DENIED in part;

2.

Plaintiff is entitled to judgment on Counts I,
II, III, and IV of its Complaint (Docket No.
1); and

3.

Counterclaim Counts 1, 3, 4, 5, 6, 7, and 11
are DISMISSED with prejudice.

Dated: February 6, 2017
s/ Paul A. Magnuson
Paul A. Magnuson
United States District Court Judge

87a
APPENDIX C

UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF FLORIDA
FT. MYERS DIVISION
Civ. No. 2:14-476-FtM-PAM-MRM
REGIONS BANK, PLAINTIFF
v.
LEGAL OUTSOURCE, PA, PERIWINKLE PARTNERS, LLC,
CHARLES PAUL-THOMAS PHOENIX, LISA M. PHOENIX,
DEFENDANTS

Filed: July 27, 2016
OPINION AND ORDER

This matter comes before the Court on review of
plaintiff/counter-defendant Region Bank’s Motion to
Dismiss Second Amended Counterclaim, Motion to
Strike Demand for Trial by Jury, and Incorporated
Memorandum of Law (Doc. #141) filed on February
23, 2016. Defendants/counter-plaintiffs filed a
Response (Doc. #218) on April 21, 2016. Also before
the Court is plaintiff/counter-defendant Regions
Bank’s Motion to Bifurcate for Purposes of Trial
Count VI of Counterclaim, the Forgery Count (Doc.
#84) filed November 30, 2015, to which
defendants/counter-plaintiffs filed a Response (Docs.
## 113, 114) on December 18, 2015.

88a
I.

Plaintiff Regions Bank (“plaintiff” or “Regions
Bank”) initiated this foreclosure action on August 20,
2014, by filing a Verified Complaint against Legal
Outsource PA (“Legal Outsource”), Periwinkle
Partners LLC (“Periwinkle”), Charles Paul-Thomas
Phoenix (“C. Phoenix”), and Lisa M. Phoenix (“L.
Phoenix”) (collectively, “defendants”). (Doc. #1.) On
October 6, 2014, each defendant filed a motion to
dismiss and motion to strike the Verified Complaint.
(Docs. ##24-28.) The Court denied the motions on
December 11, 2014 (Doc. #38), and defendants
subsequently filed an Answer and Affirmative
Defenses to Verified Complaint, Counterclaims, and
Demand for Trial by Jury, (Doc. #41). On February 6,
2015, plaintiff moved to dismiss the counterclaims
and to strike defendants’ demand for jury trial. (Doc.
#45.) The Court granted in part and denied in part the
motion (Doc. #68), and defendants filed an Amended
Counterclaim on July 27, 2015, (Doc. #70). On August
20, 2015, plaintiff filed a Motion to Dismiss Amended
Counterclaim, Motion to Strike Demand for Jury
Trial, and Incorporated Memorandum of Law. (Doc.
#72.) On December 3, 2015, the Court granted in part
and denied in part plaintiff’s Motion to Dismiss
Amended Counterclaim. (Doc. #99.) Defendant moved
for leave to file a Second Amended Counterclaim,
which was granted, and defendant filed their First
Amended Answer and Affirmative Defenses and
Second Amended Counterclaim (Doc. #137) on
February 9, 2016.
Periwinkle asserts counterclaims against
Regions Bank for breach of implied covenant of good
faith and fair dealing (counterclaim I), breach of

89a
contract (counterclaim III), constructive fraud
(counterclaim IV), and breach of fiduciary duty
(counterclaim V).1 (Doc. #137, pp. 41-46, 53-53.)
Charles Phoenix asserts counterclaims for declaratory
judgment (counterclaim VI) and constructive fraud
(counterclaim VII).2 (Id. at 46-47.) All defendants
assert counterclaims for violation of the Equal Credit
Opportunity Act (counterclaims IX, X, XI, XII). (Id. at
47-59.) Plaintiff now moves to dismiss counterclaims
IX, X, XI, and XII for violations of the Equal Credit
Opportunity Act and to strike defendants’ demands
for jury trial as to counterclaims VI, IX, X, XI, and XII.
(Doc. #141.)
II. Motion to Dismiss
A.

Standard of Review

“A motion to dismiss a counterclaim pursuant to
Federal Rule of Civil Procedure 12(b)(6) is evaluated
in the same manner as a motion to dismiss a
complaint.” Great Am. Assurance Co. v. Sanchuk,
LLC, No. 8:10-cv-2568-T-33AEP, 2012 WL 195526, at
*2 (M.D. Fla. Jan. 23, 2012) (citation omitted). Under
Federal Rule of Civil Procedure 8(a)(2), a Complaint
must contain a “short and plain statement of the claim
showing that the pleader is entitled to relief.” Fed. R.
Civ. P. 8(a)(2). This obligation “requires more than
labels and conclusions, and a formulaic recitation of
the elements of a cause of action will not do.” Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 555 (2007) (citation
omitted). To survive dismissal, the factual allegations
must be “plausible” and “must be enough to raise a
right to relief above the speculative level.” Id. at 555.
1

Counterclaim II was previously dismissed by this Court.

2

Counterclaim VIII was previously dismissed by this Court.

90a
See also Edwards v. Prime Inc., 602 F.3d 1276, 1291
(11th Cir. 2010). This requires “more than an
unadorned,
the-defendant-unlawfully-harmed-me
accusation.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (citations omitted).
In deciding a Rule 12(b)(6) motion to dismiss, the
Court must accept all factual allegations in a
complaint as true and take them in the light most
favorable to plaintiff, Erickson v. Pardus, 551 U.S. 89
(2007), but “[l]egal conclusions without adequate
factual support are entitled to no assumption of
truth,” Mamani v. Berzain, 654 F.3d 1148, 1153 (11th
Cir. 2011) (citations omitted). “Threadbare recitals of
the elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Iqbal, 556 U.S.
at 678. “Factual allegations that are merely consistent
with a defendant’s liability fall short of being facially
plausible.” Chaparro v. Carnival Corp., 693 F.3d 1333,
1337 (11th Cir. 2012) (internal quotation marks and
citations omitted). Thus, the Court engages in a twostep approach: “When there are well-pleaded factual
allegations, a court should assume their veracity and
then determine whether they plausibly give rise to an
entitlement to relief.” Iqbal, 556 U.S. at 679.
B.

Facts

The facts alleged in the Second Amended
Counterclaim are as follows: In 2005, Regions Bank
provided Legal Outsource with a $450,000 revolving
line of credit pursuant to the terms of several written
loan documents (the “Legal Outsource Loan”). (Doc.
#137, ¶ 8.) The obligation secured by the line of credit
matured on February 1, 2014, and was not paid in full.
(Id. ¶ 22.) Prior to the default, the course of dealing
between Regions Bank and Legal Outsource was such

91a
that Regions Bank historically renewed the loan upon
maturity. (Id. ¶ 10.)
Plaintiff asserts that C. Phoenix executed and
delivered a Commercial Guaranty to Regions Bank on
May 30, 2013, absolutely and unconditionally
guaranteeing repayment of the Legal Outsource Loan.
(Id. ¶ 11.) Defendants allege that the signature on the
Commercial Guaranty is a forgery. (Id. ¶¶ 11-16.)
In 2011, Regions Bank and Periwinkle executed
a loan agreement related to real estate (the
“Periwinkle Loan”) located at 2407 Periwinkle Way,
Sanibel, Florida (the “Property”). (Id. ¶ 17.) Both L.
Phoenix and C. Phoenix provided plaintiff with
written guaranties of the Periwinkle Loan pursuant
to a “Business Loan Agreement.” (Id.) Legal
Outsource also executed a Commercial Guaranty
absolutely
and
unconditionally
guaranteeing
3
repayment of the Periwinkle Loan. (See id. ¶ 22.) The
The “Periwinkle Loan Documents,” as identified in plaintiff’s
Verified Complaint, consist of a Promissory Note in the original
principal amount of $1,680,000, executed and delivered by
Periwinkle to plaintiff on August 26, 2011 (Doc. #1-6); a Business
Loan Agreement executed and delivered by Periwinkle to
plaintiff on August 26, 2011 (Doc. #1-7); a Promissory Note in the
original principal amount of $1,621,528, executed and delivered
by Periwinkle to plaintiff on February 1, 2013 (Doc. #1-8); an
Amendment to Promissory Note (Doc. #1-9); a Mortgage executed
and delivered by Periwinkle to plaintiff on August 26, 2011 and
granting Regions Bank a security interest and mortgage lien in
certain collateral located at 2407 Periwinkle Way, Sanibel,
Florida 33957 (Doc. #1-10); an Assignment of Rents, executed
and delivered by Periwinkle to secure the obligation (Doc. #1-11);
a Commercial Security Agreement executed and delivered by
Periwinkle to plaintiff on August 26, 2011 (Doc. #1-12); a
Commercial Guaranty executed and delivered by Legal
Outsource to Regions Bank on August 26, 2011, absolutely and
3

92a
Periwinkle Loan matures on November 26, 2018, and
Periwinkle has never missed a scheduled payment.
(Id. ¶¶ 17-18.)
After it obtained the Periwinkle Loan in August
2011, Periwinkle improved the Property by replacing
the roofs, painting the exterior of the buildings,
making minor repairs, significantly improving the lift
station, and completely remodeling one of the
buildings. (Id. ¶ 23.) As a result of the improvements,
the Property’s fair market value exceeds the balance
due on the Periwinkle Loan. (Id. ¶ 25.)
In 2013, Regions Bank started causing
defendants operational and financial difficulty by
repeatedly demanding financial information that had
already been provided. (Id. ¶ 29.) Regions Bank also
maintained that Periwinkle violated the “debt service
coverage ratio” covenants in October 2013, and
asserted a default under the Periwinkle Loan
Documents. (Id. ¶ 30.) After Periwinkle demonstrated
that Regions Bank’s internal calculations did not
follow the formula expressed in the loan documents,
Regions Bank discontinued its pursuit of this alleged
default. (Id.)
On several occasions, Regions Bank asked
Periwinkle to collateralize the Legal Outsource Loan
unconditionally guaranteeing repayment of the obligation
incurred by Periwinkle (Doc. #1-13); a Commercial Guaranty
executed and delivered by C. Phoenix to Regions Bank on August
26, 2011, absolutely and unconditionally guaranteeing
repayment of the obligation incurred by Periwinkle (Doc. #1-14);
and a Commercial Guaranty executed and delivered by L.
Phoenix to Regions Bank on August 26, 2011, absolutely and
unconditionally guaranteeing repayment of the obligation
incurred by Periwinkle (Doc. #1-15).

93a
with the Property and pressured Periwinkle to pay off
the Periwinkle Loan prior to its November 26, 2018
maturity date. (Id. ¶ 32.) Regions Bank also asked
Legal Outsource and Periwinkle to refinance their
respective loans with another lender. (Id.)
The Legal Outsource Loan matured on February
1, 2014, and was not paid in full, constituting an event
of default. (Id. ¶ 22.) Regions Bank notified Legal
Outsource and C. Phoenix of the default and
demanded payment in full via a demand letter dated
April 4, 2014. (Doc. #137-8.) Legal Outsource and C.
Phoenix, however, did not cure the default.
On April 24, 2014, Regions Bank, by way of letter,
notified Periwinkle of the maturity of the Legal
Outsource Loan and stated that neither Legal
Outsource nor C. Phoenix had paid off the debt. (Doc.
#137-9.) The letter further stated that Legal
Outsource and C. Phoenix are guarantors of a loan
between Regions Bank and Periwinkle and that their
default on the Legal Outsource Loan is an event of
default pursuant to the terms of the Periwinkle Loan.
(Id.) Regions Bank indicated that it would not initiate
litigation as result of the alleged default if it was
provided with a term sheet from another lender
indicating its willingness to refinance the debt on or
before May 9, 2014. (Id.)
In a subsequent letter to Periwinkle, dated June
17, 2014, Regions Bank falsely asserted that “an
additional event of default exists in that The AT
Phoenix Company, which was represented to the
Bank as the sole member of Periwinkle Partners LLC,
has apparently transferred its interest to third
parties.” (Doc. #137-11.) Another event of default was
identified in a letter dated June 20, 2014, specifically

94a
that Periwinkle failed to pay the 2013 ad valorem
taxes on the Property. (Doc. #137-12.) Defendants
allege that Regions Bank’s position with regard to the
2013 ad valorem taxes on the Property differed from
its position as to the 2011 and 2012 ad valorem taxes
on the Property. (Doc. #137, ¶ 34.) Defendants have
yet to cure the alleged defaults, prompting the
initiation of this action.
C.

Equal Credit Opportunity Act

Plaintiff moves to dismiss counterclaims nine
through twelve of defendants’ Second Amended
Counterclaim for failure to state a claim under the
Equal Credit Opportunity Act (“ECOA”). (Doc. #141,
pp. 5-7.) Plaintiff asserts that counterclaims 9-12 “are
all brought by guarantors of the Periwinkle
Obligation, none of whom is an ‘applicant’ within the
ambit of the ECOA.” (Id. at 7.)
The ECOA makes it “unlawful for any creditor to
discriminate against any applicant, with respect to
any aspect of a credit transaction . . . on the basis of
. . . marital status.” 15 U.S.C. § 1691. The statute
defines “applicant” as “any person who applies to a
creditor directly for an extension, renewal, or
continuation of credit, or applies to a creditor
indirectly by use of an existing credit plan for an
account exceeding a previously established credit
limit.” 15 U.S.C. § 1691a(b).
Defendants rely on the Federal Reserve’s
interpretation of the statutory definition which
defines an applicant as “any person who requests or
who has received an extension of credit from a
creditor, and includes any person who is or may
become contractually liable regarding an extension of

95a
credit. For purposes of § 202.7(d), the term includes
guarantors, sureties, endorsers, and similar parties.”
12 C.F.R. § 202.2(e) (emphasis added).
As was the precise issue in Hawkins v.
Community Bank of Raymore, 761 F.3d 937 (8th Cir.
2015), aff’d, 136 S. Ct. 1072 (2016) (Mem.), “[t]his case
turns on, then, whether we should apply § 202.2(e)’s
definition of applicant, which would permit
[defendants] to pursue an ECOA claim as applicants
solely because they executed guarantees to secure
[the] loan[s].” Id. at 940. The Eighth Circuit applied
the two-step framework laid out in Chevron U.S.A.,
Inc. v. Natural Resources Defense Council, 467 U.S.
837 (1984), and held that “[b]cause the text of the
ECOA is unambiguous regarding whether a
guarantor constitutes an applicant, we will not defer
to the Federal Reserve’s interpretation of an applicant
. . . .” Hawkins, 761 F.3d at 942. Accordingly, the
Eighth Circuit held that “a guarantor is not protected
from marital-status discrimination by the ECOA.” Id.
The Supreme Court affirmed the decision on appeal.
Hawkins v. Cmty. Bank of Raymore, 136 S. Ct. 1072
(2016) (Mem.). As such, this Court holds that to the
extent that defendants are asserting their
counterclaims for violation of the ECOA in their
capacities as guarantors, those claims are due to be
dismissed.
Counterclaim IX is asserted by C. Phoenix in his
capacity as a guarantor to the loan made by plaintiff
to Periwinkle Partners. (Doc. #137, pp. 47-50.)
Accordingly, the Court dismisses counterclaim IX
with prejudice. Counterclaim X is asserted by Legal
Outsource as a guarantor to the loan made by plaintiff
to Periwinkle Partners. (Id. at 50-53.) Accordingly, the

96a
Court dismisses counterclaim X with prejudice.
Counterclaim XI is asserted by L. Phoenix and
Periwinkle Partners. (Id. at 53-56.) The Second
Amended Counterclaim alleges that L. Phoenix and
Periwinkle Partners were applicants for the loan at
issue. (Id. ¶ 112.) Pursuant to the Periwinkle loan
documents,4 it appears that the Periwinkle loan was
solely between Periwinkle Partners and plaintiff, and
L. Phoenix was merely a guarantor. (Docs. ##1-6 – 115.) However, to the extent that L. Phoenix is an
applicant under 15 U.S.C. § 1691a(b), as alleged, the
Court denies plaintiff’s motion to dismiss. At this
stage of the proceedings, the Court finds that L.
Phoenix and Periwinkle Partners have sufficiently
alleged that they are applicants under the ECOA.
Accordingly,
plaintiff’s
motion
to
dismiss
counterclaim XI is denied. Counterclaim XII is
asserted by L. Phoenix as a guarantor to the loan
made by plaintiff to Periwinkle Partners. (Doc. #137,
pp. 56-59.) Accordingly, the Court dismisses
counterclaim XII with prejudice.
D.

Jury Trial Waiver

Defendants’ Second Amended Counterclaim
demands trial by jury for counterclaims VI, IX, X, XI,
and XII. (Id. at 29.) Plaintiff moves to strike the
4 Although the loan documents are attached to the complaint and
not to the counterclaim, the counterclaim seeks damages for
violations of the ECOA arising out of the loan documents. Thus,
the Court may properly consider the terms of the loan documents
without converting the motion to dismiss into a motion for
summary judgment when ruling on plaintiff’s motion to dismiss.
FSC Franchise Co. v. Express Corp. Apparel, LLC, No. 8:09-cv454-T-23TGW, 2009 WL 3200656, at *1 n. 1 (M.D. Fla. Oct. 2,
2009) (citing Collins v. Morgan Stanley Dean Witter, 224 F.3d
496, 498-99 (5th Cir. 2000)).

97a
demands for jury trial on the basis that
counterclaimants have knowingly, voluntarily, and
intelligently waived any right to trial by jury. (Doc.
#141, pp. 7-11.) In response, defendants assert that a
waiver cannot be based on guarantees that were
obtained in violation of the ECOA and that the Court
has declined to strike defendants’ jury demand in
counterclaim VI on two previous occasions. (Doc.
#218, p. 11.)
“A party may validly waive its Seventh
Amendment right to a jury trial so long as the waiver
is knowing and voluntary.” Bakrac, Inc. v. Villager
Franchise Sys., Inc., 164 F. App’x 820, 823 (11th Cir.
2006). To determine whether a jury trial waiver is
knowing and voluntary, courts consider, among other
factors: (1) the conspicuousness of the provision of the
contract; (2) the level of sophistication and experience
of the parties entering into the contract; (3) the
opportunity to negotiate terms of the contract; (4) the
relative bargaining power of each party; and (5)
whether the waiving party was represented by
counsel. See Collins v. Countrywide Home Loans, Inc.,
680 F. Supp. 2d 1287, 1294 (M.D. Fla. 2010); Allyn v.
W. United Life Assurance Co., 347 F. Supp. 2d 1246,
1251 (M.D. Fla. 2004). No single factor is
determinative; rather, the Court must determine
“whether, in light of all the circumstances, the Court
finds the waiver to be unconscionable, contrary to
public policy, or simply unfair.” Allyn, 347 F. Supp. 2d
at 1252.
As previously held (Doc. #68, p. 14; Doc. #99, pp.
15-16), the Court declines to strike defendants’
demand for jury trial in counterclaim VI on account of
the forgery allegations.

98a
As to counterclaim XI, plaintiff argues that
defendants have knowingly and voluntarily waived
their right to a jury trial with respect to the claims
arising out of the contracts at issue. (Doc. #141, pp. 710.) In response, defendants assert that they have not
waived their right to a jury trial because the
guarantees were obtained in violation of the ECOA.
(Doc. #218, pp. 11-12.)
Assuming a right to a jury trial under the ECOA,5
courts have held that a party can validly waive its
right to a jury trial under the ECOA. Boyd v. U.S.
Bank Nat’l Ass’n, No. 06-2115-KGS, 2007 WL
2822518, at *17 (D. Kas. Sept. 26, 2007) (“[T]he court
has no reason to believe that the general presumption
that a right to a jury trial afforded by the Seventh
Amendment can be waived if done so knowingly and
voluntarily would be any different in an ECOA case.”).
Accordingly, for the reasons articulated by the Court
previously (Doc. #68, pp. 14-16), the Court finds that
defendants knowingly and intelligently waived their
right to a jury trial as to counterclaim XI.

The “ECOA does not provide the right to a jury trial,” Anato v.
USDA Rural Dev., No. CV 12-103-GF-SHE, 2013 WL 3279534,
at *5 (D. Mont. June 27, 2013), and courts have had non-jury
trials on ECOA claims, see Mayes v. Chysler Credit Corp, 37 F.3d
9, 10 (1st Cir. 1994) (“A non-jury trial was held in the district
court. . . .”).
5

99a
III. Motion to Bifurcate

Plaintiff requests a separate trial on Count VI of
the Counterclaim,6 the Forgery Count. (Doc. #84.)
Plaintiff asserts that the witnesses likely to testify in
connection with the Forgery Count are limited and
specific to the Forgery Count — with the exception of
C. Phoenix. (Id. at 5.) Further, plaintiff alleges that if
it is successful on the other counts, and if the
collateral exceeds the amount awarded, the Forgery
Count may become moot. (Id. at 7.) Defendants argue
against bifurcation by asserting that the witnesses
identified by plaintiff are relevant to other issues in
the case and will likely have to be re-called and many
issues relevant to count II of plaintiff’s Complaint
overlap with the issues relevant to counterclaim VI –
specifically relating to the authenticity of C. Phoenix’s
signature. (Doc. #113, pp. 3-8.)
Under Rule 42(b) of the Federal Rules of Civil
Procedure, “[f]or convenience, to avoid prejudice, or to
expedite and economize, the court may order a
separate trial of one or more separate issues, claims,
crossclaims, counterclaims, or third party claims.”
The standard under Rule 42(b) is not high and the
district court has broad discretion when ruling on a
motion to bifurcate. Harrington v. Cleburne Cty. Bd.
of Educ., 251 F.3d 935, 938 (11th Cir. 2001). “The
predominant consideration is a fair and impartial
trial through a balance of benefits and prejudice.”
Plaintiff filed its Motion to Bifurcate before the Court ruled on
plaintiff’s Motion to Dismiss Amended Counterclaim, the filing
of the Second Amended Counterclaim, and before the Motion to
Dismiss Second Amended Counterclaim currently before the
Court. The Court deems the arguments presented are applicable
to the Second Amended Counterclaim and will rule accordingly.
6

100a
Gilbert v. State Farm Mut. Auto. Ins. Co., 311 F.R.D.
685, 686 (M.D. Fla. 2015) (quoting Medtronic Xomed,
Inc. v. Gyrus ENT LLC, 440 F. Supp. 2d 1333, 1334
(M.D. Fla. 2006)).
In addition to the more general factors set forth
in Rule 42(b); i.e., (1) convenience; (2) prejudice;
(3) expedition; and (4) economy; a court reviewing
a motion for separate trials may properly
consider (5) whether the issues sought to be tried
separately are significantly different; (6) whether
they are triable by jury or the court; (7) whether
discovery has been directed to a single trial of all
issues; (8) whether the evidence required for each
issue is substantially different; (9) whether one
party would gain some unfair advantage from
separate trials; (10) whether a single trial of all
issues would create the potential for jury bias or
confusion; and (11) whether bifurcation would
enhance or reduce the possibility of a pretrial
settlement.
Kimberly-Clark Corp. v. James River Corp. of Va., 131
F.R.D. 607, 608 (N.D. Ga. 1989) (citation omitted).
Applying the relevant factors, the Court grants
plaintiff’s Motion to Bifurcate. Plaintiff’s Complaint
(Doc. #1) and defendants’ Answer and Affirmative
Defenses (Doc. #41, pp. 1-21) do not contain jury
demands, and the parties’ case management report
provided the trial would be non-jury, (Doc. #33, p. 3).
Defendants’ demands for jury trial as to its
counterclaims have been stricken as to all counts
except for counterclaim VI — the Forgery Count. (Doc.
#41, pp. 22-42; Doc. #68, pp. 13-16; Doc. #99, pp. 1417.) While the Court agrees that some issues overlap
between the forgery count and the other counts,

101a
parties frequently have to re-call witnesses and
present evidence on more than one occasion during
the course of a trial. Here, defendants/counterplaintiffs have waived their right to a jury trial in all
but one count. Denying the Motion to Bifurcate would
require a jury to sit through countless hours of
irrelevant testimony and evidence that does not
pertain to the single count that they are deciding. The
Court finds the economies that would be achieved by
denying the Motion to Bifurcate do not justify the
waste of time, and potential confusion, to the jurors.
Accordingly, the Court grants plaintiff’s Motion to
Bifurcate.
Accordingly, it is now
ORDERED:

1. Plaintiff Region Bank’s Motion to Dismiss
Second Amended Counterclaim, Motion to Strike
Demand for Trial by Jury, and Incorporated
Memorandum of Law (Doc. #141) is GRANTED in part
and DENIED in part.
2. Counterclaims IX, X, and XII are dismissed
with prejudice.
3. Plaintiff’s Motion to Strike Demand for Trial
by Jury is DENIED as to counterclaim VI and
GRANTED as to counterclaim XI.
4. Plaintiff shall have FOURTEEN (14) days from
the date of this Opinion and Order to file a responsive
pleading
to
defendants’
Second
Amended
Counterclaim.
5. Plaintiff’s Motion to Bifurcate, for Purposes of
Trial Count VI of Counterclaim, the Forgery Count
(Doc. #84) is GRANTED.

102a
DONE AND ORDERED at Fort Myers, Florida,

this 27th day of July, 2016.
/s/ John E. Steele
JOHN E. STEELE
SENIOR UNITED STATES DISTRICT JUDGE
Copies: Counsel of record

103a
APPENDIX D

1. 15 U.S.C. § 1691 provides:
Scope of prohibition
(a) Activities constituting discrimination

It shall be unlawful for any creditor to discriminate
against any applicant, with respect to any aspect of a
credit transaction—
(1) on the basis of race, color, religion, national
origin, sex or marital status, or age (provided the
applicant has the capacity to contract);
(2) because all or part of the applicant’s income
derives from any public assistance program; or
(3) because the applicant has in good faith
exercised any right under this chapter.
(b) Activities not constituting discrimination

It shall not constitute discrimination for purposes
of this subchapter for a creditor—
(1) to make an inquiry of marital status if such
inquiry is for the purpose of ascertaining the creditor’s rights and remedies applicable to the particular extension of credit and not to discriminate in
a determination of credit-worthiness;
(2) to make an inquiry of the applicant’s age or
of whether the applicant’s income derives from any
public assistance program if such inquiry is for the
purpose of determining the amount and probable
continuance of income levels, credit history, or
other pertinent element of credit-worthiness as
provided in regulations of the Bureau;
(3) to use any empirically derived credit system
which considers age if such system is demonstrably and statistically sound in accordance with

104a
regulations of the Bureau, except that in the operation of such system the age of an elderly applicant
may not be assigned a negative factor or value;
(4) to make an inquiry or to consider the age of
an elderly applicant when the age of such
applicant is to be used by the creditor in the
extension of credit in favor of such applicant; or
(5) to make an inquiry under section 1691c-2 of
this title, in accordance with the requirements of
that section.
(c) Additional activities not constituting discrimination

It is not a violation of this section for a creditor to
refuse to extend credit offered pursuant to—
(1) any credit assistance program expressly authorized by law for an economically disadvantaged
class of persons;
(2) any credit assistance program administered
by a nonprofit organization for its members or an
economically disadvantaged class of persons; or
(3) any special purpose credit program offered
by a profit-making organization to meet special
social needs which meets standards prescribed in
regulations by the Bureau;
if such refusal is required by or made pursuant to
such program.
(d) Reason for adverse action; procedure applicable;
“adverse action” defined

(1) Within thirty days (or such longer reasonable
time as specified in regulations of the Bureau for any
class of credit transaction) after receipt of a completed

105a
application for credit, a creditor shall notify the applicant of its action on the application.
(2) Each applicant against whom adverse action is
taken shall be entitled to a statement of reasons for
such action from the creditor. A creditor satisfies this
obligation by—
(A) providing statements of reasons in writing
as a matter of course to applicants against whom
adverse action is taken; or
(B) giving written notification of adverse action
which discloses (i) the applicant’s right to a statement of reasons within thirty days after receipt by
the creditor of a request made within sixty days after such notification, and (ii) the identity of the
person or office from which such statement may be
obtained. Such statement may be given orally if
the written notification advises the applicant of his
right to have the statement of reasons confirmed
in writing on written request.
(3) A statement of reasons meets the requirements
of this section only if it contains the specific reasons
for the adverse action taken.
(4) Where a creditor has been requested by a third
party to make a specific extension of credit directly or
indirectly to an applicant, the notification and statement of reasons required by this subsection may be
made directly by such creditor, or indirectly through
the third party, provided in either case that the identity of the creditor is disclosed.
(5) The requirements of paragraph (2), (3), or (4)
may be satisfied by verbal statements or notifications
in the case of any creditor who did not act on more
than one hundred and fifty applications during the

106a
calendar year preceding the calendar year in which
the adverse action is taken, as determined under
regulations of the Bureau.
(6) For purposes of this subsection, the term “ad-

verse action” means a denial or revocation of credit, a
change in the terms of an existing credit arrangement,
or a refusal to grant credit in substantially the
amount or on substantially the terms requested. Such
term does not include a refusal to extend additional
credit under an existing credit arrangement where
the applicant is delinquent or otherwise in default, or
where such additional credit would exceed a
previously established credit limit.
(e) Copies furnished to applicants
(1) In general

Each creditor shall furnish to an applicant a
copy of any and all written appraisals and
valuations developed in connection with the
applicant’s application for a loan that is secured or
would have been secured by a first lien on a
dwelling promptly upon completion, but in no case
later than 3 days prior to the closing of the loan,
whether the creditor grants or denies the
applicant’s request for credit or the application is
incomplete or withdrawn.
(2) Waiver

The applicant may waive the 3 day requirement provided for in paragraph (1), except where
otherwise required in law.
(3) Reimbursement

The applicant may be required to pay a reasonable fee to reimburse the creditor for the cost of the
appraisal, except where otherwise required in law.

107a
(4) Free copy

Notwithstanding paragraph (3), the creditor
shall provide a copy of each written appraisal or
valuation at no additional cost to the applicant.
(5) Notification to applicants

At the time of application, the creditor shall notify an applicant in writing of the right to receive a
copy of each written appraisal and valuation under
this subsection.
(6) Valuation defined

For purposes of this subsection, the term
“valuation” shall include any estimate of the value
of a dwelling developed in connection with a
creditor’s decision to provide credit, including
those values developed pursuant to a policy of a
government sponsored enterprise or by an automated valuation model, a broker price opinion, or
other methodology or mechanism.
2. 15 U.S.C. § 1691a provides in pertinent part:
Definitions; rules of construction

* * * * *
(b) The term “applicant” means any person who
applies to a creditor directly for an extension, renewal,
or continuation of credit, or applies to a creditor indirectly by use of an existing credit plan for an amount
exceeding a previously established credit limit.
* * * * *
(d) The term “credit” means the right granted by a
creditor to a debtor to defer payment of debt or to

108a
incur debts and defer its payment or to purchase property or services and defer payment therefor.
* * * * *
(f) The term “person” means a natural person, a
corporation, government or governmental subdivision
or agency, trust, estate, partnership, cooperative, or
association.
(g) Any reference to any requirement imposed under this subchapter or any provision thereof includes
reference to the regulations of the Bureau under this
subchapter or the provision thereof in question.
3. 15 U.S.C. § 1691b provides in pertinent part:
Promulgation of regulations by the Bureau
(a) In general

The Bureau shall prescribe regulations to carry
out the purposes of this subchapter. These regulations
may contain but are not limited to such classifications,
differentiation, or other provision, and may provide
for such adjustments and exceptions for any class of
transactions, as in the judgment of the Bureau are
necessary or proper to effectuate the purposes of this
subchapter, to prevent circumvention or evasion
thereof, or to facilitate or substantiate compliance
therewith.
(b) Exempt transactions

Such regulations may exempt from the provisions
of this subchapter any class of transactions that are
not primarily for personal, family, or household
purposes, or business or commercial loans made
available by a financial institution, except that a
particular type within a class of such transactions

109a
may be exempted if the Bureau determines, after
making an express finding that the application of this
subchapter or of any provision of this subchapter of
such transaction would not contribute substantially to
effecting the purposes of this subchapter.
(c) Limitation on exemptions

An exemption granted pursuant to subsection (b)
shall be for no longer than five years and shall be extended only if the Bureau makes a subsequent determination, in the manner described by such paragraph,1 that such exemption remains appropriate.
* * * * *
4. 15 U.S.C. § 1691e provides in pertinent part:
Civil liability
(a) Individual or class action for actual damages

Any creditor who fails to comply with any requirement imposed under this subchapter shall be liable to
the aggrieved applicant for any actual damages sustained by such applicant acting either in an individual
capacity or as a member of a class.
(b) Recovery of punitive damages in individual and
class action for actual damages; exemptions; maximum amount of punitive damages in individual actions; limitation on total recovery in class actions;
factors determining amount of award

Any creditor, other than a government or governmental subdivision or agency, who fails to comply with
any requirement imposed under this subchapter shall

1

So in original. Probably should be “subsection,”.

110a
be liable to the aggrieved applicant for punitive damages in an amount not greater than $10,000, in
addition to any actual damages provided in subsection
(a) of this section, except that in the case of a class
action the total recovery under this subsection shall
not exceed the lesser of $500,000 or 1 per centum of
the net worth of the creditor. In determining the
amount of such damages in any action, the court shall
consider, among other relevant factors, the amount of
any actual damages awarded, the frequency and
persistence of failures of compliance by the creditor,
the resources of the creditor, the number of persons
adversely affected, and the extent to which the
creditor’s failure of compliance was intentional.
(c) Action for equitable and declaratory relief

Upon application by an aggrieved applicant, the
appropriate United States district court or any other
court of competent jurisdiction may grant such equitable and declaratory relief as is necessary to enforce the
requirements imposed under this subchapter.
(d) Recovery of costs and attorney fees

In the case of any successful action under subsection (a), (b), or (c) of this section, the costs of the action,
together with a reasonable attorney’s fee as determined by the court, shall be added to any damages
awarded by the court under such subsection.
(e) Good faith compliance with rule, regulation, or interpretation of Bureau or interpretation or approval by an official or employee of Bureau of Consumer
Financial Protection duly authorized by Bureau

No provision of this subchapter imposing liability
shall apply to any act done or omitted in good faith in
conformity with any official rule, regulation, or interpretation thereof by the Bureau or in conformity with

111a
any interpretation or approval by an official or employee of the Bureau of Consumer Financial Protection duly authorized by the Bureau to issue such interpretations or approvals under such procedures as
the Bureau may prescribe therefor, notwithstanding
that after such act or omission has occurred, such rule,
regulation, interpretation, or approval is amended,
rescinded, or determined by judicial or other authority
to be invalid for any reason.
* * * * *
5. 12 C.F.R. § 202.2 (2010) provides in pertinent part:
Definitions.

* * * * *
(e) Applicant means any person who requests or
who has received an extension of credit from a creditor, and includes any person who is or may become
contractually liable regarding an extension of credit.
For purposes of § 202.7(d), the term includes guarantors, sureties, endorsers, and similar parties.
* * * * *
6. 12 C.F.R. § 202.7 (2010) provides in pertinent part:
Rules concerning extensions of credit.

* * * * *
(d) Signature of spouse or other person—(1) Rule
for qualified applicant. Except as provided in this
paragraph, a creditor shall not require the signature
of an applicant’s spouse or other person, other than a

112a
joint applicant, on any credit instrument if the applicant qualifies under the creditor’s standards of creditworthiness for the amount and terms of the credit
requested. A creditor shall not deem the submission of
a joint financial statement or other evidence of jointly
held assets as an application for joint credit.
(2) Unsecured credit. If an applicant requests
unsecured credit and relies in part upon property that
the applicant owns jointly with another person to satisfy the creditor’s standards of creditworthiness, the
creditor may require the signature of the other person
only on the instrument(s) necessary, or reasonably
believed by the creditor to be necessary, under the law
of the state in which the property is located, to enable
the creditor to reach the property being relied upon in
the event of the death or default of the applicant.
(3) Unsecured credit—community property states.
If a married applicant requests unsecured credit and
resides in a community property state, or if the applicant is relying on property located in such a state, a
creditor may require the signature of the spouse on
any instrument necessary, or reasonably believed by
the creditor to be necessary, under applicable state
law to make the community property available to satisfy the debt in the event of default if:
(i) Applicable state law denies the applicant power
to manage or control sufficient community property to
qualify for the credit requested under the creditor’s
standards of creditworthiness; and
(ii) The applicant does not have sufficient separate
property to qualify for the credit requested without
regard to community property.
(4) Secured credit. If an applicant requests secured

113a
credit, a creditor may require the signature of the
applicant’s spouse or other person on any instrument
necessary, or reasonably believed by the creditor to be
necessary, under applicable state law to make the
property being offered as security available to satisfy
the debt in the event of default, for example, an instrument to create a valid lien, pass clear title, waive
inchoate rights, or assign earnings.
(5) Additional parties. If, under a creditor’s
standards of creditworthiness, the personal liability of
an additional party is necessary to support the credit
requested, a creditor may request a cosigner, guarantor, endorser, or similar party. The applicant’s
spouse may serve as an additional party, but the creditor shall not require that the spouse be the additional
party.
(6) Rights of additional parties. A creditor shall
not impose requirements upon an additional party
that the creditor is prohibited from imposing upon an
applicant under this section.
* * * * *

